<html>
<title> - LEGISLATIVE HEARING ON DISCUSSION DRAFT OF H.R., TO PROVIDE FOR CLIMATE CHANGE PLANNING, MITIGATION, ADAPTATION, AND RESILIENCE IN THE UNITED STATES TERRITORIES AND FREELY ASSOCIATED STATES, AND FOR OTHER PURPOSES, ``INSULAR AREA CLIMATE CHANGE ACT''</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                    DISCUSSION DRAFT OF H.R. ____,
                  ``INSULAR AREA CLIMATE CHANGE ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               BEFORE THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, March 4, 2021

                               __________

                            Serial No. 117-1

                               __________

       Printed for the use of the Committee on Natural Resources
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-630 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
         
          
          
                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                JESUS G. ``CHUY'' GARCIA, IL, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
                  BRUCE WESTERMAN, AR, Ranking Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Garret Graves, LA
Joe Neguse, CO                       Jody B. Hice, GA
Mike Levin, CA                       Aumua Amata Coleman Radewagen, AS
Katie Porter, CA                     Daniel Webster, FL
Teresa Leger Fernandez, NM           Jenniffer Gonzalez-Colon, PR
Nydia M. Velazquez, NY               Russ Fulcher, ID
Diana DeGette, CO                    Pete Stauber, MN
Julia Brownley, CA                   Thomas P. Tiffany, WI
Debbie Dingell, MI                   Jerry L. Carl, AL
A. Donald McEachin, VA               Matthew M. Rosendale, Sr., MT
Darren Soto, FL                      Blake D. Moore, UT
Michael F. Q. San Nicolas, GU        Yvette Herrell, NM
Jesus G. ``Chuy'' Garcia, IL         Lauren Boebert, CO
Ed Case, HI                          Jay Obernolte, CA
Betty McCollum, MN                   Cliff Bentz, OR
Steve Cohen, TN
Paul Tonko, NY
Rashida Tlaib, MI
Doris O. Matsui, CA
Lori Trahan, MA

                     David Watkins, Staff Director
                        Sarah Lim, Chief Counsel
               Vivian Moeglein, Republican Staff Director
                   http://naturalresources.house.gov
                   
                              ----------                                

                               CONTENTS

                               ----------                              
                                                                   Page

Hearing held on Thursday, March 4, 2021..........................     1

Statement of Members:

    Gonzalez-Colon, Hon. Jenniffer, a Resident Commissioner in 
      Congress from the Territory of Puerto Rico.................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
    Westerman, Hon. Bruce, a Representative in Congress from the 
      State of Arkansas..........................................    77

Statement of Witnesses:

    Grecni, Zena, Sustained Climate Assessment Specialist, East-
      West Center, Honolulu, Hawaii..............................    49
        Prepared statement of....................................    50
        Questions submitted for the record.......................    58
    Machargo Maldonado, Rafael A., Secretary, Department of 
      Natural and Environmental Resources, San Juan, Puerto Rico.    36
        Prepared statement of....................................    37
        Questions submitted for the record.......................    39
    Monzon, Ada, President, EcoExploratorio, Puerto Rico Science 
      Museum, Guaynabo, Puerto Rico..............................     4
        Prepared statement of....................................     6
        Questions submitted for the record.......................     8
    Oriol, Jean-Pierre L., Commissioner, Department of Planning 
      and Natural Resources, St. Thomas, U.S. Virgin Islands.....    34
        Prepared statement of....................................    74
        Questions submitted for the record.......................    76
    Shelton, Austin, Ph.D., Director, Center for Island 
      Sustainability, University of Guam, Mangilao, Guam.........    66
        Prepared statement of....................................    68
        Questions submitted for the record.......................    70
    Zackios, Gerald M., Ambassador to the United States, Republic 
      of the Marshall Islands, Washington, DC....................    17
        Prepared statement of....................................    18
        Questions submitted for the record.......................    27

Additional Materials Submitted for the Record:

    Save Jauca Committee, December 12, 2020 Letter to Chair 
      Grijalva...................................................    95



 
 LEGISLATIVE HEARING ON DISCUSSION DRAFT OF H.R. ____, TO PROVIDE FOR 
CLIMATE CHANGE PLANNING, MITIGATION, ADAPTATION, AND RESILIENCE IN THE 
 UNITED STATES TERRITORIES AND FREELY ASSOCIATED STATES, AND FOR OTHER 
             PURPOSES, ``INSULAR AREA CLIMATE CHANGE ACT''

                              ----------                              


                        Thursday, March 4, 2021

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 12 p.m., via 
Webex, Hon. Raul M. Grijalva [Chairman of the Committee] 
presiding.
    Present: Representatives Grijalva, Sablan, Lowenthal, 
Porter, Leger Fernandez, DeGette, Soto, Garcia, McCollum, 
Cohen, Tlaib; Westerman, Gohmert, Radewagen, Gonzalez-Colon, 
Stauber, Tiffany, Carl, Rosendale, Moore, and Bentz.

    The Chairman. The Committee will come to order.
    The Committee is meeting today to receive testimony on 
legislation authored to address issues related to our planet's 
changing climate and the impact it is having on our insular 
areas.
    Under Committee Rule 4(f), any oral opening statements at 
the hearing are limited to the Chair and the Ranking Minority 
Member or their designee. This will allow us to hear from our 
witnesses sooner and help Members keep to their schedules.
    Therefore, I ask unanimous consent that all other Members' 
opening statements be made part of the hearing record if they 
are submitted to the Clerk by 5 p.m. today or at the close of 
this hearing, whichever comes first.
    Hearing no objection, so ordered.
    Without objection, the Chair may also declare a recess 
subject to the call of the Chair.
    As described in the notice, statements, documents, or 
motions must be submitted to the electronic repository at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f3bbbda1b0979c9080b39e929a9fdd">[email&#160;protected]</a> house.gov.
    Additionally, please note that as with in-person meetings, 
Members are responsible for their own microphones. As with our 
in-person meetings, Members may be muted by our staff only to 
avoid inadvertent background noise.
    Finally, Members or witnesses experiencing technical 
problems should inform Committee staff immediately.

    Let me now recognize myself for the opening statement, and 
then I will turn to the Ranking Minority Member for their 
statement.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    The Chairman. Last Congress, the Natural Resources 
Committee embarked on an agenda to highlight and gather facts 
on the impact of changing climate on our planet. The Committee 
held the first climate change hearings in nearly a decade and 
took action to fight the climate crisis. We listened to 
scientists, elected leaders, Native American communities, youth 
advocates, and members of the public, and their comments and 
stories informed the action we took on climate change last 
year.
    One of those actions led to the development of the Insular 
Area Climate Change Act of 2021, this discussion draft that is 
before us today.
    U.S. territories and Freely Associated States, also known 
as U.S.-affiliated insular areas, are on the front lines of the 
climate change crisis. In recent years, some territories have 
experienced major natural disasters stemming from climate 
change, including Hurricane Irma, Hurricane Maria in 2017, and 
Typhoon Yutu in 2018.
    Insular areas face sea-level rise, coastal erosion, 
temperature increases, and droughts like other jurisdictions. 
Nevertheless, insular areas experience additional 
vulnerabilities, such as an unequal access to Federal programs, 
an over-reliance on petroleum, and an existing infrastructure 
that fails to meet new hazard-mitigation codes.
    The U.S.-affiliated small island nations increasingly are 
being forced to consider what will happen if the rising sea 
washes over their lands. Specifically, will it mean a loss of 
their sovereignty and resources and having to decide where 
their people go from there?
    The Insular Area Climate Change Act of 2021 discussion 
draft seeks to address these threats by creating an interagency 
task force to identify ways to provide greater access to 
climate-change-related Federal programs to U.S. territories, 
establish an Office of Insular Area Energy Policy and Programs 
within the Department of Energy to centralize and expand 
Federal energy programs in insular areas, and to create 
multiple grant programs to invest in renewable energy and 
sustainable infrastructure in the insular areas.
    Climate change is real, and 97 percent of climate 
scientists agree that climate warming trends over the past 
century are extremely likely due to human activities. We must 
all do our work to reverse this trend, which we aim to do 
through the work of this Committee.
    The Insular Area Climate Change Act and the other bills we 
are seeking to get enacted this year will provide some of the 
additional tools we will need to begin to address climate 
change.
    Thank you.

    With that, let me now turn to the Ranking Member for 
comments. The Ranking Member is recognized.

   STATEMENT OF THE HON. JENNIFFER GONZALEZ-COLON, RESIDENT 
   COMMISSIONER IN CONGRESS FROM THE TERRITORY OF PUERTO RICO

    Miss Gonzalez-Colon. Thank you, Mr. Chairman.
    I want to thank the witnesses for being virtually with us 
today. Specifically, I want to particularly welcome the two 
witnesses from Puerto Rico, Ms. Ada Monzon and Secretary 
Machargo from the Natural and Environmental Resources 
Department. It is great to see you again.
    I would also like to commend, in part, the intent behind 
the draft legislation we have before us today. It is no secret 
that territories, like other coastal communities across the 
nation, face unique climate changes, such as coastal erosion, 
as you said, sea-level rise, and the impact of extreme weather 
events.
    We all recognize the need to tackle these issues, build 
resilience, and implement mitigation measures. But we also 
recognize that territories heavily rely on imported petroleum 
products to meet our energy needs. In Puerto Rico, petroleum-
fired power plants generate almost half of Puerto Rico's total 
electricity, while renewables only account for 2.5 percent of 
our electricity generation.
    Like many, I am sensitive to saving our planet and 
recognize that we should increase our use of renewable energy 
sources. However, I also support an all-of-the-above energy 
approach. I am a strong proponent of liquefied natural gas, 
which provides cheap, clean, and reliable energy. Reliable, I 
think, is crucial for Puerto Rico, especially to support and 
expand our pharmaceutical manufacturing industries.
    The draft legislation we are discussing today authorized 
approximately $200 million through a series of new grants, 
programs, and offices within the Department of the Interior, 
NOAA, the Department of Energy, and EPA. While having resources 
available to the U.S. insular areas is most welcome, I fear 
this bill does little to study existing programs and functions 
that could support some of the goals intended in this 
legislation.
    Additionally, I am concerned about the definition of 
``Insular Areas'' under Section 1469(a) of Title 48 of the U.S. 
Code, to include Puerto Rico. This section currently only 
applies to the other four territories and authorizes Federal 
agencies to waive applicable matching requirements for them. It 
also authorizes Federal agencies to consolidate grants to a 
particular territory under multiple programs. The individual 
territory may then determine the proportion of the consolidated 
grant to be spent on various activities.
    I fear that adding Puerto Rico to the definition of insular 
areas under Title 48 could have unintended consequences of an 
overhaul of how Federal grant programs work on the island. 
Currently, Puerto Rico is often treated as a state for purposes 
of multiple Federal allocations. I am concerned that 
authorizing agencies to consolidate grants, at least for Puerto 
Rico, will not only impact how Federal programs are carried out 
but also the amount of funding we are eligible for.
    Additionally, I will note that the bill includes a portion 
of the Offshore Wind for Territories Act, bipartisan 
legislation I have introduced, to study and, if feasible, 
authorize offshore wind energy development in Federal waters 
adjacent to the territories, which is a bipartisan bill. It 
does not include, however, the bill's revenue-sharing and coral 
reef conservation provisions that our bill includes. It is my 
hope that we can move forward that bill in its entirety as a 
stand-alone this Congress.
    Finally, I am deeply concerned that we will not be hearing 
today from witnesses from the Administration who will be 
charged with implementing this bill if it is signed into law, 
like the Department of the Interior, EPA, NOAA, among others, 
including the Department of Energy.
    I would respectfully ask, Mr. Chairman, that we formally 
ask the Administration or the people who are running those 
agencies at this time for their comments and provide members of 
the Committee a chance to ask them questions. And it remains 
unclear whether any of these programs or office functions will 
be duplicative or redundant.
    Having said that, I thank you, Mr. Chairman, and I yield 
back.

    The Chairman. Let me thank the gentlelady. I appreciate the 
Commissioner's comments. I thought they are well-taken.
    I think your point about, does consolidation mean less, 
does consolidation mean that we are staying at the same cap of 
money and yet with a larger demand and a larger responsibility 
and requirement, I think that is a very valid point that, as 
the legislation moves forward, certainly needs to be looked at.
    And as for the Administration, I concur with your point. 
And as this legislation is finalized, having input from today's 
hearing, and additional discussions with Members continue in a 
bipartisan way, that we have a piece of legislation that the 
Administration needs to comment on, because that is the 
legislation that is projected to move forward. Certainly their 
comments, their opinions, and their recommendations to the 
Committee will not only be forwarded, and hopefully we will 
have an opportunity to have those discussions in person. And I 
appreciate those comments.
    With that, let me now turn to our witnesses.
    Let me begin now--first, let me confer with the Ranking 
Member.
    Mr. Westerman, you wanted to comment on something? Let me 
recognize you. Sorry, I didn't see your signal, but I do now.
    Mr. Westerman, you are recognized.
    If not, let me return to the witnesses.
    Ms. Ada Monzon, Member, Puerto Rico Climate Change 
Committee.
    Ms. Monzon, 5 minutes are yours. The full complement of 
your comments will be made part of the record regardless. The 
floor is yours and the time is yours, Ms. Monzon. You are 
welcome.

  STATEMENT OF ADA MONZON, PRESIDENT, ECOEXPLORATORIO, PUERTO 
           RICO SCIENCE MUSEUM, GUAYNABO, PUERTO RICO

    Ms. Monzon. Thank you. Good afternoon. I would like to 
thank you, Chairman Grijalva, Ranking Member Westerman, and our 
Resident Commissioner, Jenniffer Gonzalez-Colon, for the 
invitation to testify before this Committee.
    It is an honor to share with you today my experience 
regarding the impact of climate change in the island 
environment and the need for swift actions to avoid the 
negative consequences of climate change.
    I am meteorologist Ada Monzon, and I have been a forecaster 
in Puerto Rico for 32 years. During that time, I have 
forecasted Hurricanes Hugo and Georges. Most recently and for 
the first time in my life, I faced the challenge of keeping 
Puerto Rico informed during the passage of the island of two 
Category 5 hurricanes, Irma and Maria.
    I am also an educator and a broadcaster. As an educator, I 
have dedicated my life to teaching about natural hazards and 
connecting science with the communities, especially working 
with non-profits; schools; industries; emergency management; 
local, state, and federal government.
    I am here representing Puerto Rico, the education 
community, nonprofits, through the EcoExploratorio, which hosts 
the Science Museum of Puerto Rico and the Resilience Institute 
of Puerto Rico.
    This conversation is needed because our islands are already 
victims of climate change and are in a very vulnerable position 
compared to other countries in the world. Changes due to 
climate change are already evident along our coasts due to sea-
level rise and coastal erosion, in the temperature and rainfall 
records, in the impact to our corals and marine ecosystems, in 
our health system and economic development, and in our response 
and recovery to catastrophic events.
    First, we need to understand the science and impact of 
climate change in our daily lives. Scientists around the world 
have demonstrated that our global temperatures are rising in an 
unprecedented manner. Under these conditions, there will be 
direct and indirect effects on organisms; hydrological cycles; 
maximum temperature records; decrease in agricultural 
productivity; changes in habitats and wildlife distributions; 
risks to human health, such as stroke and cardiovascular 
diseases; and the quality of life on Earth will significantly 
decrease. Life as we know today will not end but will be 
significantly different.
    We can talk about science related to climate change, and 
there is enough data on this, but what we need to do is the 
right thing in how the Committee can help change and influence 
the future of our islands and country, addressing energy, 
coastal erosion, the weather warnings, and the community needs.
    As important as it is to move to renewable energy to reduce 
greenhouse gas emissions, our islands need to concentrate on 
the implementation of adaptation and mitigation measures to 
reduce health, social, and economic vulnerabilities.
    Current fiscal and economic challenges of the island, 
coupled with an increasingly elderly population, create 
additional challenges for the island's government to prepare 
for, respond to, and recover from climate-related disaster.
    I strongly believe that to transform our communities we 
need to understand their needs, and only then can we design and 
implement programs in ways that community members engage to 
achieve adaptation, resilience, and mitigation.
    Climate and extreme weather events suffered in the last 5 
years in Puerto Rico have catalyzed actions that help us 
advance social transformation in our community, promoting an 
uprising in community-based organizations that have pursued 
sustainable development and climate adaptation. These 
initiatives were centered on the engagement of the communities 
that were impacted by Hurricane Maria and are still recovering 
from the aftermath.
    The question we need to ask ourselves is how to best 
approach it. I would urge this Committee to make sure that 
public policy serves our communities and that we use all the 
scientific knowledge to make it useful to the communities. If 
we have better local emergency management resources, we can 
respond faster.
    If we have accessible and prepared healthcare facilities 
for long-period energy outages, we can respond to people that 
need intensive care, oxygen, insulin, or suffer renal 
deficiency and cancer.
    If we have better data collection of the most vulnerable 
population, we can respond faster. If we have incentives for 
renewable energy practices, we will have less economic impact. 
If we have better agricultural practices, we will have more 
food security.
    If we want to ensure the integrity of ecosystems and the 
protection of biodiversity, some can probably resist external 
environmental stresses. If we have more empathy and solidarity, 
we can better understand community needs and make decisions 
that are community-based, centered on the well-being of the 
community.
    Climate change is real. By experience, we know.
    Thank you for holding this much-needed and important 
hearing.

    [The prepared statement of Ms. Monzon follows:]
             Prepared Statement of Meteorologist Ada Monzon
    Good afternoon. I would like to thank Chairman Grijalva and Ranking 
Member Westerman for the invitation to testify before this Committee on 
the ``Insular Area Climate Change Act.'' It is an honor to share with 
you today my experience regarding the impact of climate change in the 
island environment and the need for swift actions to avoid the negative 
consequences of climate change.
    I am meteorologist Ada Monzon and I have been a forecaster in 
Puerto Rico for 32 years. During that time I have forecasted and given 
weather updates during Hurricanes Hugo and Georges, and more than ten 
other tropical storm and hurricanes. Most recently--and for the first 
time in my life--I faced the challenge of keeping Puerto Rico informed 
during the passage through the Island of two Category 5 hurricanes, 
Irma and Maria. I am also an educator and a broadcaster. As an 
educator, I have dedicated my life to teaching about natural hazards 
and connecting science with the communities, especially working with 
nonprofit organizations, schools, industries, emergency management, 
local, state, and the federal government. I am here representing Puerto 
Rico, the education community, and nonprofits through the 
EcoExploratorio, which hosts the Science Museum of Puerto Rico and the 
Resilience Institute of Puerto Rico.
    This conversation is needed because our islands are already victims 
of climate change and are in a very vulnerable position compared to 
other countries in the world. Changes due to climate change are already 
evident along our coasts due to sea-level rise and coastal erosion, in 
the temperature and rainfall records, in the impact to our corals and 
marine ecosystems, in our health system and economic development, and 
in our response and recovery to catastrophic events.

    First, we need to understand the science and impact of climate 
change on our daily lives.
Temperatures
    Scientists around the world have demonstrated that our global 
temperatures (air and sea surface) are rising in an unprecedented 
manner. The average temperature of the Earth was 57+F between 1951-
1980. Last year (2020) was 58.76+F (1.76+F above average). Models 
project that if there are no actions to stop the greenhouse gases, 
there will be an alarming rate of increase of temperatures:

    <bullet> by 2030 more than 2+F,

    <bullet> by 2050 up to 4+F,

    <bullet> and by 2100 up to 9+F.

    Under these conditions, there will be direct and indirect effects 
on organisms, hydrological cycle, maximum temperature records, decrease 
in agricultural productivity, changes in habitats and wildlife 
distributions, risks to human health such as stroke and cardiovascular 
diseases, which are the primary causes of death most associated with 
elevated summer temperatures, especially in vulnerable populations, and 
the quality of life on Earth will significantly decrease. Life, as we 
know it today, will not end but will be significantly different.
    What is the cause of the changes in temperature? There is plenty of 
evidence saying that this increased warming is related to human beings' 
daily activities around the world, such as producing energy based on 
fossil fuels, as coal and natural gas. The gases that are released into 
the atmosphere that are causing this global warming are carbon dioxide 
and methane. These are greenhouse gases that trap heat, which in turn 
warm the surface of the Earth and our oceans. Due to the influence of 
global warming from decades of greenhouse gas emissions, we now have a 
climate emergency. Immediate actions are needed to control these 
emissions while accelerating our adaptation measures and increasing our 
resilience to deal with this complex crisis.
Sea level
    Since the middle of the 20th century, relative sea levels have 
risen by about 0.08 inches per year on average along the coasts of 
Puerto Rico and the USVI. However, rates have been slowly accelerating 
since the early 2000s, according to the 4th National Assessment for the 
Caribbean Region.

    Under extreme scenarios, relative sea levels are projected to rise 
(compared to levels in 2000) by:

    <bullet> 2050: up to 2.8 feet respectively,

    <bullet> 2100: up to 10.2 feet respectively,

    According to an IPCC report, the world projected sea level rise by 
2100 could be up to 35 feet with a midpoint around 19'. It depends on 
how much of the Greenland and Antarctic ice sheets melt and how much 
ocean water expands. This could lead to an array of serious problems, 
especially for our islands, some of which can become inhabitable. This 
can displace millions of people and cause catastrophic economic damage. 
In Puerto Rico, this means that most of our maritime and our most 
important airport infrastructure will be underwater in less than 100 
years if projections are correct. Saltwater intrusion associated with 
sea-level rise will also reduce the quantity and quality of freshwater 
in coastal aquifers.
    What will this mean to our ocean species? The ecological and 
biological response is not well understood, but certainly, ecosystems 
face severe climate impacts due to sea-level rise, changing temperature 
and rainfall patterns, and are being degraded by pollution, 
overfishing, and unsustainable development.
Rainfall and freshwater
    The impact of climate change on precipitation patterns can be 
particularly important to island communities. Too much rain along the 
mountains of our islands causes disastrous floods and landslides, while 
too little rain can deplete freshwater availability, make an area 
unproductive related to agriculture, and exacerbate water management 
problems, planning, and infrastructure capacity. These conditions will 
result in water rationing and agricultural losses.
    Drought projections for Puerto Rico suggest that under increased 
temperatures, there will be an increase in both drought intensity and 
frequency due to decreases in precipitation.
Hurricanes
    According to NOAA, hurricanes are becoming stronger, and climate 
change is making these storms more intense and destructive. Warming has 
increased the likelihood of a hurricane developing into a Category 3 or 
higher by about 8 percent a decade, and the trend line for this type of 
hurricane is up. As warming continues, the likelihood of having more 
intense storms and moving slower can have an enormous impact on life 
and property. Now we are preparing for the next hurricane season in 
three months.
Impact to Health
    Health impacts include extreme heat that can cause dehydration, 
lack of clean water and sanitation, an increase of air contamination, 
more frequent and stronger Saharan dust events, and vector-borne 
diseases. Mental health impacts are also notable, as most survivors 
experience a high degree of psychological trauma during and after 
hurricane events.
Community Approach
    Catastrophic events reveal that islands have more difficulties in 
responding to hurricane impacts and dealing with extreme impacts. It 
takes longer for disaster logistics and operations to establish, for 
managing supplies, and the time to task the response and recovery is 
enormous. There is a disproportional effect in our geographically small 
islands because we are remote and relatively short on human, food, 
water, and resources.
    As important it is to move to renewable energy to reduce greenhouse 
gas emissions, our islands need to concentrate on the implementation of 
adaptation and mitigation measures to reduce natural, health, social, 
and economic vulnerabilities. Current fiscal and economic challenges of 
the islands, coupled with an increasing elderly population, create 
additional challenges for the islands' governments to prepare for, 
respond to, and recover from climate-related disasters.
    I strongly believe that to transform our communities, we need to 
understand their needs, and only then can we design and implement 
programs in ways that community members engage to achieve adaptation, 
resilience, and mitigation. Therefore, governments, universities, and 
nonprofits need to change their approach by providing community-based 
solutions that can address the impact of climate change. Conversations 
are needed. Listen to their needs, then provide capacity building, 
connect leaders with other sources of information, use mapping tools, 
and look for strategies that are not government-centric for 
catastrophic events. For the immediate response to an extreme event, 
the local emergency management, nonprofits, and volunteer organizations 
are the first responders. Usually, these have extremely limited 
resources and struggle to deliver services. The model or assumption 
that local, state, and federal government will respond immediately is 
not real, and those expectations will not be met in the short term.
    Climate and extreme weather events suffered in the last five years 
in PR have catalyzed actions that helped us to advance social 
transformation in our community, promoting an uprising in community-
based organizations that have pursued sustainable development and 
climate adaptation. There are hundreds of Initiatives (academia, NGOs, 
and communities) that were borne after the hurricane season of 2017. 
Hurricane Maria was a game-changer, and we have learned that empowering 
communities can build a sustainable and equitable future for our 
islands. These initiatives were centered on the engagement of residents 
in neighborhoods that were impacted by Hurricane Maria and are still 
recovering from the aftermath.
    The question we need to ask ourselves is how to best approach it? I 
would urge this committee to make sure that public policy serves our 
communities and that we use all this scientific knowledge to make it 
useful to the communities. If we have better local emergency management 
resources, we can respond faster. If we have accessible and prepared 
healthcare facilities for long period energy outages, we can respond to 
people that need intensive care, oxygen, insulin, or suffer renal 
deficiency and cancer. If we have better data collection of our most 
vulnerable population, those that are medically fragile, live in poor 
communities, and handicapped, we can respond faster. If we have an 
incentive for renewable energy practices, we will have a less economic 
impact and reduce carbon emissions. If we have better agricultural 
practices, we will have more food security. If we want to ensure the 
integrity of ecosystems and the protection of biodiversity, some can 
probably resist external environmental stresses. If we build according 
to codes and mitigate in high-risk zones, damages will be reduced. If 
we maintain our water reservoirs and limit the leakage from pipes, we 
can conserve water. If we recycle, reduce and reuse, we can protect the 
environment. If we have more empathy and solidarity, we can better 
understand community needs and make decisions that are community-based, 
centered on the well-being of the community.
    We all have a responsibility to take actions to save lives, to 
ensure that we focus on public policy that ensures adaptation, 
mitigation, and resilience to climate change, and we have a 
responsibility to educate with empathy and solidarity, to understand 
the need of our communities, to empower them with resources and 
funding, to motivate to act and to ensure a better quality of life for 
our future generations.
    Climate change is real. By experience, we know.

    Thank you for holding this much needed and important hearing.

                                 ______
                                 

   Questions Submitted for the Record to Ms. Ada Monzon, President, 
              EcoExploratorio--Puerto Rico Science Museum
             Questions Submitted by Representative DeGette
Background
    Rep. DeGette's Clean Energy Innovation and Deployment Act includes 
a provision (Section 130 of H.R. 7516 in the 116th Congress) that may 
be of great benefit to people living in U.S. territories, as well as on 
islands and in remote areas worldwide.
    The provision would require the Department of Energy (DOE) to 
establish a certification program for electricity-related technologies 
for use in remote communities. Companies whose products were certified 
could use that fact in marketing the technologies, much as do the 
recipients of DOE's Energy Star label. Facilitating the deployment of 
these technologies would make modern electricity services more 
affordable, reliable, and resilient to households in remote areas, and 
reduce demand for expensive imported fossil fuel-generated electricity 
and the associated carbon emissions.
    Qualifying technologies would include those that can generate 
electricity off-grid (such as solar panels), those that store energy, 
and highly efficient appliances, including lights, cell-phone chargers, 
computers, fans, refrigerators, stoves and ovens. DOE would only 
certify a technology determined to function properly; generate no 
greenhouse gas emissions; be affordable, reliable, durable, safe, and 
protective of human health and the environment; be compatible with 
other technologies relevant to its functioning, including those which 
have been similarly certified; and be available for deployment at 
commercial-scale throughout the territories and states of the United 
States.
    There is already a market for these kinds of technologies, 
especially in developing countries, but many of the products being 
marketed today do not work well, are sold on the basis of fraudulent 
claims, or are not compatible with adjacent technologies (for example, 
a solar panel not being compatible with a battery). Rep. DeGette's 
measure would make DOE the validator of these technologies, thus 
driving their innovation, increasing their quality, protecting 
consumers in the United States and globally, and facilitating the 
deployment of affordable reliable resilient climate-friendly 
technologies to communities in the United States, and around the world, 
that need them the most.

    Question 1. In addition to being on the front lines of climate 
change, are communities on your islands paying much higher electricity 
rates due to the fact that most electricity is generated from imported, 
expensive, and, in many cases, polluting fossil fuels?

    Question 2. Are the electric grids on your islands vulnerable to 
disruption by the effects of climate change, in particular increasing 
storm intensity, water cycle disruption, average temperatures, and sea 
level rise?

    Question 3. Do you believe this puts an additional and unnecessary 
financial strain on those living on your islands?

    Question 4. Given that, do you think there might be a market on 
your islands for affordable reliable resilient equipment to generate 
and use zero-emitting electricity, reducing dependence on expensive 
fossil fuels and the vulnerable electric grid?

    Question 5. Do you think certification of this kind of equipment by 
the U.S. Department of Energy, as described in the Background section, 
would increase consumer confidence in it and thereby promote its use on 
your islands?

    Answer. In compliance with the Committee's request for information, 
and after consideration of the nature of the questions presented by 
Congresswoman DeGette as part of the hearing on Discussion Draft H.R. , 
``Insular Area Climate Change Act'', I consider it prudent to defer the 
questions to individuals or entities with competence over energy 
production or regulation.

    I remain in a truthful disposition to continue working in tandem 
with this honorable Committee to advance climate-conscious discussions 
and policy making.

    Should you require any further assistance of have any questions, 
please do not hesitate to contact me directly.

              Questions Submitted by Representative Graves

    Question 1. I am concerned that the creation of new Federal 
programs may result in duplication with existing programs, diluting 
funding availability and potential impacts. Are existing programs 
failing to meet these needs? If so, could they be reformed to better 
support current inadequacies? Please provide specific examples.

    Answer. There should be subject matter experts on this question 
that can provide more insight into federal energy programs. I 
understand that, for example, the State Energy Program from the DOE 
provides funding for technical assistance to states, territories, and 
the District of Columbia to enhance energy security, advance state-led 
energy initiatives, and maximize the benefits of decreasing energy 
waste. The current act project includes a program to provide annual 
funding for developing and construction energy projects, which is 
currently not covered under any existing program.

    Question 2. Insular areas are unique in many ways, including 
energy. These areas are largely dependent on imports for energy--
resulting in high costs, reduced energy security and vulnerability to 
supply chain disruption. Distributed generation and renewables are a 
very good fit for the natural resource availability of many of these 
areas. However, my concern is that the Federal Government would be 
mandating a singular approach. Even if you were to dramatically 
increase renewables, does it make sense to keep the door open for other 
energy options?

    Answer. The energy vision of Puerto Rico is defined by the 
government leaders of Puerto Rico. Currently, our Island relies 
primarily on imported fossil fuels to meet its energy needs. Our 
electricity is supplied by the Puerto Rico Electric Power Authority 
(PREPA), which is a government agency that owns the electricity 
transmission and distribution system. The government's vision is a 
clear path to progressively increase the share of renewable energy and 
energy efficiency--while being mindful of debt and the properly 
regulated procurement processes. Under the Puerto Rico Energy Public 
Policy Act, PREPA must obtain 40% of its electricity from renewable 
resources by 2025, 60% by 2040, and 100% by 2050. That is now defined 
under Act 33-2019, the Puerto Rico Climate Change Mitigation, 
Adaptation, and Resiliency Act, where Puerto Rico must establish 
climate change public policy and processes to mitigate, adapt and 
increase resiliency by sector. I understand that increasing renewables 
and making them accessible to the general population, especially those 
people that are in the least accessible and marginalized areas, that 
are older, and/or that their health conditions require continuous 
energy supply, should be considered.

    Question 3. A primary reason for a government mandates is that a 
desired outcome does not make financial sense over the long term. Is 
that the case--would renewable energy be more expensive over the long 
term? If not, what is the benefit of having the Federal Government 
impose such mandates (if it potentially ties the hands of these areas 
should a better option come along in the future)?

    Answer. Renewable energy is clearly far cheaper, and studies 
(PREPA's analysis done by Siemens) or Cambio, IEEFA, UPR Professors 
like Marcel Castro and Efrain Carrillo have all found that renewable 
energy is cheaper. Investing now in renewables is a better option, and 
it does not tie our hands if a better option comes along. Continuing to 
spend on more costly fossil fuels has an immediate and significant cost 
and increases our vulnerability and deaths in catastrophic events.

      Questions Submitted by Resident Commissioner Gonzalez-Colon
    Question 1. What should be the priority when addressing climate 
change issues in Puerto Rico and other coastal communities in the 
United States?

    Answer. There are three main impacts of climate change: 
Environment, Health, and Economic Development, which shows that climate 
change is not an isolated event, but a complex scenario that is 
continuously evolving, and extreme atmospheric and ocean events can be 
compounded with cascade effects. Therefore, climate change has these 
three main impacts, which are related and multidimensional as a direct 
or indirect impact.
    Priorities to address climate change need to co-exist, and the 
different stakeholders need to attend to specific areas. Certainly, our 
vision to address climate change issues in Puerto Rico needs to focus 
on the short and long term because climate change is already happening. 
We need to think about how life and the well-being of our islands have 
been impacted and re-shaped in the past 5 years, and how will it change 
for the next 50 and 100 years?
    Therefore, climate change presents a complicated scenario regarding 
priorities because it requires addressing multiple topics. However, 
energy is at the heart of climate action since we need to stop the 
source of greenhouse gases and the main cause of health-related deaths 
in extreme weather events that may disrupt the energy supply. We must 
build systems that are more resilient, robust, and safe. It must 
consider environmental stewardship for our natural resources: water, 
air, and land, and the social and economic factors that influence 
whether a community and its residents can thrive as we face climate 
change. We must focus on marginalized communities, and this needs risk 
assessment for mitigation and rapid recovery to natural hazards. We 
must determine various sources of funding that can support the 
evaluation and implementation of actions to become more resilient to 
climate change.
    Our immediate threat to Category 4 and 5 hurricanes requires that 
we be able to respond and recover in a quick manner, as a territory, 
and at a community/individual level. NOAA has suggested that an 
increase in Category 4 and 5 hurricanes are likely, with hurricane wind 
speeds increasing by up to 10 percent, and if global warming continues, 
our vulnerability to hurricanes Category 4 and 5 will increase.
    Our climate change response can be a model for other climate-
threatened communities in the United States and the world. Let us 
consider these priorities and general solutions. I encourage you to 
meet with specialized stakeholders in each of the following sectors and 
meet with the Committee on Experts and Advisors on Climate Change, 
which can provide insight and better define problems and action items. 
These are just general comments on some of the climate change 
priorities:

1. Energy

    a. Problem: It is not only important to decrease greenhouse 
emissions (the core of global warming) but because people's health and 
well-being depend on a stable and reliable source of energy. This 
sector is the most vulnerable in sudden catastrophic situations and the 
cause of major indirect deaths.

    b. Actions: We need to incentivize renewables and use the funding 
for reconstruction. We need to protect energy generation, electric 
grids and manage demand in emergencies and protect current fuel 
transport and storage while in the transition to renewables. As a first 
step, priorities should be given to increase renewable energy to the 
least accessible and marginalized communities, to those that are older 
and/or that their health conditions require continuous energy supply. 
Incentives for establishing renewable energy in most households should 
be a priority. Request PREPA to use the fund for renewable energy 
systems to critical health, emergency management, and government 
facilities island-wide. Promote the use of electric cars. Develop the 
renewable charging infrastructure in Puerto Rico so that there is more 
available to recharge vehicles.

2. Water

    a. Problem: In the Caribbean, drought periods are becoming more 
frequent and prolonged. Studies of yearly and seasonal precipitation 
reveal trends over many regions in Puerto Rico. Variations in total 
precipitation can be caused by a change in the frequency of 
precipitation. Rainfall is estimated to continue to decrease in a 
warmer world. There is a significant loss of water across the Island, 
approximately 60% of the water it distributes to customers due to pipe 
leakages and illegal hookups, according to Puerto Rico Aqueduct and 
Sewer Authority (PRASA). Our aquifers and reservoirs are diminishing in 
their capacity, and this restricts agriculture, economic development, 
and water supply to the general population. Good water quality is 
essential for maintaining public health and other social services. 
Also, limited water capacity can limit the ability to respond to 
increased wildfires. Sea level rise affects the availability and 
quality of water supply due to saltwater intrusion into groundwater 
aquifers and distribution networks. Also, decreased water availability 
can have environmental impacts. Increased heat and drought, as well as 
catastrophic hurricanes, will promote the migration of people. At the 
same time, extreme rainfall events can trigger floods and landslides, 
putting the already vulnerable communities of Puerto Rico in the flood 
plain and in the mountain region more prone to damages. During 
Hurricane Maria, there were more than 70,000 landslides.

    b. Action: Water issues in Puerto Rico should be addressed, 
emphasizing three main components: water quality, water availability, 
and water accessibility. If rainfall continues to decrease, we will 
need to consider designing a more Resilient Water Management System 
improving redundancy and diversifying water supplies. For instance, 
there are many potential solutions for Puerto Rico. First, adopting 
Integrated Water Resources Management (IWRM) principles, a process that 
promotes coordination on water management, land, and related resources 
in order to maximize socio-economic welfare in an equitable manner 
without compromising the sustainability of vital ecosystems and the 
environment. Two, by promoting decentralized water systems such as 
``Rain Harvesting Systems.'' Puerto Rico has a high dependence on 
Central Distribution Water System PRASA against all Resilient 
Principles. Water collection and production are focused solely and 
exclusively on rain falling on the headwaters areas of the basins of 
Puerto Rico. Little attention is given to the amount of water falling 
on other places of the Island. We must make ``smart water actions'' by 
reusing the already occupied urban areas by installing Water Systems to 
promote water-sensitive cities. We must expand water catchment no by 
building new reservoirs and dredging existing reservoirs (business as 
usual) but by re-utilizing the urban areas (building's rooftops, 
shopping centers rooftops, schools rooftops, and residences rooftops) 
to design Rain Harvesting Systems. All these urban areas are large 
impervious surface areas, only generating runoff and, in most cases of 
heavy rainfall, causing floods and economic impacts. We must 
incentivize Rain Harvesting Systems that fills up with alternative 
methods that help to minimize dependency on PRASA. Desalinization 
should be considered to supply potable water in some coastal 
communities. However, these systems are costly and expensive to 
maintain. Water Recycling System is another alternative that needs to 
be considered in order to reuse water that is flowing already in the 
``system.'' Water reservoirs need to be adequately maintained through 
watershed management plans. Modify and improve drainage systems 
capacity and work with PRASA for transforming the water sector. Water 
managers need to maintain a dependable water supply, including 
alternative supply sources. Increase and incentivize rainwater capture 
and the recycling of water, as well as educate about ``Water Sense'' 
labeled products.

3. Coastal Erosion/Sea Level Rise/Biodiversity

    a. Problem: Our coastal areas face complex actions from climate 
change, but we can effectively respond and build resilience. The vast 
majority of energy infrastructure is vulnerable due to its location in 
our coastal areas. Sea level rise and extreme swell events. . . coastal 
erosion is causing a retreat of the coastline of up to 1 meter per 
year. Protecting and restoring ecosystems can help us reduce the extent 
of climate change and cope with its impact. Many coastal communities 
are facing the reality of looking for shelter for every meteorological 
phenomenon causing storm surge.

    b. Action: To reduce risks and improve resiliency to protect the 
coastline, identify adaptation options and environmental management 
experts to include best practices that will include natural engineering 
practices. Coastal Communities can seek shelter from rising waters and 
battering storm surges or opting for Managed Coastal Retreat away from 
the problem. An ecosystem-based approach to the planning of green 
spaces and nature-based solutions may reduce climate change effects on 
vulnerable communities. Healthy ecosystems can buffer against coastal 
erosion or extreme weather events. Local plans for coastal communities 
should include the context of natural hazards and climate change impact 
and define mitigation actions that are needed for funding. Immediately 
discourage construction practices along with the coastal areas, 
especially in those with severe erosion. There is an immediate need to 
protect and preserve ecosystems, habitats, coastal development, and 
controlling invasive species. Evaluate the integration of hybrid and 
nature-based such as coral reefs, wetlands, dunes, swales, horizontal 
levees, etc. Legislation should be focused on not permitting 
development on land vulnerable to hazards and further evaluation and 
enforcement of land use plans, zoning regulations, and building codes. 
There should be major efforts for reforestation which is an important 
intervention for cooling temperatures, landslide mitigation, and 
climate change mitigation because of its carbon storage potential. 
There should be strict protection for areas of very high biodiversity 
and climate value.

4. Food Security

    a. Problem: Climate change affects the entire food system (food 
production and availability, access, quality, utilization, and 
stability). Isolation and dependence on imports have increased our 
vulnerability in catastrophic events. This situation has become serious 
with every natural hazard threat, and it has worsened living 
conditions. According to IPCC, observed climate change is already 
affecting food security through increasing temperatures, changing 
precipitation patterns, and greater frequency of some extreme events, 
and it will be increasingly affected by projected future climate 
change.

    b. Action: This issue demands large actions because local water 
scarcity and instability of food production around the world have a 
direct impact on our food supply. Vertical farms and innovation in food 
production need to be evaluated because of the high risks, and this may 
become one of the most significant threats to Puerto Rico from climate 
change.

5. Health

    a. Problem: Climate change affects human health by altering 
exposures to heatwaves, floods, droughts, smoke exposure, and other 
extreme events; vector-, food- and waterborne infectious diseases; 
changes in the quality and safety of air, food, and water; and stresses 
to mental health and well-being. These changes led to increased risk of 
exposure to airborne allergens and vector-borne diseases such as West 
Nile virus, malaria, dengue fever, and chikungunya to human 
populations, particularly in tropical communities. Changing patterns 
and frequency of prolonged heat episodes, ground-level atmospheric 
ozone concentration or smog, and dust and other aerosols that trigger 
asthmatic responses are also conditions of concern. Extreme Heat and 
Air Pollution are silent killers. According to CDC, the health effects 
can include increased respiratory and cardiovascular diseases, 
injuries, and premature deaths related to extreme weather events. 
Deaths can also increase due to natural hazards. The extent to which 
climate change could alter the burden of disease in any location at any 
point in time will depend not just on the magnitude of local climate 
change but also on individual and population vulnerability, exposure to 
changing weather patterns, and capacity to manage risks, which may also 
be affected by climate change. According to the American Academy of 
Pediatrics, the health of children is especially vulnerable to the 
impacts of climate change because of their growing bodies, their unique 
behaviors and interactions with the world around them, and their 
dependency on caregivers.

    b. Action: Promote Early Warning Systems to climate hazards 
affecting Public Health. For instance, dengue is among the most common 
diseases of humans, with more than one-third of the world's population 
at risk. For more effective prevention and control in Puerto Rico, we 
need better prediction and more effective detection systems for vector-
borne diseases. Improving Air Quality by reducing air pollution and 
greenhouse gas emissions. Extreme heat events in urban and rural areas 
would have a negative effect on human health and other social and 
economic measures, as well as affect the integrity of ecosystems and 
the benefits we derive from them. Our community centers and citizens 
need appropriate healthcare units and treatment centers with state-of-
the-art resources to deal with the physical and mental care of the most 
vulnerable population. Reducing the urban heat island effect while 
simultaneously promoting an active, healthy lifestyle and increasing 
mental health programs are measures that need to be taken. Working with 
pediatricians can help determine the best actions for children.

6. Infrastructure

    a. Problem: Increased sea level rise and catastrophic hurricanes 
can lead to extreme damages and vulnerability to ports, airports, 
bridges, roads, and energy infrastructure. There will be higher 
maintenance and repair costs for water treatment systems due to lower 
quality inputs. The 2019 Report Card for Puerto Rico's Infrastructure 
released by the Puerto Rico Section of the American Society of Civil 
Engineers (ASCE) gave eight categories of infrastructure an overall 
grade of a `D-'. PR needs to increase its investment in infrastructure 
and needs to include climate change impact. Infrastructure deficiencies 
imply a lack of sustainability and a higher vulnerability to climate 
change.

    b. Action: New infrastructure development should be in safe areas 
and using new materials for longer design life and applying in new ways 
to be sustainable. Urban transport projects need to move to renewable 
energy. There should be incentives for ``green building'' by targeting 
water-saving and energy-efficient initiatives such as smart meters and 
LED lighting.

7. Housing

    a. Problem: Natural disasters have moved many families to become 
homeless due to partial or total damages to their residences. Risks 
associated with wind, flooding, and landslides to residential homes are 
increasing due to climate change. Most housing in Puerto Rico lacks 
renewable energy systems.

    b. Action: Having a safe and sustainable home is one of our most 
important assets. We need to discourage construction in highly 
vulnerable areas and channel housing to safer areas with fewer risks. 
Structural modification of homes can significantly reduce the roof from 
extreme events. Working with foundations and non-profits to make 
housing available to individuals experiencing homelessness faster and 
at less cost. This provides extra resilience against the effects of 
natural hazards. In addition to enforcing building codes and land use, 
homes need to reduce their carbon footprint, and renewable energy 
should be encouraged and facilitated. New housing and construction 
should include the most recent building codes, renewable energy, water 
sense, and energy-efficient products and equipment. Provide incentives 
for planting and incorporate green practices in housing and other 
construction.
8. Landfills

    a. Problem: According to FEMA/EPA, Puerto Rico could run out of 
landfill space in 2 to 4 years. There is a capacity problem, which was 
heightened by debris left by hurricanes and earthquakes, and issues 
related to mismanagement and compliance. Solid waste management experts 
expect that by 2022, 67% of the 29 landfills in Puerto Rico will close.

    b. Action: Reducing food waste, recycling, and reusing offers big 
opportunities. There should be policies to encourage backyard 
composting, which also reduces methane emissions. Emphasis needs to be 
placed on reducing waste at the source, reusing materials, and then 
recycling. Environmental Protection Agency (EPA) identifies using 
recycled materials as a top way to reduce industrial energy use.

9. Information, Outreach, and Education

    a. Problem: There is a perception that climate change is not 
occurring or is not real, or that is not imminent. Also, it is not 
clear how to adapt to climate change or how to protect our environment. 
The interdependence of all the factors that can be affected by climate 
change is not well communicated.

    b. Action: Individuals and groups need to understand the importance 
of addressing the approaching risks to mitigate adverse impacts on 
society. As important it is to understand the science of climate 
change, more important is to think about actions and solutions to 
problems. There will be communities that will require specific needs in 
adapting to changes in the climate, and we need to take account of the 
needs of the most vulnerable citizens and do climate justice. Raise 
public awareness to encourage the local population to adapt and be 
prepared for the likely impacts of climate change and foster community 
participation in the decision-making process. Shape the future 
generation with skills to understand and reflect on the physical and 
social world so that they can think critically, participate in 
decision-making and take action.

    Question 2. In your written testimony you discuss the need to 
engage with communities and stakeholders like nonprofit organizations 
to achieve adaptation, resilience, and mitigation. You also mention 
that the model or assumption that local, state, and Federal Government 
agencies will respond immediately is not real.

    2a. Can you elaborate on this? Why should we include stakeholders 
beyond the government in order to effectively respond to and prepare 
for extreme weather events and other climate-related issues?

    Answer. Yes, I was specifically referring to catastrophic events, 
which are the most challenging to respond to. In catastrophic 
hurricanes, where all state functions are affected and interrupted, 
especially when there are simultaneous and/or concurrent threats or 
disasters across the USA and Caribbean, the ability to immediately 
respond to the individual necessities are extremely difficult and 
overwhelming, and planning for these circumstances is almost impossible 
because of cascading effects. It makes unreal under these circumstances 
to respond at the local level for the entire Island in 48 hours or 
less. FEMA mentioned in its ``2017 Hurricane Season After Action 
Report,'' which included Hurricanes Maria, Harvey, and Irma, that ``no 
jurisdiction or federal agency has all the staff and resources it will 
need to respond to a catastrophic incident.'' It becomes a titanic task 
for the state and municipality to initially assess damages, to respond 
to multiple needs, which may include people trapped, unable to access 
areas because of landslides, floods, or wind damage, etc. Lack of 
communications can make it extremely difficult to make needs 
assessment, and lack of energy can cause indirect deaths since it 
becomes impossible to maintain critical facilities and equipment or 
lifelines that sustain life. The coordination efforts between federal, 
state, and municipal entities become complex and extremely difficult, 
and decisions to save life and property can become impaired, among 
others, for the municipal emergency management offices to respond 
requires having more personnel equipment or resources that are feasible 
to respond and save lives in a catastrophic situation.
    Stakeholders such as community leaders, non-profit organizations, 
and private enterprises are considered first responders in the event of 
an extreme weather event. We must enhance communication channels with 
the federal, state, and municipal government to develop models of 
resilience that can mitigate the impact of catastrophic hurricanes in 
our communities and allow for the short-term response to be more 
manageable, to strengthen capabilities and help survivors, while the 
government organizes and respond to critical sectors.
    Communities had to rely heavily on neighbors and civil society 
organizations to deliver effective disaster response and recovery. 
Building social capital is important and can provide disaster 
resilience if used purposefully for such situations. It can be 
fostered, used, and strengthened through capacity building and the 
community's strengths, weaknesses, and collaborative capacities to 
develop a plan of action. Connecting social capital with financial 
sources and incentives is important so that economic constraints are 
not the main obstacle for adaptation options to be implemented.
    While many positive steps have been taken to address issues in 
FEMA's 2017 Hurricane Season After Action Report, the earthquakes, 
COVID-19 pandemic, and the ongoing recovery efforts to Hurricane Maria 
and continued climate change effects have increased our vulnerability 
and perhaps lessened our capacities in some areas to respond for the 
2021 hurricane season. This needs immediate action.

    2b. What role should the private sector and non-profit 
organizations play in addressing climate change in Puerto Rico, the 
rest of the territories, and other coastal communities across the 
nation?

    Answer. In addressing climate change, the private sector needs to 
be more involved in social responsibility in communities. There should 
be legislation that a certain amount of funding must be invested in 
non-profit organizations for projects that increase resilience, 
mitigation, and adaptation in local communities.

    Question 3. In his testimony, Secretary Machargo of the Puerto Rico 
Department of Natural and Environmental Resources indicated that one of 
the biggest priorities of the Puerto Rico Climate Change Experts and 
Advisory Committee is the need to acquire an additional NEXRAD Doppler 
system. As one of the members of the Advisory Committee, would you like 
to elaborate on this proposal and why it's needed?

    Answer. Our Island lost its NEXRAD Doppler Radar TJUA WSR-88D due 
to wind gust speeds over 200 mph at an altitude above 2,900' in Cayey, 
Puerto Rico, during Hurricane Maria. The design wind for this radar 
lies between 130-150 mph. If we had had an additional radar along the 
west side of Puerto Rico, we would have had redundancy in the weather 
infrastructure. Because we lost our radar when the eye of Hurricane 
Maria was making landfall, we lost historical, scientific data that 
could have helped in future mitigation practices, develop guidelines 
for wind speeds design, and if we had another cyclone approaching, we 
would have been in a very vulnerable position in 2017--bringing 
humanitarian aid after Hurricane Maria was only possible through the 
air. Initially, airports had limited capacity, and not having a radar 
limited our capacity to have a more effective response. It took 9 
months after Hurricane Maria that our radar was restored. This is the 
most important piece of weather observation in Puerto Rico, and it is 
extremely important for the National Weather Service (NWS) Forecast 
Office in San Juan, Puerto Rico. This is the only radar of its kind in 
the Caribbean. Although St. Marten and the Dominican Republic have 
radars nearby, they do not cover Puerto Rico and are inconsistent in 
data images. In many coastal states, there is redundancy for weather 
radars due to geographic areas. The capabilities of TJUA are unique and 
difficult to match with other remote sensing sensors such as 
geostationary (GOES-16) and polar satellites. Some of the unique 
capabilities are not the only categorization of the raindrops, hail, 
and ice inside of the cloud, but also the ability to detect motion 
(velocity of these water particles) and the estimation of the rain 
rates and rainfall accumulation over the islands and the adjacent 
waters. Forecasters at NWS San Juan continuously utilize radar products 
to track thunderstorms capable of producing significant rainfall in 
short periods of time, as well as strong winds that can produce damage 
across the islands. The importance of the radar increases in relevance 
when a tropical cyclone approaches the northeast Caribbean region. 
Local forecasters, as well as the hurricane specialists at the National 
Hurricane Center in Miami, use the radar to locate the center of the 
cyclone as it moves near or over Puerto Rico and the U.S. Virgin 
Islands, while at the same time, using it to estimate rainfall amounts 
associated with the core of the cyclone and the external rainbands. 
This is extremely important in islands like Puerto Rico, where the 
topography focuses on heavy rainfall in some areas across the Island. 
The utilization of the Doppler radar is maximized during the hurricane 
season as tropical waves, tropical depressions, tropical storms, and 
hurricanes threaten Puerto Rico and the U.S. Virgin Islands region, on 
average, every 3 to 5 days. Marine and aviation operations also benefit 
from the Doppler radar product suite. For example, radar wind profiles 
are used daily to estimate the winds in the first few kilometers above 
the ground, essential to alert pilots about downdrafts and possible 
crosswinds. Local forecasters can warn mariners about torrential 
rainfall, strong gusty winds, and waterspouts by using the reflectivity 
(estimate the intensity of the rainfall) and velocity products. 
Although most of the remote sensing instruments available for the 
northeast Caribbean attempt to estimate the rainfall, the radar is the 
most reliable doing this task. All in all, the radar is the most 
effective tool used to issue watches, warnings, advisories, and 
statements to help core partners to make decisions, as well as alert 
the people in Puerto Rico, U.S. Virgin Islands, and surrounding waters 
to save lives and property.

    Question 4. I think one of the biggest challenges we face in Puerto 
Rico when it comes to accessing Federal grants--including those to 
mitigate the impacts of climate change--is that often individuals, 
communities, and organizations on the Island simply do not apply for 
the program, either because they are not aware about the funding 
opportunity, or because they lack the necessary capacity and knowhow to 
go through the application process.

    4a. Is this something you've seen or experienced yourself?

    Answer. Definitely, there is not a centralized grant opportunity 
center in Puerto Rico. It is difficult to find opportunities to apply 
for grants and provide services aligned with the federal agencies as 
well as with the organization. Some agencies include processes that are 
too complicated for the average community and non-profit organization. 
I have been lucky to preside an organization that has the capacity to 
hire grant writers and professionals in the field to access these 
funds. Without their expertise, it would have been too time-consuming.

    4b. In your opinion, should Federal agencies invest more in raising 
awareness about existing funding opportunities to tackle these issues, 
building capacity among potential applicants, and simplifying the grant 
application processes?

    Answer. Yes. Federal and state agencies could invest more time in 
raising awareness about existing funding opportunities to tackle issues 
as well as building capacity among potential applicants. I know first-
hand that the Institute of Museum and Library Services, National 
Endowment for the Humanities, and National Endowment for the Arts (NEA) 
has been active in Puerto Rico the past years and have visited the 
Island and offered workshops as well as one-on-one meetings with 
constituents on various occasions. This was facilitated by the 
Instituto de Cultura Puertorriquena (ICP). This is an example of what I 
understand are initiatives that help agencies understand the needs 
first-hand as well as align organizations to the available programs at 
the different agencies. The NEA sponsored an initiative through ICP to 
help organizations through capacity building on getting their 501(c)(3) 
IRS non-profit status, grant writing, and grants management. 
Organizations need to have a 501(c)(3) to be eligible to apply for 
federal funding, which becomes crucial particularly during the recovery 
process and to ensure the sustainability of their organizations. The 
UPR Resilience Law center is offering a professional certification 
``Destrezas Legales en la Recuperacion Resiliente''. I think one of the 
most challenging things for our municipalities and non-profits is that 
there are language barriers; the majority speak and write Spanish yet 
face limitations with fluent English. USDA translates some of its 
opportunities, yet I believe it is the only agency that does so, and 
not for all its programs. Most of the local organizations do not have 
experience in writing grants. Therefore their capacity to take 
advantage of the available opportunities is almost non-existent. All 
federal agencies have different requirements for the grant application 
process, despite the existence of the 2 CFR 200. There are some 
agencies whose process is too complicated, instructions unclear, and 
lack uniformity. For the average person, the process could be unreal 
and difficult to understand. Simplifying the process for some agencies 
would help increase the number of grants that Puerto Rico receives. 
There are other challenges the organizations on the Island could face, 
particularly the ones that are starting out, such as accessing lines of 
credit.

    Question 5. What would you say is the most critical climate-related 
concern in Puerto Rico?

    Answer. The list was already provided in Question 1.

                                 ______
                                 

    The Chairman. Thank you very much.
    And before I turn to the Ambassador for his comments, I 
think Mr. Westerman had a comment or a question, and let me 
make an effort to recognize him again for his comment.
    Mr. Westerman, you are recognized.
    Let me return to the witnesses. Mr. Gerald Zackios, 
Ambassador to the United States, Republic of Marshall Islands.
    Mr. Ambassador, the time is yours, 5 minutes. Thank you, 
sir, for being here. Much appreciated.

 STATEMENT OF HIS EXCELLENCY GERALD M. ZACKIOS, AMBASSADOR TO 
     THE UNITED STATES, REPUBLIC OF THE MARSHALL ISLANDS, 
                         WASHINGTON, DC

    Ambassador Zackios. Mr. Chairman and distinguished Members.
    Thank you, Mr. Chairman, for your leadership regarding the 
special threats that climate change poses to the Marshall 
Islands, the RMI, and the other insular jurisdictions of, or 
freely associated with, the United States.
    Thank you, as well, for making it possible for me to 
complete my testimony in time to meet with President Biden's 
National Security Advisor at 1 p.m., a time I could not change.
    Climate change poses an existential threat to the RMI in a 
way that it does to only three of the world's other nations. 
Our highest point of land is less than 6 feet over sea-level 
rise.
    This is also a threat to the defense and economic security 
of the United States. Our free association gives the United 
States the right to deny other nations access to a strategic 
expanse of the Pacific that is nearly 25 percent of the size of 
the 48 continental United States. Other nations covet shipping 
lanes in the waters that the United States controls access to 
now but won't control if the RMI is submerged.
    Further, a U.S. Army study found that its Ronald Reagan 
Ballistic Missile Defense Test Site on our Kwajalein Atoll, 
which the Joint Chiefs of Staff call, and I quote, ``the 
world's premier range for antiballistic missile testing and 
space operations support,'' will be underwater in three 
decades--that is, if this isn't prevented.
    These are the reasons why it is so important for the 
Committee to prioritize climate change planning, mitigation, 
adaptation, and resilience in the RMI. It is also why the RMI 
is applying a climate threat lens to all policies. It is, for 
example, one of the issues required to be considered in use of 
compact or free association assistance.
    So, we are excited about the draft bill. We also have some 
suggestions to strengthen it.
    First, we respectfully suggest a finding be amended to 
recognize that sea-level rise is an existential threat to the 
RMI and this would undermine U.S. economic and defense 
security.
    Second, we respectfully request that all provisions of the 
bill that address climate change challenges in the U.S. 
territories apply in the Freely Associated States as well. Most 
already do, but there are some in which, because of language, 
do not.
    Third, we request that the bill direct the preparation of a 
report on the impacts of climate change on the Runit Dome 
nuclear waste storage facility and other hazards in its 
vicinity at Enewetak Atoll by independent experts agreed by 
both of our governments. Such a study would cover major gaps in 
a joint 2020 report by the Department of Energy required by 
law. It should propose options to remedy all of the 
contaminants left on Enewetak, including its lagoon, and 
mitigate related threats due to climate developments.
    The United States conducted nuclear testing equal to the 
force of 1.6 Hiroshima-size bombs every day for 12 years while 
it administered our islands as trustee for the U.N. The 
remaining nuclear waste and other contaminants are now 
threatened by sea-level rise. Recent leakage from the dome has 
generated concern from Hawaii and the U.N. Secretary-General 
while he was in Fiji.
    Fourth, we advise adding the Defense Department to the 
bill's insular interagency task force. The RMI would also 
benefit from technical support from the Interior Department's 
Fish and Wildlife Service and the Commerce Department's 
National Marine Fisheries Service Honolulu office.
    Finally, we would like to discuss with the Committee staff 
how some specific projects can be funded. One is for a solar 
power system for the islands of Wotje, Jaluit, Rongrong, and 
Santo and to fully transition Ebeye, Kwajalein, and other 
atolls to renewable energy.
    Another would improve sea-level-rise data, defining the 
actual risk for each of our communities. We also need 
assistance for our Reimaanlok Process, which guides our 
planning in sea-level rise.
    And we propose an Atoll Research Center of Excellence at 
the College of Marshall Islands to consolidate research not 
only for the RMI but for all insular areas.
    Thank you again for your attention and again for your 
leadership. I would be pleased to answer any questions and look 
forward to working with the Committee on this legislation.
    The RMI is fortunate that the Committee remembers that the 
RMI is a member of the U.S. extended political family, 
inextricably but voluntarily linked for an unlimited future.
    I thank you, Mr. Chair.

    [The prepared statement of Ambassador Zackios follows:]
 Prepared Statement of His Excellency Gerald M. Zackios, Ambassador of 
                  the Republic of the Marshall Islands
                              introduction
    Thank you, Mr. Chairman, for your leadership regarding the special 
threats that climate change poses to the Republic of the Marshall 
Islands (RMI) and other insular jurisdictions of or freely associated 
with the United States.
    I am here to testify on behalf of my Government and people 
regarding the existential threat climate change poses to the RMI, and 
to the enduring resilience that is the objective of our response to 
this global threat.
    I do not use the words ``existential threat'' lightly--or even in 
the way it is in the case of most nations. As a country with its 
highest point less than six feet above the rising sea level--one of the 
four lowest lying nations in the world--our islands' very existence is 
challenged.
    And this is a threat to the defense and economic security of the 
U.S. Our free association gives the U.S. the right to deny other 
nations access to a strategic expanse of the Pacific that is nearly 25% 
of the size of the 48 continental United States and the District of 
Columbia. The RMI's concession to the U.S. in this regard is 
extraordinary for a sovereign nation. And another nation covets access 
to our waters.
                               background
    Fundamentally, ``resiliency'' can be defined as the empowerment of 
individuals to make the most of their opportunities and resources so 
that families and communities can adapt to changing circumstances, 
including the environment. The Marshallese people have proven their 
resiliency time and again, building a strong society and a thriving 
culture on islands buffeted by colonialism, war, and devastating 
nuclear bomb testing. As we confront the impacts of climate change, my 
Government is drawing on, respecting, and nurturing the fundamental 
resilience of our people as we chart our course for the future.
    ``Resilience'' in all its dimensions, including environmental, 
social, and economic resilience serves as the foundation of our 2020-
2030 National Strategic Plan (NSP). It provides a development and 
progress roadmap for RMI. Building the resilience of our people and 
ecosystems is necessary for sustainable development and for protecting 
our natural capital and strengthening our human capital. It is 
essential for meeting our national development objectives as well as 
for ensuring the sustainability of economic growth regardless of the 
environmental impacts that we may face in the future.
    Like so many communities placed in peril by today's global climate 
emergency, the RMI's future relies upon urgent and enhanced mitigation 
and adaptation action.
    As a coral atoll nation, the RMI is a nation made up entirely of 
coastline. Our country comprises 1,156 individual islands and 29 
different atolls with an average elevation of less than six feet above 
sea level. We have no interior or higher ground to which to retreat. We 
are acutely and chronically vulnerable to the dangers of rising seas 
and other impacts that are accelerating with climate change, 
constituting a real, existential risk should the global average 
temperature exceed 1.5 degrees Celsius above pre-industrial levels.
    King tides, intrusion of salt water into freshwater resources, and 
the difficulties of growing food have exacerbated the challenges of the 
harsh atoll environment. We are also facing increased health challenges 
as a result of climate change. Scientists have determined that dengue 
fever and other mosquito-borne illnesses are increasing as climate 
change worsens, and our country has been experiencing this first-hand. 
From October to January 2020, our hospitals were overwhelmed with 
dengue fever patients.
    While the RMI only contributes 0.00001% of global greenhouse gas 
(GHG) emissions, it has a proud history of prominent climate 
leadership, at home as well as on the world stage.
    Following a global fuel price spike in 2008, the RMI declared a 
National Economic Emergency and has since then rapidly embraced 
renewable energy technologies and taken huge strides in energy 
efficiency. Our Electricity Roadmap provides a strategic framework to 
enable us to meet our climate change targets and to strengthen our role 
as a climate leader. This roadmap will allow us and our development 
partners to work together to achieve a common vision for the RMI's 
electricity sector.
    Over the last 15 years, progress has been made in developing 
renewable energy, and as a result, almost all households on the outer 
islands, previously without electricity, now have solar home systems, 
and several larger solar projects, totaling around 1 megawatt (MW), 
have been built on Majuro. In addition, in 2016, the RMI committed, 
under the Marrakech Partnership, to achieving 100% renewable energy by 
2050.
    On the international stage, the RMI spearheaded the 2013 Majuro 
Declaration for Climate Leadership, which sought to demonstrate the 
Pacific's adoption of some of the world's most ambitious GHG emissions 
reduction targets. In 2015, it played a key role in securing the Paris 
Agreement. It was also the first Small Island Developing State to 
submit its climate commitment (i.e., nationally determined 
contribution) under the Agreement. The commitment was ground-breaking 
in that it contained the first economy wide absolute GHG emissions 
reduction target against a base year by a developing country.
    In 2018, the RMI was also the first nation to submit its enhanced 
climate commitment under the Agreement. The RMI is also the founder of 
the High Ambition Coalition (HAC) which it continues to convene. And we 
are also working to achieve net zero emissions by 2050 as outlined in 
our Tile Til Eo 2050 Climate Strategy, the RMI's long-term low 
greenhouse gas emission climate-resilient development strategy under 
the Paris Agreement. This Strategy is our roadmap to embark on a low-
carbon, blue-green economy development trajectory that emphasizes 
efficient use of natural resources.
    As climate change continues to wreak havoc worldwide, the RMI is 
acutely aware of our vulnerabilities and that policies to address 
climate change must not only continue to support mitigation efforts, 
but also to continue to provide support for adaptation--especially for 
atoll nations, which are uniquely vulnerable. Adaptation is central to 
our continued ability to exercise our national right of self-
determination--our ability to govern our territory, sustain our 
culture, and protect our people. And we recognize the importance of 
taking a holistic, ecosystem-based approach to adaptation and 
resiliency in our country to respond to the impacts of climate change.
    However, as an atoll nation, the RMI does not have the luxury to 
pick and choose from a wide range of options and adaptation pathways to 
respond to the impacts of climate change and long-term sea-level rise. 
Nor is there an optimal solution that will create a `safe haven'. 
Adaptation will be a continuous journey involving a range of inter-
relating activities, the composition of which will vary from location 
to location, and over time along each particular pathway.
    At times, the particular pathway may need to change as the 
magnitude of sea-level rise results in the initial path no longer 
providing the level of security required for the community, 
development, or infrastructure.
    The RMI's adaptive capacities will need to move from consideration 
of single independent options, for example, a focus on seawalls only, 
to a consideration of a progressive mix of ``hybrid'' options that work 
together to respond to the longer-term sea-level rise challenges and 
provide more effective or longer-term pathways.
    Adaptation responses could include maintaining or restoring the 
effectiveness of the complete natural coastal defense system; moving 
from slab concrete foundations to pile foundations, enabling property 
to be raised up or more easily relocated; and constructing ``backstop'' 
protection measures that reduce over-topping impacts on properties and 
development.
    Our National Strategic Plan also recognizes that improved national 
and local capacity to undertake vulnerability and adaptation 
assessments and planning is critical for disaster risk management. We 
are focused on ensuring that all stakeholders are integrated into the 
planning and implementation of disaster risk and adaptation as needed.
    Our goal through ambitious adaptation action is to avert, minimize, 
and address loss and damage from climate change. Under current global 
emission projections, however, we cannot rule out scenarios where 
adaptation measures will not be sufficient to protect our people, our 
land, and our livelihoods. This would result in a real threat not only 
to basic social and economic development, but to our integrity as a 
nation.
    Despite our extensive efforts, the RMI recognizes that we cannot 
fulfill our climate adaptation plans alone. In order to protect our 
nation for future generations from loss and damage, and even to fully 
decarbonize our economy, the RMI needs financial and technical support 
to implement ambitious climate adaptation and mitigation projects.
    On the frontlines of the climate crisis, we are also uniquely 
placed to share our stories and exchange best practices with others who 
will face similar climate impacts in the future. As a leader on both 
climate adaptation and mitigation practices, we are open and willing to 
share our firsthand understandings of climate change and how our 
communities are building resilience so that others can learn.
         impact of climate change on the rmi and u.s. interests
    That is why this hearing is so important today. We greatly 
appreciate that the Committee has chosen to prioritize the importance 
of providing for climate change planning, mitigation, adaptation, and 
resilience in the U.S. territories and freely associated states.
    We enthusiastically support the draft bill. In this regard, we also 
have some suggestions to strengthen it that we respectfully request you 
consider.
    The U.S. is our closest partner. We have a joint history that 
includes the U.S. intentionally helping shape our modern society to 
bind us to you. We share values, norms, and personal ties. Our long-
standing alliance is reflected in the Compact of Free Association and 
related agreements and laws.
    When these were first adopted in 1986, few understood the far-
reaching consequences of climate change. Today, the situation is very 
different. The science and our own lived experience are clear: we face 
a climate crisis, intersecting with the RMI's geography and its 
legacies of colonialism and nuclear testing.
    As the bill under discussion outlines, insular areas are 
experiencing sea level rise, coastal erosion, and increasing storm 
impacts that threaten lives, critical infrastructure, eco-systems, and 
livelihood security. And moreover, temperature increases are likely to 
create and intensify the length of droughts, reduce water supply, 
impact public health, and increase demand of freshwater in these areas.
    In the RMI specifically, other impacts include higher demand on 
energy and damage to energy infrastructure causing more power outages. 
In addition, changes in ocean temperature and acidification will 
increase the risk of coral bleaching and reduce yellowfin and skipjack 
tuna catch by up to 31% in 2100 in the RMI EEZ, with consequences for 
subsistence fishing and food security and decreasing the revenue from 
the selling of fishing licenses.
    Indeed, the Marshall Islands considers climate change our most 
significant security threat. There is a potential for cascading 
fragility and instability risks tied to issues such as displacement and 
forced migration to U.S. areas, increased social tensions linked to 
access to land and fisheries resources, reduced coping capacity in the 
face of more frequent natural disasters, and the impact of sea level 
rise on national maritime zones and boundaries, among others. When a 
wider regional security lens is considered, including regional 
fragility and geopolitical influence efforts from the People's Republic 
of China among other entities, it is beyond question that climate 
impacts couple with other factors to sharply intensify an already 
difficult regional landscape on security issues.
    These climate impacts have direct consequences for U.S. economic 
and security interests. The most extensive for the U.S. is that the 
access of other nations to the expanse of the Pacific the U.S. controls 
through our free association can be reduced or totally eliminated due 
to sea level rise in the RMI.
    Further, a study for the U.S. military found that the Ronald Reagan 
Ballistic Missile Test Site on our Kwajalein Atoll--which the U.S. 
Joint Chiefs of Staff have called ``the world's premiere range for 
anti-ballistic missile testing and space operations support''--will be 
underwater in three decades, unless this is prevented. If it is not 
countered, the U.S. will lose an essential and virtually irreplaceable 
facility. In addition, it could allow hazardous chemicals and toxins to 
flow into the Pacific.
    A 2014 USGS, NOAA, Deltares, and University of Hawaii study \1\ to 
understand the impact of climate change and sea-level rise on Roi-Namur 
Island of Kwajalein Atoll found that the impact of sea-level rise 
combined with annual wave-driven flooding could overwhelm much of the 
isthmus that connects the island's Roi and Namur portions on an annual 
basis, negatively impacting the facilities on both.
---------------------------------------------------------------------------
    \1\ https://climateandsecurity.files.wordpress.com/2018/03/serdp-
slr-and-pacific-military-installations_2017_08.pdf.
---------------------------------------------------------------------------
    Further, without active management measures, the annual amount of 
seawater flooding onto the island during storms will be of sufficient 
volume to make the groundwater non-potable year-round. Management 
practices such as post-flood short-term intensive withdrawal and 
artificial recharge will allow for 3-4 months of potable groundwater 
during the rainy season at higher sea levels. The sustainability of 
such operations over the long term with increasing frequency and 
intensity of wave-driven flooding and island over-wash is, however, not 
clear.
    And many of the adjacent islands on Kwajalein Atoll that are 
inhabited by and/or have U.S. Department of Defense facilities (Ebeye, 
Ennylabegan, Ebadon, Ennubirr, Gagan, Gellinam, Gugeegue, Illeginni, 
Legan, Meck, Omelek) will face a similar fate. This includes the homes 
of much of the facility's workforce.
    Given these risks, climate change must be integrated as a central 
component of all development, financial and infrastructure-wise in the 
RMI. Any development investments in our islands that fail to account 
for the effects of climate change are not viable. It is for this reason 
that the RMI adopted a whole-of-government approach to addressing 
climate change some years ago, working to apply a climate lens across 
all sectors and in all policies.
    Our 2020-2030 National Strategic Plan (NSP) underscores the 
importance of taking a holistic approach to addressing climate change, 
requiring strengthened coordination and decision making across all 
stakeholders including government, private sector, NGOs, and civil 
society. A holistic approach also includes mainstreaming climate-
related risks into planning and budgeting at all levels and in all 
relevant sectors. It also requires ensuring that relevant organizations 
are adequately resourced and that avenues for sustainable financing are 
secured.
    Compact-driven assistance (including Sector Grants and Trust Fund 
disbursements), like other external assistance, including donor nation 
construction projects, is now required by RMI law to be `climate-
proofed' to the extent practicable, pursuant to Section 615(4) of the 
Ministry of Environment Act, which was enacted in 2019. There are 
similar provisions governing public and private undertakings.
    Compact-driven assistance accounts for a large portion--by some 
accounts about half--of our national budget. So, utilization of 
existing and future Compact-driven projects to address climate and 
environmental resilience represents a tremendous opportunity to help 
safeguard and protect our mutual public investments in RMI's future.
    But even with these legal provisions, Compact funds and projects 
are being implemented now, as they have been for decades, without 
accounting for projected future risks, in particular sea-level rise.
    The bill under consideration represents an ideal opportunity for 
the U.S. Government to take into account commitments in RMI law to 
achieve climate-proofing or environmental resilience of both Compact 
and general assistance activities. Also to reflect those commitments, 
including through dedicated technical assistance and directives to 
decision-making concerning the Freely Associated States, including the 
Department of Interior's Insular Affairs Office, or, the bill's 
interagency insular task force.
    It will also be important to consider means to address both 
existing interagency efforts under the Compact, related reporting 
obligations, and the insular climate task force. The absence of such a 
directive and mandate will likely mean that existing U.S. assistance to 
and engagement with Freely Associated States will continue as it is 
now, without consideration of climate change, and, in particular, sea-
level rise.
    The U.S. commitment to the Freely Associated States, including the 
RMI, should not only include technical and grant assistance, but also a 
clear and specific commitment to ensure that U.S. investment in the 
Freely Associated States will be climate and environmentally-resilient, 
including in regard to sea-level rise. In providing support to RMI, the 
U.S. must consider how climate change impacts everything in free 
association extension negotiations from research for environmentally-
sound plans for sea walls to other means of infrastructure protection 
from climate impacts.
    And while climate change adaptation issues have been integrated 
into base-wide environmental standards as agreed and revised by both 
RMI and the U.S. since 2016, a wider and informal discussion can 
provide a platform for joint collaborative efforts and information 
exchange on climate and environmental resilience efforts in the 
Marshall Islands. However, from one example, prior U.S. administrative 
mandates and guidance regarding agency decision-making on adaptation, 
including Executive Order 13653 of 2013, did not fully translate down 
to Compact-level outcomes. As such, accountability to ensure climate 
change is considered in all decision-making is critical.
    We, therefore, look to the U.S. to be a partner for the challenges 
ahead that will undoubtedly be created and exacerbated by climate 
change.
                     runit dome and enewetak atoll
    One challenge in particular that merits urgent action is the Runit 
Dome and its surrounding area and lagoon at Enewetak Atoll. For us, 
this is an everyday reminder of the intersection of the two major 
challenges facing the RMI, our nuclear legacy and sea level rise. But 
for the world, there may be no more dramatic example of the dangers of 
climate change. And the Runit problem now threatens not only the health 
of the residents of Enewetak and but areas beyond. It has generated 
concern from Hawaii and from the Secretary General of the U.N. while in 
Fiji.
    Our nuclear legacy includes the U.S. detonating 67 bombs over 12 of 
the years in which U.S. administered our islands as trustee for the 
United Nations. The explosions had a force and radiation equal to 1.6 
Hiroshima bombs being detonated every day for 12 years.
    The Dome, built in the late 1970s, contains more than 3.1 million 
cubic feet of radioactively contaminated soil and debris that were 
dumped into a nuclear bomb test crater, the Cactus Crater, on the north 
end of Runit Island and covered by a concrete dome. A fatal error was 
to not, as originally planned, cover the underlying sand with concrete.
    American legal scholars caution that this standard for storing 
nuclear waste in the RMI would not be sufficient to store household 
garbage in the United States. There is a glaring discrepancy between 
standards of safety implemented by DOE in the RMI vs. in the United 
States.
    The Runit Dome is located less than 14 miles from Enewetak Island, 
the population center for the atoll. The Dome is unsecured by any 
fencing or barriers to protect the nearby local population from 
exposure to the many toxins that remain at Runit Island.
    Radioactive material is already leaking out through the sand base 
under the dome. It threatens the population area and the Pacific, 
affecting fish stocks and our coral reefs.
    Concerned, the Congress by law directed the U.S. Department of 
Energy to submit a report on the situation and danger.
    The report delivered by the last U.S. Administration in June 2020, 
however, did not adequately respond to the Congress' concerns. It 
asserted that the Dome was not in any immediate danger of collapse or 
failure and concluded that the contents within the Dome are not 
expected to have any adverse effect on the environment at present or in 
5, 10, or 20 years.
    It also, however, somewhat contradictorily, acknowledged that there 
is a need for additional groundwater study. This study, though, was 
mandated by Congress in 2012 and still remains in its initial stages.
    An absence of data to show harm does not mean that there is no 
harm. Moreover, an analysis that only monitors the groundwater inside 
the dome and its immediate surroundings cannot accurately assess safety 
impacts on the local Enewetak community.
    Further, the DOE report was deficient in that it did not include 
information on the many radionuclides that are still present in or 
around the Runit Dome that were either buried in ``crypts'' or dumped 
in the lagoon and ocean.
    Likewise, the report makes no mention of the presence of hazardous 
materials resulting from biological and chemical weapons tests.
    DOE used an international radiation safety standard of 100 mrem 
annual dose limit. The RMI continues to demand that the U.S. Government 
clean its radioactive mess in the RMI to the same standard it would use 
in the U.S. since the bombing occurred when the RMI was administered in 
trust by the U.S. Equity with the U.S. was the basis for the Nuclear 
Claims Tribunal's adoption of adopted a 15 mrem radiation safety 
standard based on that used by the U.S. EPA for similar waste sites in 
the U.S.
    The report is also not peer-reviewed, evidenced by the report's 
extensive citation of studies carried out by DOE's principal contractor 
and report author.
    Additionally, however, A DOE employee told us that an astounding 
99% of the plutonium is not under the Dome but is in the lagoon! This 
was confirmed by a 2013 study conducted by the Lawrence Livermore 
National Laboratory for the DOE.
    The U.S. Government acknowledges that there were three dumping 
sites for radioactive material in Enewetak's lagoon, and we have been 
informed by people who participated in the radiological cleanup of 
Enewetak Atoll that, contrary to what the U.S. Government had reported, 
highly radioactive waste was dumped into the lagoon. Cleanup 
participants have also informed us that after the Dome was sealed, 
additional radioactive waste was buried in crypts that we were never 
informed about.
    The community that was removed from Enewetak for the bombing but 
has since been resettled there has raised concerns about desalinization 
from the lagoon for drinking water and how, during storms, the 
radioactive materials normally on the bottom of the lagoon are 
resuspended in the water.
    Former U.S. personnel have also recently disclosed that hundreds of 
pounds of highly toxic beryllium were spilled over Enjebi Island in 
Enewetak Atoll in a failed rocket test. This, too, is outside the scope 
of what DOE addressed.
    We have, additionally, been made aware that Enewetak Atoll was used 
as a base for testing chemical and biological warfare agents. The 
details and environmental impacts of these tests have never been 
disclosed to us, and this also has been excluded from the DOE report.
    We were, further, recently shocked to learn that were also 
radionuclides brought into Enewetak from Nevada, which were not 
released from the nuclear weapons tests, but used to cover an accident 
during a weapons test. The imported radiation from Nevada is different 
from the forms of radiation released by the detonations in the RMI. Yet 
again, this is not included in current DOE or U.S. Government 
accounting to the RMI about environmental health risks on Enewetak.
    So, we are concerned that rising sea levels and violent storms at 
Enewetak Atoll could cause significant environmental damage not only 
because of Runit Dome, but also because of the nuclear waste that was 
dumped into the lagoon or buried in undisclosed crypts, and also 
because of radionuclides and other toxins that may have been left on 
the land and water as a result of various U.S. military activities. 
Among many other aspects of the issue, we are extremely concerned about 
the safety of the groundwater that the people of Enewetak depend upon 
as their water source.
    We also recognize that risks of nuclear exposure, compounded by the 
risks of climate change, are likely to increase Marshallese migration 
to Guam, the Northern Mariana Islands, and Hawaii and other U.S. 
States. Within the RMI there are already substantial migration flows 
between islands, particularly from outer islands to the capital, 
Majuro, and to Ebeye, near the U.S. Kwajalein base. The number of 
Marshallese residing in the U.S. has rapidly risen over the past two 
decades, from 7,000 in the year 2000 to 22,000 in 2010, to an estimated 
30,000 today.
    These environmental hazards at Enewetak Atoll are the legacy of 
activities that the U.S. conducted during a period when it was acting 
as the trustee for the RMI. We did not request these activities and 
have indeed paid a steep price for them--including loss of life, severe 
birth defects, and loss of safe access to our lands, waters, and homes.
    Environmental and climate justice would require, at a minimum, that 
the U.S. assist us in evaluating and mitigating these risks created by 
U.S. Government actions.
                               amendments
    With all this in mind, we are pleased to identify additional ways 
that U.S. support can help the RMI achieve its climate-related goals 
and plans through the draft bill.
    First, concerning the existing text, we respectfully suggest that 
the Findings be amended to recognize that sea level rise from climate 
change is an indisputable existential threat to the RMI because of its 
low elevation and that this would substantially undermine the economic 
and defense security of the U.S.
    Second, we respectfully request that all provisions of the bill 
that provide means of addressing climate change challenges apply to the 
freely associated states as well as to the U.S. territories. Most 
already do but there are some which, due to language, do not.
    Third, we request that the bill be amended to direct the 
preparation of a report on the impacts of climate change on the Runit 
Dome and on other environmental hazards in its vicinity, prepared by 
independent experts agreed to by both of our governments. Legislative 
language for such a study--which would cover the major gaps in the June 
2020 DOE report--is attached to my statement.
    It is imperative that this study include concerns about safety 
identified by the resettled community and includes their knowledge 
about the interactions of the Dome and the surrounding ecosystem. The 
study needs to go beyond the DOE's June 2020 study and be inclusive of 
local knowledge and account for all the ways in which the Runit Dome 
and toxins outside the Dome are interacting and impacting the local 
environment, including the potential risks posed to the nearby 
population.
    Most importantly, the study should propose options for how the 
various environmental hazards left on Enewetak Atoll can be remediated 
and how threats from possible climate-induced events can be mitigated.
    Finally, we would like to discuss with the Committee staff how some 
specific projects to address the existential threat of climate change 
to the RMI and U.S. interests in the RMI can be funded.
    One requires $14.6 million to fund PV solar systems for the islands 
of Wotje, Jaluit, Rongrong, and Santo and an additional $9.5 million to 
fully transition Ebeye in Kwajalein Atoll to renewable energy.
    To achieve our ambitious mitigation targets to fully decarbonize by 
2050, the RMI's energy sector must quickly transition to over 50% 
renewable energy by 2030. We have in place an Electricity Roadmap with 
costed, technically sound renewable energy pathways for our electricity 
sector to make this transition. While work under the Electricity 
Roadmap under its three key components--Human Resources, Renewable 
Energy (RE) Technologies, and Investment--is progressing, significant 
financing gaps remain. The $25.1 million total for the projects I 
outlined is needed to achieve the 2030 target.
    While planning is underway in the RMI to address adaptation 
options, information is currently lacking on accurate surveyed data to 
make informed decisions on adaptation, development, and disaster risk 
plans. Therefore, the RMI has planned two specific projects to improve 
our quality of survey data.
    First, accurate data to measure land levels relative to the sea is 
essential. These relative levels will define the actual risk of sea 
level rise for each community and the absence of accurate land level 
data will hinder development of effective adaptation measures.
    Aircraft-based remote sensing using LIDAR (Light Detection and 
Ranging) is one of the most promising land survey technologies. It uses 
light in the form of a pulsed laser to measure ranges to the Earth. 
These light pulses--combined with other data recorded by the airborne 
system--generate precise, three-dimensional information about the shape 
of the Earth and its surface characteristics. A LIDAR instrument 
principally consists of a laser, a scanner, and a specialized GPS 
receiver. Airplanes and helicopters are the most commonly used 
platforms for acquiring LIDAR data over broad areas. There are 
topographic LIDARs, which typically use a near-infrared laser to map 
the land, and bathymetric LIDARs, which uses water-penetrating green 
light to measure seafloor and riverbed elevations.
    Aircraft-based LIDAR surveys were undertaken in 2019 on Ebeye and 
Majuro, the two most populated areas of RMI. These found significant 
differences from previous assumptions, providing valuable information 
for the design of sea level adaptation measures. It is very important 
to conduct similar surveys on the 10 other most populous atolls in RMI. 
Based on the cost of the previous surveys, the budget for LIDAR surveys 
of the 10 other atolls would be $5.55 million.
    To break this down: $250,000 would be needed for mobilization to 
and from the RMI, $300,000 for re-mobilization from Majuro to the 10 
different atolls, and the total for acquisition and processing, at 
$50,000 per flight for 10 flights per atoll would be $5 million. This 
would assume each flight would consist of a survey speed of 140 knots, 
at an altitude of 1,400 feet, with spot spacing at 2.8 x 2.8 meters.
    Second, enhanced land and survey data to develop digital elevation 
maps and flood risk models will be another critical element to help 
implement our National Adaptation Plan, disaster response plans, and 
other development goals. Our technical experts have identified the 
Trimbler 10, sold by Frontier Precision, as the best equipment 
available to fulfill this task. The Rover has the capacity to reach 
some of the more inaccessible outer atolls.
    Funding to survey and produce the relevant maps necessary for 
planning and disaster response for all of the islands in the RMI would 
be critical. Estimated costs for this project have already been 
produced and amount to $103,999.12. This would include funding for the 
Trimber 10, a rechargeable battery, pole mount, keypad, transport case, 
GPS tripod, rover road, and online training to use the equipment, among 
other costs.
    In addition, while the development of a National Adaptation Plan is 
ongoing to address the full range of adaptation needs across all 
sectors, the RMI has frameworks and implementation plans already in 
place to advance coastal and marine resiliency. Thus, the RMI's 
National Oceans Symposium Plan along with the Reimaanlok Process, 
guides ongoing work that depends on science-driven, nature-based, and 
integrated planning solutions.
    $6.3 million is needed to cover outstanding costs in several 
categories of work. These include legal and regulatory, human resource/
capacity development, data collection, management, and information 
sharing, public awareness and education, networking, and partnerships, 
and, finally, new projects in conservation, management, and 
livelihoods.
    The RMI also needs U.S. agency technical support. This includes 
help from the Interior Department's Fish & Wildlife Service Honolulu 
field office and the Department of Commerce's NOAA National Marine 
Fisheries Service Honolulu office. It would be in keeping with their 
existing roles within conservation efforts and scientific inventories 
for U.S. islands and monuments in the Pacific, as well as at Kwajalein 
Atoll.
    It would also be important to clarify that existing technical grant 
references include these entities as relates to their mandate to 
provide technical support to the Freely Associated States regarding 
climate and conservation work.
    It would be beneficial to enhance the insular interagency task 
force by requesting U.S. Defense Department participation as well as a 
mandatory follow-up on implementation from the bill's insular task 
force.
    This follow-up should consider existing annual reporting. It should 
also provide Congress and the RMI with accountability as well as any 
U.S. efforts to work with the Freely Associated States to coordinate 
U.S. activities. It should, further, report on relevant bilateral and 
multilateral sources of assistance from other partners, and the extent 
to which the RMI and the FAS have engaged or benefited from such 
sources.
    Research and education to ensure that the RMI has the most current 
data available to make science-based policy decisions related to 
climate change is, essential, of course. An Atoll Research Center of 
Excellence housed at the College of the Marshall Islands would be a 
good way to consolidate research related to the long-term viability of 
atolls, not only in RMI, but in all insular areas.
    A range of research areas may be considered that are relevant to 
all atoll nations, including aquaculture, habitat rehabilitation, and 
Blue Economy related innovations and partnership modalities that 
embrace environmental assessment and management. The Center could 
create formal links with U.S. universities, including the University of 
Hawaii, to help share world-class expertise and innovation to help 
address challenges like food security that are confronting marginal 
environments.
    Support is needed to not only develop a strategic plan for the 
Center, but also to determine its operation and financial 
sustainability over time. Initial U.S. seed funding of $200,000 would 
help to get this project off the ground. Additional sums would be 
needed later for implementation.
    Mr. Chairman and Members, thank you for your attention and, again, 
for your leadership. I would be pleased to answer any questions and I 
look forward to working with the Committee and its staff on this 
legislation.
    The RMI is fortunate that the Leadership, Members, and staff of 
this Committee remember that the RMI is a member of the U.S.' extended 
political family, inextricably, but voluntarily linked for an unlimited 
future.

See attachment to Mr. Zackios' testimony below.

                                 *****

Attachment:

SEC. ___. REPORT ON RUNIT DOME AND RELATED HAZARDS

(a) IN GENERAL.--Not later than 1 year after the date of enactment of 
this Act, the Secretary of the Interior shall submit to the Committees 
on Natural Resources and Energy and Commerce of the House of 
Representatives, and to the Committee on Energy and Natural Resources 
of the Senate, a report, prepared by independent experts not employed 
by the U.S. Government, on the impacts of climate change on the ``Runit 
Dome'' nuclear waste disposal site in Enewetak Atoll, Marshall Islands, 
and on other environmental hazards in the vicinity thereof. The report 
shall include:

    (1) A detailed scientific analysis of any threats to the 
environment, and to the health and safety of Enewetak Atoll residents, 
posed by each of the following:

          (A)  the ``Runit Dome'' nuclear waste disposal site;

          (B)  crypts used to contain nuclear waste and other toxins on 
        Enewetak Atoll;

          (C)  radionuclides and other toxins present in the lagoon of 
        Enewetak Atoll, including areas in the lagoon where nuclear 
        waste was dumped;

          (D)  radionuclides and other toxins, including beryllium, 
        which may be present on the islands of Enewetak Atoll as a 
        result of nuclear tests and other activities of the U.S. 
        Government, including tests of chemical and biological warfare 
        agents, rocket tests, contaminated aircraft landing on Enewetak 
        Island, and nuclear cleanup activities;

          (E)  radionuclides and other toxins that may be present in 
        the drinking water on Enewetak Island or in the water source 
        for the desalination plant; and

          (F)  radionuclides and other toxins that may be present in 
        the groundwater under and in the vicinity of the nuclear waste 
        disposal facility on Runit Island.

    (2) A detailed scientific analysis of the extent to which rising 
sea levels, severe weather events and other effects of climate change 
might exacerbate any of the threats identified above.

    (3) A detailed plan, including costs, to relocate all of the 
nuclear waste and other toxic waste contained in (A) the ``Runit Dome'' 
nuclear waste disposal site, (B) all of the crypts on Enewetak Atoll 
containing such waste and (C) the three dumping areas in Enewetak's 
lagoon to a safe, secure facility to be constructed in an uninhabited, 
unincorporated territory of the United States.

(b) MARSHALLESE PARTICIPATION.--The Secretary of the Interior shall 
allow scientists or other experts selected by the Republic of the 
Marshall Islands to participate in all aspects of the preparation of 
the report required by subsection (a), including, without limitation, 
developing the work plan, identifying questions, conducting research, 
and collecting and interpreting data.

(c) PUBLICATION.--The report required in subsection (a) shall be 
published in the Federal Register for public comment for a period of 
not fewer than 60 days.

(d) PUBLIC AVAILABILITY.--The Secretary of the Interior shall publish 
the study required under subsection (a) and results submitted under 
subsection (b) on a public website.

(e) AUTHORIZATION OF APPROPRIATION FOR REPORT.--It is hereby authorized 
to be appropriated to the Department of the Interior, Office of Insular 
Affairs for fiscal year 2022 such sums as may be necessary to produce 
the report required in subsection (a).

(f) INDEFINITE AUTHORIZATION OF APPROPRIATION FOR RUNIT DOME MONITORING 
ACTIVITIES.--It is hereby authorized to be appropriated to the 
Department of Energy such sums as may be necessary to comply with the 
requirements of 48 USC 1921b(f)(1)(B).

                                 ______
                                 

Questions Submitted for the Record to His Excellency Gerald M. Zackios, 
   Ambassador to the United States, Republic of the Marshall Islands
              Questions Submitted by Representative Sablan
    Question 1. Perhaps no other nation has been forced to adapt to the 
effects of climate change as much and as quickly as the Republic of the 
Marshall Islands. Rising sea levels are submerging more and more of the 
highly limited land. Fresh water aquifers are threatened by flooding 
saltwater. Many residents are having to relocate. What do you think can 
be done to stem the disastrous impacts of climate change for the 
Marshall Islands? How can this legislation help the Marshalls? What 
else might be needed?

    Answer. First, concerning the existing text, we respectfully 
suggest that the Findings be amended to recognize that sea level rise 
from climate change is an indisputable existential threat to the RMI 
because of its low elevation and that this would substantially 
undermine the economic and defense security of the U.S.
    Second, we respectfully request that all provisions of the bill 
that provide means of addressing climate change challenges apply to the 
freely associated states as well as to the U.S. territories.
    Third, we request that the bill be amended to direct the 
preparation of a report on the impacts of climate change on the Runit 
Dome and on other environmental hazards in its vicinity prepared by 
independent experts agreed to by both of our governments. Legislative 
language for such a study--which would cover the major gaps in the June 
2020 DOE report--is attached to my statement.
    It is imperative that this study include concerns about safety 
identified by the resettled community and includes their knowledge 
about the interactions of the Dome and the surrounding ecosystem.
    Most importantly, the study should propose options for how the 
various environmental hazards left by the U.S. at Enewetak Atoll can be 
remediated and how threats from possible climate-induced events can be 
mitigated.
    Finally, we would like to discuss with the Committee staff how some 
specific projects to address the existential threat of climate change 
to the RMI and U.S. interests in the RMI can be funded.
    One requires $14.6 million to fund PV solar systems for the islands 
of Wotje, Jaluit, Rongrong, and Santo and an additional $9.5 million to 
fully transition Ebeye in Kwajalein Atoll to renewable energy.
    While planning is underway in the RMI to address adaptation 
options, information is currently lacking on accurate surveyed data to 
make informed decisions on adaptation, development, and disaster risk 
plans. Therefore, the RMI has planned two specific projects to improve 
our quality of survey data.
    First, aircraft-based remote sensing using LIDAR (Light Detection 
and Ranging) is one of the most promising land survey technologies. 
Aircraft-based LIDAR surveys were undertaken in 2019 on Ebeye and 
Majuro. These found significant differences from previous assumptions, 
providing valuable information for the design of sea level adaptation 
measures. It is very important to conduct similar surveys on the 10 
other most populous atolls. The estimated budget is $5.55 million.
    Second, enhanced land and survey data to develop digital elevation 
maps and flood risk models will be another critical element to help 
implement our National Adaptation Plan, disaster response plans, and 
other development goals. Estimated costs for this project have already 
been produced and amount to $103,999.12.
    In addition, while the development of a National Adaptation Plan is 
ongoing to address the full range of adaptation needs across all 
sectors. $6.3 million is needed for work in the areas of legal and 
regulatory requirements, human resource/capacity development, data 
collection, management, and information sharing, public awareness and 
education, networking, and partnerships, and, finally, new projects in 
conservation, management, and livelihoods.
    The RMI also needs technical support from the Honolulu offices of 
the Interior Department's Fish & Wildlife Service and the Department of 
Commerce's NOAA National Marine Fisheries Service.
    It would also be beneficial to enhance the bill's insular 
interagency task force through U.S. Defense Department participation.
    Task Force follow-up should consider existing annual reporting. It 
should also provide Congress and the RMI with accountability as well as 
any U.S. efforts to work with the Freely Associated States to 
coordinate U.S. activities. It should, further, report on relevant 
bilateral and multilateral sources of assistance from other partners, 
and the extent to which the RMI and the FAS have engaged or benefited 
from such sources.
    Research and education to ensure that the RMI has the most current 
data available to make science-based policy decisions related to 
climate change is, of course, essential. An Atoll Research Center of 
Excellence housed at the College of the Marshall Islands would be a 
good way to consolidate research related to the long-term viability of 
atolls, not only in RMI, but in all insular areas. Support is needed to 
not only develop a strategic plan for the Center, but also to determine 
its operation and financial sustainability over time. Initial U.S. seed 
funding of $200,000 would help to get this project off the ground. 
Additional sums would be needed later for implementation.

              Questions Submitted by Representative Porter

    Representative Porter has heard from constituents about a lack of 
access to clear, concrete information about issues of interest of the 
RMI and the Marshallese diaspora including climate change as well as 
the legacy of nuclear weapons tests.

    Question 1. From 1946 to 1958, the U.S. conducted 67 atmospheric 
atomic and thermonuclear weapons tests over the Marshall Islands atolls 
of Bikini and Enewetak. In addition to fallout from these tests, the 
U.S. dumped unknown quantities of radioactive and toxic waste in the 
lagoon at Enewetak and buried additional radioactive and toxic waste in 
storage crypts on the atoll.

    1a. Does the RMI believe it has a complete accounting of the waste 
dumped into the lagoon at Enewetak, including and quantity and 
composition?

    Answer. The RMI does not have an accounting of the waste dumped 
into the lagoon at Enewetak. The Radiological Cleanup of Enewetak 
Atoll, a report issued by the Defense Nuclear Agency in 1981,\1\ does 
provide some information about the dumping of radioactive. Page 220 
describes the purported maximum levels for alpha, beta, and gamma 
radiation levels. The waste appears not to have been screened for other 
toxins that likely would have been present.
---------------------------------------------------------------------------
    \1\ https://www.dtra.mil/Portals/61/Documents/NTPR/1981-
DNA_The%20Radiological%20Clean up%20of%20Enewetak%20Atoll-web.pdf.

    We have not been informed of the quantity of radioactive and other 
---------------------------------------------------------------------------
waste that was dumped.

    Some of the information that we have gathered from declassified 
U.S. Government reports raises more questions than it provides answers. 
For example, Page 403 of the report discloses the following about a 
failed nuclear test: ``In the Quince event of Operation Hardwick I in 
1958, only the highly explosive component was detonated, scattering 
plutonium over a large area. To prepare for the Fig event scheduled 12 
days later, 3 to 5 inches of contaminated soil were removed from a 60-
foot square around the Quince GZ and disposed of in the lagoon.'' There 
is no indication of whether this plutonium-contaminated soil met the 
U.S. Government's declared standards for waste to be dumped in the 
lagoon.
    Additionally, the U.S. Defense Nuclear Agency acknowledged in a 
1982 report that over 130 tons of soil from the Nevada Test Site had 
been transported to Enewetak.\2\ This soil from Nevada was spread on 
the site of the failed Quince test for reasons that have not been 
disclosed to the RMI.
---------------------------------------------------------------------------
    \2\ https://www.dtra.mil/Portals/61/Documents/NTPR/2-Hist_Rpt_Atm/
1958_DNA_6038F.pdf (p. 221 [p. 227 of the PDF page counter]).

    Since the soil was from the Nevada Test Site, we presume that it 
was contaminated. Since the soil had to be applied during the 12-day 
window between the failed Quince test and the Fig test, it, presumably, 
was already on Enewetak at the time of the Quince test. Our suspicion 
is that the U.S. Government was keeping a larger stockpile of 
contaminated soil imported from Nevada on Enewetak to be applied in the 
event of a failed test, and we further suspect that the stockpile would 
have been much larger than the 130 tons that were spread after the 
Quince test. We, further, suspect that the remaining contaminated soil 
imported from Nevada may have been dumped into the lagoon. The RMI 
---------------------------------------------------------------------------
would appreciate an explanation from the U.S. Government.

    1b. Does the RMI believe it has a complete accounting of waste 
stored in crypts on Enewetak Atoll, including quantity, composition, 
locations, and date of disposal?

    Answer. The RMI has received no information from the U.S. 
Government regarding waste stored in crypts.
    1c. Has the U.S. Government conducted any testing of the lagoon at 
Enewetak to determine whether waste in the lagoon poses a threat to 
environmental or human health. If so, when was the last test, and are 
the findings publicly available?

    Answer. We are not aware of any tests of the Enewetak lagoon waters 
to determine whether the waste dumped there, or the fallout deposited 
there from the nuclear tests, poses any threat to the environment or 
human health.

    1d. Has the U.S. Government conducted any testing of the drinking 
water on Enewetak Island to determine whether it is safe? If so, when 
was the last test, and are findings publicly available?

    Answer. We are not aware of any tests by the U.S. Government to 
determine whether the drinking water on Enewetak Island is safe.

    Question 2. According to the U.S. Government, the radioactive waste 
dumped into Enewetak's lagoon was less radioactive than the waste 
buried under Runit Dome. However, there are reports from U.S. military 
personnel and civilians who participated in the radiological cleanup of 
Enewetak Atoll that some highly radioactive waste, which should have 
been buried under Runit Dome per stated policy, was in fact dumped into 
the lagoon. Is the RMI aware of an investigation by the U.S. Government 
into dumping of highly radioactive waste in the Enewetak Lagoon? If so, 
have the findings of this study been shared with the RMI?

    Answer. We are not aware of any investigation by the U.S. 
Government of reports that highly radioactive waste was improperly 
dumped into Enewetak's lagoon.

    Question 3. In addition to atomic and thermonuclear tests, the U.S. 
engaged in other military activities on Enewetak Atoll that may would 
have caused environmental damage. For example, the U.S. used Enewetak 
Atoll as a base for tests of chemical and biological warfare agents as 
part of Project SHAD, which ran from 1962 to 1973.

    3a. Does the RMI believe it has a complete accounting of the date, 
location, and nature, of chemical or biological weapons tests conducted 
in the Marshall Islands?

    Answer. The RMI does not have an accounting of the tests of 
chemical and biological warfare agents that were reportedly conducted 
in the Marshall Islands.


    3b. Does the RMI believe there are any current environmental or 
human health risks as a result of Project SHAD, or other chemical or 
biological weapons tests?

    Answer. The RMI does not have any information regarding Project 
SHAD or any other chemical or biological weapons tests that may have 
been conducted in the Marshall Islands. We are, therefore, not in a 
position to evaluate whether any current environmental or human health 
risks arise from such tests.

    3c. Has the U.S. provided the RMI with any information about 
potential environmental or human health hazards as a result of Project 
SHAD tests?

    Answer. The RMI has received no information from the U.S. 
Government about potential environmental or human health hazards as a 
result of Project SHAD tests.

    Question 4. In 1968, the U.S. conducted a failed rocket test that 
spilled 300 pounds of highly toxic beryllium over Enjebi Island, 
Enewetak Atoll. The U.S. claims that the environmental and health 
threats caused by this beryllium were addressed by scraping surface 
dirt from the affected area and burying it in a crater. However, over 
the course of the radiological cleanup of Enewetak Atoll, starting in 
1977, tens of thousands of additional cubic yards of soil was dug up 
and removed from Enjebi Island.

    4a. Has the U.S. Government informed the RMI whether the subsequent 
radiological cleanup activities resulted in the resuspension of 
beryllium?

    Answer. The U.S. Government has not informed the RMI whether the 
subsequent radiological cleanup activities resulted in the resuspension 
of beryllium. The U.S. Government's efforts to clean up the 
contaminated area by scraping surface dirt and burying it are described 
in The Radiological Cleanup of Enewetak Atoll, pp. 59-61 and 339-341. 
That report, however, also describes the extensive soil digging and 
removal activities that occurred on Enjebi Island a few years later 
(pp. 341-346). It appears that the subsequent activities were focused 
on removing radioactive material and that the potential for 
resuspending beryllium may not have been considered.
    Also, it is disclosed on p. 59 of the report that 2,500 lbs. of 
propellant was scattered during the failed rocket test, of which 300 
lbs. was beryllium. The RMI has not been informed of whether the 
remaining 2,200 lbs. of propellant also posed environmental or health 
risks.

    4b. Has the U.S. Government informed the RMI whether any of the 
soil dug up and/or removed during the radiological cleanup was 
contaminated with beryllium? If so, has the U.S. Government informed 
the RMI where and how that contaminated soil was disposed?

    Answer. The U.S. Government has not informed the RMI whether any of 
the soil dug up and/or removed during the radiological cleanup was 
contaminated with beryllium.
    Our concern is that the criteria for determining whether waste 
would be buried under Runit Dome, dumped in the lagoon, or left in 
place related solely to radiation levels. We are, therefore, concerned 
that waste was not being screened for other toxins, including 
beryllium, and that waste contaminated with such toxins may have been 
dumped in the lagoon or left in place.

    4c. Has the U.S. Government informed the RMI whether it has done 
any testing to determine whether any environmental or health risks 
exist from the presence of beryllium or other toxic substances on 
Enewetak Atoll or in the waters surrounding it, including the lagoon? 

    Answer. We are not aware of any testing done by the U.S. Government 
to determine whether any environmental or health risks exist from the 
presence of beryllium or other toxic substances on Enewetak Atoll or in 
the waters surrounding it, including the lagoon.

    Question 5. The Insular Areas Act of 2011 (Public Law 112-149) 
directs the Department of Energy to conduct no less than every 4 years 
``(I) a visual study of the concrete exterior of the Cactus Crater 
containment structure on Runit Island; and (II) a radiochemical 
analysis of the groundwater surrounding and in the Cactus Crater 
containment structure on Runit Island.'' The Secretary was also 
directed to submit to Congress a report describing the results of each 
visual survey and the radiochemical analysis and ``a determination on 
whether the surveys and analyses indicate any significant change in the 
health risks to the people of Enewetak from the contaminants within the 
Cactus Crater containment structure.''

    5a. Since 2012, how many inspections has the U.S. completed of the 
Runit Dome?

    Answer. There has only been one visual study of the exterior of 
Runit Dome published since 2012. It was published in 2013. (Hamilton, A 
Visual Description of the Concrete Exterior of the Cactus Crater 
Containment Structure. Lawrence Livermore National Laboratory, October 
2013).\3\
---------------------------------------------------------------------------
    \3\ https://marshallislands.llnl.gov/ccc/Hamilton_LLNL-TR-
648143_final.pdf.

    5b. Since 2012, how many radiochemical analyses of groundwater has 
---------------------------------------------------------------------------
the U.S. completed in the vicinity of Runit Dome?

    Answer. The U.S. Government has not completed any of the 
radiochemical analyses required by the Insular Areas Act of 2011, 
notwithstanding the statute's requirement to conduct such an analysis 
at least every 4 years starting on January 1, 2012.

    5c. Since 2012, how many reports has the Department of Energy 
delivered to Congress pursuant to this section of P.L. 112-149? Are 
these reports available to the RMI government or its citizens?

    Answer. A Visual Description of the Concrete Exterior of the Cactus 
Crater Containment Structure from 2013, is the only study published 
pursuant to P.L. 112-149. The study is available online and has been 
discussed with leaders of the Enewetak/Ujelang Local Government.

    5d. What steps has the U.S. taken to build RMI capacity to 
independently monitor environmental or health risks related to former 
U.S. weapons testing programs?

    Answer. The U.S. has not taken any steps to build RMI's capacity to 
independently monitor environmental or health risks, other than 
scholarships for one or two students to work in the Livermore Lab.
    There is no audit of the health or environmental programs to 
consider whether they reflect best practices in terms of radiological 
health and safety, particularly for elders.
    It is difficult for the RMI to independently monitor environmental 
or health impacts when all of our cancer patients have to leave the RMI 
because there is no cancer care in the RMI, and because DOE's 
laboratory employs and supports people in Livermore, CA, not in the 
RMI.

    5e. Is the RMI able to conduct independent analysis of samples 
collected by the U.S. pursuant to statute?

    Answer. No, the RMI is not able to conduct independent analysis of 
samples, and there has been no training of Marshallese in the academic 
disciplines to support this work. Nor is the data turned over, shared 
with, or owned by the RMI.

    Question 6. Pursuant to Section 364 of Public Law 116-92, National 
Defense Authorization Act for Fiscal Year 2020, the Department of 
Energy was required to provide a plan to repair the Runit Dome, 
evaluate how the rising sea levels could affect its infrastructure, as 
well as its effects on the lagoon for the next 20 years. In response, 
the DOE submitted a report last year to Congress assessing the risks of 
the Runit Dome on the Marshall Islands.

    6a. Has the U.S. facilitated any community events to share the 
findings of this study with the RMI community?

    Answer. Prior to COVID-19, there were semi-annual or occasional 
meetings, but DOE has not conducted a meeting since the pandemic began, 
although a meeting could be conducted virtually.
    In this regard, though, I must note that our national government is 
not always informed when DOE officials are in the RMI.

    6b. Are there recordings of events or briefings by U.S. officials, 
either conducted as part of the study or to report its findings, 
available online to the Marshallese public?

    Answer. There are not recordings or explanations that have been 
made available to the Marshallese people.
    On this point, however, I must reiterate that RMI does not agree 
with the findings in the DOE's 2020 Runit Dome report.

    6c. Has the U.S. translated this report into Marshallese, so it is 
accessible to the Marshallese speaking citizens?

    Answer. No, the report has not been translated by the U.S. 
Government, although community members requested a translation.
    In this regard, I note that, with the exception of a report in 
1978, there are no DOE reports that have been translated into 
Marshallese. The practice by DOE is to publish findings and, then, 
report the findings to the RMI. Neither the academic journals nor the 
U.S. sharing of information are accessible to the Marshall Islands.

    6d. Is the RMI able to conduct independent analysis of samples 
collected by the U.S. pursuant to statute?

    Answer. No, the RMI is not able to conduct independent analysis of 
samples collected by the U.S.
    The RMI would like to see DOE hire Marshallese scientists and 
professionals from our institutions, such as our EPA, the Marshall 
Islands Marine Resources Authority, or the College of the Marshall 
Islands.

    6e. What does the RMI believe are steps the U.S. should take to 
ensure that the Marshallese have sufficient access to information about 
the U.S. weapons testing programs in the Marshall Islands?

    Answer. To ensure a strong foundation for the U.S.-RMI 
relationship, it is very important to disclose all information and be 
open with new information and details shared by Enewetak clean-up 
veterans.
    There should also be a bilateral agreement on steps toward 
sufficient access to information regarding the testing.
    In addition, there should be a discussion of the synergistic 
impacts of nuclear, chemical, and biological tests, so that RMI leaders 
understand the cumulative and intersecting impacts.
    The RMI still has no fallout information for some of the nuclear 
weapons tests. We also still do not understand the full extent of 
radiological and other hazards our people face. This information should 
be provided.
    There can be no closure without disclosure.

             Questions Submitted by Representative DeGette
Background
    Rep. DeGette's Clean Energy Innovation and Deployment Act includes 
a provision (Section 130 of H.R. 7516 in the 116th Congress) that may 
be of great benefit to people living in U.S. territories, as well as on 
islands and in remote areas worldwide.
    The provision would require the Department of Energy (DOE) to 
establish a certification program for electricity-related technologies 
for use in remote communities. Companies whose products were certified 
could use that fact in marketing the technologies, much as do the 
recipients of DOE's Energy Star label. Facilitating the deployment of 
these technologies would make modern electricity services more 
affordable, reliable, and resilient to households in remote areas, and 
reduce demand for expensive imported fossil fuel-generated electricity 
and the associated carbon emissions.
    Qualifying technologies would include those that can generate 
electricity off-grid (such as solar panels), those that store energy, 
and highly efficient appliances, including lights, cell-phone chargers, 
computers, fans, refrigerators, stoves and ovens. DOE would only 
certify a technology determined to function properly; generate no 
greenhouse gas emissions; be affordable, reliable, durable, safe, and 
protective of human health and the environment; be compatible with 
other technologies relevant to its functioning, including those which 
have been similarly certified; and be available for deployment at 
commercial-scale throughout the territories and states of the United 
States.
    There is already a market for these kinds of technologies, 
especially in developing countries, but many of the products being 
marketed today do not work well, are sold on the basis of fraudulent 
claims, or are not compatible with adjacent technologies (for example, 
a solar panel not being compatible with a battery). Rep. DeGette's 
measure would make DOE the validator of these technologies, thus 
driving their innovation, increasing their quality, protecting 
consumers in the United States and globally, and facilitating the 
deployment of affordable reliable resilient climate-friendly 
technologies to communities in the United States, and around the world, 
that need them the most.

    Question 1. In addition to being on the front lines of climate 
change, are communities on your islands paying much higher electricity 
rates due to the fact that most electricity is generated from imported, 
expensive, and, in many cases, polluting fossil fuels?

    Answer. Yes. Approximately 98% of all electricity generated is from 
imported fossil fuels. The current retail rate for gasoline and diesel 
on the capital island of Majuro is between $5.00 and $5.50 per gallon 
for gasoline and $4.50 to $4.80 per gallon for diesel. In the remote 
outer island communities, fuel can range from $10.00-$12.00 per gallon.
    The RMI introduced individual solar home systems to every household 
in the outer islands more than 10 years ago, which has greatly reduced 
the shipments of kerosene for use in lanterns and kerosene stoves. 
Coupled with the introduction of gas stoves and smokeless oven 
programs, respiratory health ailments have reduced over recent years 
among the outer island population. Fuel quality has been greatly 
improved with the upgrade to ultra-low sulfur fuel products in recent 
years. Though these efforts are small, they form the start of the 
transition to renewable energy reforms and goals.

    Question 2. Are the electric grids on your islands vulnerable to 
disruption by the effects of climate change, in particular increasing 
storm intensity, water cycle disruption, average temperatures, and sea 
level rise?

    Answer. Yes. With the natural ground levels on all the islands only 
being 1 foot higher than the mean high-water level, all weather 
influences affect every aspect of life in the Marshall Islands. More 
than 70% of our systems are installed underground and are increasingly 
subject to tidal and stormwater flooding of cable pits and ducts. 
Programs are being developed to raise all cable splices and joints to 
elevated junction boxes. Power transformers, isolating and protection 
equipment are being raised to an elevated level to climate-proof the 
equipment in anticipation of future events. Long periods of dry, windy 
weather have increased the incidents of pole fires due to salt buildup 
on pole-top connections when light rain showers appear and are not 
heavy enough to quickly wash away the buildup of the salts. 
Implementing climate proof methods to the electric grids is a vital 
task as we face the challenge of converting our 1970s power grid into a 
renewable energy compliant power grid for the future.

    Question 3. Do you believe this puts an additional and unnecessary 
financial strain on those living on your islands?

    Answer. Yes. The transition period for the conversion of the 
existing grids both in the urban centers and the remote outer islands 
to climate-proof grids will take many years because they are our only 
functioning electric grids. The RMI does not have inter-connectivity 
with other grids to supplement power generation issues. Restrictive 
land areas and high costs make it difficult to construct bypass 
networks. For the next 10 years, the RMI will continue to face system 
and component failures as upgrade projects are funded and progressively 
implemented.

    Question 4. Given that, do you think there might be a market on 
your islands for affordable reliable resilient equipment to generate 
and use zero-emitting electricity, reducing dependence on expensive 
fossil fuels and the vulnerable electric grid?

    Answer. Yes. We continuously seek assistance from all partners to 
implement new energy sources and upgrade existing ones. Development 
plans are continually being developed on a project-by-project basis in 
an attempt to follow the nationally approved path outlined in the RMI 
Electricity Roadmap. This is available at the website 
www.rmienergyfuture.org which contains the full roadmap and additional 
educational tools as well as reference tools and technical papers for 
key elements to achieve the goals.

    Question 5. Do you think certification of this kind of equipment by 
the U.S. Department of Energy, as described in the Background section, 
would increase consumer confidence in it and thereby promote its use on 
your islands?

    Answer. Yes. People are more quality conscious today amid the vast 
variety of products available in the market today.

              Questions Submitted by Representative Graves
    Question 1. I am concerned that the creation of new Federal 
programs may result in duplication with existing programs, diluting 
funding availability and potential impacts. Are existing programs 
failing to meet these needs? If so, could they be reformed to better 
support current inadequacies? Please provide specific examples.

    Answer. One big issue is the need for a transition period to 
renewables. Many programs only allow for 100% renewable product 
expenditures. There are key areas where assistance is initially needed 
to convert non-compatible energy grids to being able to work with 
intermittent renewable energy systems. Our island grids are of such a 
small capacity that installing a five-megawatt solar system can provide 
50% of our daytime energy demand but it may be 400% more than the 
capacity of the distribution lines where the solar system is located. 
Additionally, the intermittent production from the solar system greatly 
affects the stability of the existing fossil fuel generation systems to 
the point where the solar system has to be shut down or curtailed until 
upgrade works can be funded. Another area is that of system efficiency 
and loss reductions. Many older systems can have system losses of more 
than 30% which can relate to millions of dollars in wasted fuel 
consumption, but it is difficult to get assistance to reduce these 
losses as the work does not relate to increasing renewable percentages.

    Question 2. Insular areas are unique in many ways, including 
energy. These areas are largely dependent on imports for energy--
resulting in high costs, reduced energy security and vulnerability to 
supply chain disruption. Distributed generation and renewables are a 
very good fit for the natural resource availability of many of these 
areas. However, my concern is that the Federal Government would be 
mandating a singular approach. Even if you were to dramatically 
increase renewables, does it make sense to keep the door open for other 
energy options?

    Answer. Definitely. The RMI is constantly looking to different 
forms of energy production that can improve the quality of life and the 
economic opportunities for our citizens. We acknowledge and promote the 
need for a long transition period to achieve 100% renewable energy 
production and to provide energy security. The RMI has to maintain 
fossil fuel energy production and fuel storage systems for most of this 
transition period due to the increasing and unpredictable events 
associated with climate change because of our isolated location. In the 
event of a disaster, the RMI cannot source power from a neighboring 
state as can be done in the U.S. Currently, the RMI is engaged in wind 
and solar assessment programs. Waste to energy systems are under review 
as well as various recycling programs, such as those returning plastics 
to oils. The RMI is approached about opportunities to work with various 
systems, many unproven, but many do not take into consideration the 
scale of operations, the geology and topography of the islands, the 
remoteness and practicality of living in island nations. So many 
systems are impractical for use, at present.

    Question 3. A primary reason for a government mandates is that a 
desired outcome does not make financial sense over the long term. Is 
that the case--would renewable energy be more expensive over the long 
term? If not, what is the benefit of having the Federal Government 
impose such mandates (if it potentially ties the hands of these areas 
should a better option come along in the future)?

    Answer. Luckily, that is not the case yet. There is always a desire 
to fast-track ideas, such as allowing anyone to inject energy into the 
local grids from personal solar or wind systems for example. If the 
existing power grid is small and not set up to cope with lots of 
uncontrollable intermittent energy, however, it will repeatedly fail 
due to stability issues. In the RMI, we currently do not allow 
individuals to connect private energy systems to the grids. We are 
installing large solar systems, but these will be controlled by the 
utility directly, allowing it to turn them on and off as needed. The 
application rules for island power systems, with one generation 
facility (a diesel power plant), are totally different to that of an 
island or a State in the U.S. that has a power grid with dozens or 
thousands of generation facilities that can absorb fluctuations. So, 
any mandate has to consider the variety and complexity of existing 
power grids.

                                 ______
                                 

    The Chairman. Thank you, Mr. Ambassador, for your comments.
    And let me now jump to Mr. Jean-Pierre Oriol, Commissioner 
of USVI Department of Planning and Natural Resources.
    Sir, the time is yours.

 STATEMENT OF JEAN-PIERRE L. ORIOL, COMMISSIONER, U.S. VIRGIN 
   ISLANDS DEPARTMENT OF PLANNING AND NATURAL RESOURCES, ST. 
                     THOMAS, VIRGIN ISLANDS

    Mr. Oriol. Thank you. Beginning, I would like to start off 
by saying I bid you talofa, buenos dias, hafa adai, and good 
afternoon by all the insular area family, Representative 
Grijalva. Thank you for the opportunities to testify in support 
of the proposed Insular Area Climate Change Act on behalf of 
the U.S. Virgin Islands.
    Whether it is the 2015 federally declared disaster for 
drought in the U.S. Caribbean, the impact of Hurricanes Irma 
and Maria on Puerto Rico and the U.S. Virgin Islands in 2017, 
or Tropical Cyclone Gita in American Samoa, or Super Typhoon 
Yutu in the Mariana Islands in 2018, the people of the Virgin 
Islands and the insular areas and territories of the United 
States are no strangers to damaging events associated with 
climate change.
    Our islands make minimal contributions to greenhouse gas 
emissions, yet they are experiencing overwhelming ecological, 
economic, and cultural impacts from global climate change, 
which will dramatically increase over the next several decades.
    The combined effects of sea-level rise, ocean 
acidification, increased storm intensity and frequency, and 
significant changes in rainfall, coral bleaching, and 
temperature-induced changes in the distribution of ocean 
productivity and fisheries are of great concern to all of the 
insular areas and require addressing infrastructure 
improvements as well as sustainability and climate change 
adaptation planning.
    Addressing climate change in an effective and timely manner 
is one of the most pressing challenges, where sound 
environmental policy is also the best economic policy and 
addresses key quality-of-life issues for present and future 
generations.
    For the U.S. Virgin Islands, as we recover from the 
devastation suffered from two Category 5 hurricanes, we are 
focused on incorporating long-term resilience into our everyday 
way of life. The U.S. Virgin Islands is involved in several 
initiatives related to assessing the impacts from climate 
change in our territory.
    In conjunction with the University of the Virgin Islands 
and using funding from NOAA's Office for Coastal Management, 
the VI's Coastal Zone Management Program is developing a 
coastal vulnerability index that will identify our 
susceptibility to different climate-related events, such as 
sea-level rise, tsunamis, storm surge, drought, coastal 
flooding, and coastal erosion.
    The Department of the Interior's Office of Insular Affairs 
has provided funding to the territory through its Coral Reef 
Initiative to install ocean acidification monitors at our long-
term monitoring sites and has also provided funding to the 
territory for a 50-kilowatt microgrid at one of our hurricane 
shelter sites.
    The U.S. Department of Energy is partnering on many 
initiatives with the Virgin Islands Division of Energy, 
including an energy rebate program, our sun power grant 
program, and providing technical assistance with our 
comprehensive energy strategy.
    The government of the Virgin Islands is receiving support 
from FEMA's Hazard Mitigation Program for the updating of our 
Hazard Mitigation Resilience Plan, which identifies threats 
across all sectors and strategies to be implemented as part of 
our long-term resilience.
    Lastly, but not exhaustive, I would also like to recognize 
the support given to us by the Department of Housing and Urban 
Development, who is administering the Community Development 
Block Grant Disaster Recovery funding to the U.S. Virgin 
Islands, which has a mandate that the U.S. Virgin Islands 
relate the activities in the third tranche of funds to the 
Hazard Mitigation Resilience Plan.
    The proposed bill provides five sections directing the 
actions of our Federal partners and assisting the insular areas 
and territories with planning and implementation of climate 
resilience activities. The U.S. Virgin Islands is supportive of 
all the directives in Titles II through VI. And, overall, the 
Virgin Islands sees the significance of this bill and the 
proposed creation of programs and steady funding sources 
specifically for the insular areas and territories to address 
impacts related to climate change.
    We applaud the bill's sponsor for the language included in 
Title I, Section 101(c)(1) and (c)(2) related to the equitable 
baseline funding. Many baseline formulas for assistance under 
Federal programs use land mass or population----
    [Audio malfunction.]
    The Chairman. We lost the audio on that.
    Ms. Locke. I believe he has connectivity issues.
    The Chairman. OK. We can return to finish that part of the 
testimony.
    We will now move to Secretary Machargo Maldonado, Secretary 
of Natural and Environmental Resources, Puerto Rico, for his 
comments. And then we will return to Mr. Oriol for him to 
finish his comments as soon as the technical issues are dealt 
with.
    Mr. Secretary, the time is yours, sir.

 STATEMENT OF RAFAEL A. MACHARGO MALDONADO, SECRETARY, PUERTO 
  RICO DEPARTMENT OF NATURAL AND ENVIRONMENTAL RESOURCES, SAN 
                       JUAN, PUERTO RICO

    Mr. Machargo. Good afternoon, Chairman Grijalva, Ranking 
Member Westerman, Resident Commissioner Gonzalez-Colon, and 
Committee members. Thank you for the opportunity to appear 
before you today to discuss the draft of the Insular Area 
Climate Change Act.
    My name is Rafael Machargo. I am the Secretary of the 
Department of Natural and Environmental Resources of Puerto 
Rico. Also, I am the Chairman of the Puerto Rico Climate Change 
Expert and Advisory Committee.
    Created under Puerto Rico Act No. 33 of 2019, the 
committee's primary duty is to advise on the implementation of 
Puerto Rico's public policy on climate change and prepare the 
``Plan for the Mitigation, Adaptation, and Resilience of 
Climate Change of Puerto Rico.'' The committee is the official 
government organization for all climate change matters in 
Puerto Rico.
    The committee, which I am honored to chair is comprised of 
nine members--three of them ex officio and six scientific and 
academic members and experts--appointed by the governor and 
confirmed by the legislature. The permanent members are as 
follows: (1) Engineer Carl Alex Soderberg, former Director of 
the Caribbean Division of the American Environmental Protection 
Agency. He is our water expert. (2) Meteorologist Ada Monzon. 
She already testified. She is our meteorologist. (3) 
Climatologist Rafael Mendez Tejeda. He is also at the 
University of Puerto Rico Carolina campus. (4) Global renewable 
energy expert Mr. Roy Charles Torbert. He is the director of 
the Rocky Mountain Institute. (5) The expert in climate change 
and public health, Dr. Pablo Mendez Lazaro. He works at the 
University of Puerto Rico, Medical Sciences Department. And, 
finally, (6) coastal oceanographer Dr. Maritza Barreto. She is 
the Chair of Coastal Research and Planning Institute of Puerto 
Rico and member of the American Shore and Beach Association 
Board of Directors.
    The government's representatives are the secretary of 
economic development and commerce, the president of the 
University of Puerto Rico, and the secretary of natural and 
environmental resources.
    In the past few years, Puerto Rico has experienced the 
effects of severe weather. On September 20, 2017, Hurricane 
Maria, a powerful hurricane with sustained winds of over 150 
miles per hour, made direct landfall and bisected the entire 
island of Puerto Rico.
    Hurricane Maria caused widespread destruction and left 
flooding associated with over 40 inches of rainfall; major 
devastation of residential areas, roads, bridges, communication 
towers; and total failure of the electric grid infrastructure 
caused by the collapse of thousands of power lines and poles.
    Furthermore, the storm activated thousands of landslides 
registered in high-altitude and steep-sloped topographic areas, 
including the central region, or La Cordillera Central region.
    NOAA's National Center for Environmental Information and 
the National Hurricane Center jointly classified Hurricane 
Maria as the United States' third-costliest tropical cyclone. 
Damage in Puerto Rico and the U.S. Virgin Islands totaled over 
$90 billion.
    Climate change needs to be addressed urgently. For that 
matter, we strongly support Chairman Grijalva's proposed 
intention to move forward with the climate change issues in the 
U.S. territories and Freely Associated States. Although the 
Committee on Climate Change in Puerto Rico will be submitting 
more specific comments on the newest draft version of the bill, 
our main recommendations are as follows.
    Title III--We recommend to appropriate the funds to acquire 
an additional NEXRAD Doppler system. Given the catastrophic 
nature of tropical cyclones resulting from climate change, an 
additional NEXRAD Doppler system must be incorporated into the 
islands' regime.
    Also, we recommend the re-evaluation of the allocation 
amounts to be appropriated by Congress for the different 
programs.
    We would recommend to add a section on Title V to include 
the following:
    ``Technical assistance. The Environmental Protection Agency 
will provide technical assistance to territories and Freely 
Associated States on adaptation and resilience to climate 
change impacts on water supply. The technical assistance will 
include, but will not be limited to, implementation of EPA's 
WaterSense water conservation program, wastewater reuse, 
rainfall harvesting, and reduction of potable water loss in the 
distribution system, protection of aquifer recharge areas, 
erosion control, among others.''
    We also are recommending Title III, Section 302, to include 
technical assistance on coastal erosion of flooding.
    I also would recommend a new section for ``Mitigation, 
Adaptation, and Resiliency Climate Change Plan'':
    "(A) One year after the enactment of this law, each 
territory shall submit a climate change mitigation, adaptation, 
and resiliency plan.
    "(B) Grants--FEMA will provide each territory up to 
$1,000,000 to develop a comprehensive climate change 
mitigation, adaptation, and resiliency plan. The plan will be 
submitted to the Federal task force for approval. Once 
approved, each territory will implement it according to the 
timetables included in the document. Federal grants to 
implement mitigation, adaptation, and resiliency projects will 
be contingent on the approved plans.''
    Once again, we want to thank this honorable Committee for 
the opportunity to present these preliminary comments and 
recommendations on the proposed bill, as further commentaries 
will be submitted at the proper time. The Committee on Climate 
Change hopes you to find this useful and reiterates its 
commitment to supporting the initiatives to address climate 
change.
    Thank you.

    [The prepared statement of Mr. Machargo follows:]
Prepared Statement of the Hon. Rafael Machargo, Secretary, Puerto Rico 
           Department of Natural and Environmental Resources
    Chairman Grijalva, Ranking Member Westerman, and Committee Members: 
Thank you for the opportunity to appear before you today to discuss the 
draft of the Insular Area Climate Change Act. My name is Rafael 
Machargo. I am the Secretary of the Department of Natural and 
Environmental Resources of Puerto Rico and President of the Puerto Rico 
Climate Change Experts and Advisory Committee (CEACC, by its Spanish 
acronym).
    Created under Puerto Rico Act No. 33-2019 (Act 33), the CEACC's 
primary duty is to advise on the implementation of Puerto Rico's public 
policy on climate change and prepare the ``Plan for the Mitigation, 
Adaptation, and Resilience on Climate Change of Puerto Rico.'' The 
CEACC is the official governmental organization for all climate change 
matters.
    The CEACC, which I'm honored to preside, comprises nine members: 
three of them ex officio and six scientific and academic permanent 
experts, appointed by the Governor of Puerto Rico and confirmed by the 
Legislative Assembly. The permanent members are the following: Eng. 
Carl Alex Soderberg (former Director, Caribbean Division of the 
Environmental Protection Agency); meteorologist Ada Monzon (CEO of Eco 
Exploratorio of Puerto Rico and news communicator); climatologist Dr. 
Rafael Mendez Tejeda (Scientist and Dean of the University of Puerto 
Rico, Carolina campus); global renewable energy expert, Mr. Roy Charles 
Torbert (Director of Rocky Mountain Institute); expert in climate and 
public health, Dr. Pablo Mendez Lazaro (Scientist at the University of 
Puerto Rico, Medical Sciences Department); and coastal oceanographer 
Dr. Maritza Barreto (Chair Coastal Research and Planning Institute of 
Puerto Rico and member of the American Shore and Beach Association 
Board of Directors). The Government's representatives are the Secretary 
of the Department of Economic Development and Commerce of Puerto Rico 
(DDEC), the President of the University of Puerto Rico, and the 
Department of Natural and Environmental Resources of Puerto Rico.
    In the past few years, Puerto Rico has experienced the effects of 
severe weather. On September 20, 2017, Hurricane Maria, a powerful 
hurricane with sustained winds over 150 MPH, made direct landfall and 
bisected the entire Island. Maria caused widespread destruction and 
left flooding associated with over 40 inches of rainfall, major 
devastation of residential areas, roads, bridges, communication towers, 
and total failure of the electric grid infrastructure caused by the 
collapse of thousands of power lines and poles. Furthermore, the storm 
activated thousands of landslides registered in high altitude and 
steep-sloped topographic areas, including the central cordillera 
region. NOAA's National Centers for Environmental Information and the 
National Hurricane Center jointly classified Hurricane Maria as the 
United States' third-costliest tropical cyclone. Damage in Puerto Rico 
and the U.S. Virgin Islands totaled $90 billion.

    Climate change needs to be addressed urgently. For that matter, we 
strongly support Chairman Grijalva's proposed intentions to move 
forward with climate change issues on the U.S. Territories and the 
Freely Associate States. Although the CEACC will be submitting more 
specific comments on the newest draft version of the bill, our main 
recommendations are as follows:

    <bullet> Title III: We recommend to appropriate funds to acquire an 
            additional NEXRAD Doppler system. Given the catastrophic 
            nature of tropical cyclones resulting from climate change, 
            an additional NEXRAD Doppler system must be incorporated 
            into the Islands' regime.

    <bullet> Reevaluate the allocations amounts to be appropriated by 
            Congress for the different programs.

    <bullet> Add a section on Title V to include the following:

                TECHNICAL ASSISTANCE

                        The Environmental Protection Agency will 
                        provide technical assistance to the Territories 
                        and the Free Associated States on adaptation 
                        and resilience to Climate Change impacts on 
                        water supply. The technical assistance will 
                        include, but will not be limited to, 
                        implementation of EPA's WaterSense water 
                        conservation program, wastewater reuse, 
                        rainfall harvesting, and reduction of portable 
                        water loss in the distribution system, 
                        protection of aquifer recharge areas, erosion 
                        control, among others.''

    <bullet> Title III, Section 302: The CEACC recommends including 
            technical assistance on coastal erosion and flooding.

    <bullet> Add a new Section for:

                MITIGATION, ADAPTATION, AND RESILIENCE CLIMATE CHANGE 
                PLAN

                        (a)  One year after the enactment of this law, 
                        each Territory shall submit a Climate Change 
                        Mitigation, Adaptation, and Resilience Plan

                        (b)  Grants--FEMA will provide each Territory 
                        up to $1,000,000 to develop a comprehensive 
                        Climate Change Mitigation, Adaptation and 
                        Resilience Plan. The Plan will be submitted to 
                        the federal Task Force for approval. Once 
                        approved, each Territory will implement it 
                        according to the timetables included in the 
                        document. Federal grants to implement 
                        mitigation, adaptation, and resilience projects 
                        will be contingent on the approved plans.

    Once again, we want to thank this Honorable Commission for the 
opportunity to present these preliminary comments and recommendations 
on the proposed bill, as further commentaries will be submitted in the 
proper time. The CEACC hopes that you find these useful and reiterate 
its commitment to support initiatives to address climate change,

    Thank you.

                                 ______
                                 

Questions Submitted for the Record to Mr. Rafael A. Machargo Maldonado, 
         Secretary, Puerto Rico Department of Natural Resources
    Thank you for your interest in the effect of climate change in 
Puerto Rico and the alternatives to address those issues.
    In compliance with the Committee's request for information, we 
submit Puerto Rico Climate Change Experts and Advisory Committee 
(CEACC, by its Spanish acronym) and Puerto Rico Department of Natural 
and Environmental Resources commentaries, specifically referencing the 
questions submitted by each Member.

    The CEACC and the DNER hope that you find these comments useful. If 
you require additional information, please contact Carmen M. Feliciano, 
Executive Director of the Puerto Rico Federal Affairs Administration.
             Questions Submitted by Representative DeGette
Background
    Rep. DeGette's Clean Energy Innovation and Deployment Act includes 
a provision (Section 130 of H.R. 7516 in the 116th Congress) that may 
be of great benefit to people living in U.S. territories, as well as on 
islands and in remote areas worldwide.
    The provision would require the Department of Energy (DOE) to 
establish a certification program for electricity-related technologies 
for use in remote communities. Companies whose products were certified 
could use that fact in marketing the technologies, much as do the 
recipients of DOE's Energy Star label. Facilitating the deployment of 
these technologies would make modern electricity services more 
affordable, reliable, and resilient to households in remote areas, and 
reduce demand for expensive imported fossil fuel-generated electricity 
and the associated carbon emissions.
    Qualifying technologies would include those that can generate 
electricity off-grid (such as solar panels), those that store energy, 
and highly efficient appliances, including lights, cell-phone chargers, 
computers, fans, refrigerators, stoves and ovens. DOE would only 
certify a technology determined to function properly; generate no 
greenhouse gas emissions; be affordable, reliable, durable, safe, and 
protective of human health and the environment; be compatible with 
other technologies relevant to its functioning, including those which 
have been similarly certified; and be available for deployment at 
commercial-scale throughout the territories and states of the United 
States.
    There is already a market for these kinds of technologies, 
especially in developing countries, but many of the products being 
marketed today do not work well, are sold on the basis of fraudulent 
claims, or are not compatible with adjacent technologies (for example, 
a solar panel not being compatible with a battery). Rep. DeGette's 
measure would make DOE the validator of these technologies, thus 
driving their innovation, increasing their quality, protecting 
consumers in the United States and globally, and facilitating the 
deployment of affordable reliable resilient climate-friendly 
technologies to communities in the United States, and around the world, 
that need them the most.

    Question 1. In addition to being on the front lines of climate 
change, are communities on your islands paying much higher electricity 
rates due to the fact that most electricity is generated from imported, 
expensive, and, in many cases, polluting fossil fuels?

    Answer. Puerto Rico's grid is supplied by a portfolio of energy 
sources from which only less than 3 percent came from renewables. About 
97 percent of the energy is produced using multiple fossil fuels. The 
high dependence on the import of fossil fuels impacts energy rates 
drastically, also creating instability on the rates subject to world 
market changes.
    In other words, Puerto Rican communities pay approximately double 
the U.S. average for electricity and experience almost 10 times as many 
power outages as the average American customer (per the Department of 
Energy). Currently, Puerto Rico imports all fossil fuels used on the 
Island. Approximately 97 percent of all power comes from fossil fuels 
(a mix of coal, methane imported in liquefied natural gas, heavy fuel 
oil, and diesel).
    The generation in Puerto Rico occurs in a mix of antiquated 
generators owned by PREPA, a private coal plant owned and operated by 
AES Corporation, and a liquefied natural gas import and generation 
facility owned and operated by EcoElectrica. Two private providers 
generate wind power, and five generate solar power on Island. The 
hydropower resources on the Island require significant attention to be 
rehabilitated and can be a valuable resource. Also, thousands of Puerto 
Rican families and businesses provide rooftop solar and have installed 
batteries. The long-term utility grid plan approved by the Puerto Rico 
Energy Bureau calls for a large-scale expansion of new renewable and 
battery storage resources, along with new energy efficiency programs, 
to reduce costs and meet the public policy requirements on the pathway 
to 100 percent renewable energy (as specified in Law 17-2019).
    Given the few and antiquate generations on the Island, Puerto Rico 
is exposed to both the fluctuations of the world oil market and the 
risks of an outage to a major generation facility. In early 2020, a 
series of devastating earthquakes disrupted communities in the south of 
Puerto Rico and damaged the largest PREPA-owned generator at Costa Sur. 
The outage forced other generators to manage daily generation, and 
without the severe decrease in power demand due to the COVID-19 global 
pandemic, it could have significantly increased costs and impaired 
service for Puerto Ricans.
    Furthermore, Puerto Rico has repeatedly suffered from environmental 
degradation due to fossil fuel usage and improper disposal of toxic 
waste (including coal ash). The EPA has conducted a study of all power 
plants in the United States concerning compliance with Mercury and Air 
Toxics Standards (MATS), and the only facilities resulting in a 
community cancer risk at or above 1-in-1 million are in Puerto Rico 
(using the methodology established by the EPA's independent Science 
Advisory Board).
    When the largely fossil-dominated and antiquated generation is 
combined with a fragile grid in need of modernization and improved 
maintenance practices--Puerto Rico faces an expensive and polluting 
system. These costs are currently borne by communities largely 
disadvantaged socio-economically, and further investments in a fossil-
dominated system could risk imposing additional decades of cost and 
negative health outcomes.

    Question 2. Are the electric grids on your islands vulnerable to 
disruption by the effects of climate change, in particular increasing 
storm intensity, water cycle disruption, average temperatures, and sea 
level rise?

    Answer. The Puerto Rican energy grid is at a high risk of 
disruption due to climate change, with the most pressing threat due to 
hurricanes. While no single storm can be attributed to climate change, 
a growing body of literature finds the odds of extreme storms, 
including their frequency and duration, exacerbated by the increase in 
average sea temperatures. The most recent hurricane event occurred in 
2017, with Hurricane Irma's impacts and, most damagingly, Hurricane 
Maria.
    Following the 2017 hurricane season, the average customer lacked 
power for 7 months, and not until after 11 months had passed PREPA was 
able to reconnect all customers. These outages were deadly and highly 
disruptive to community activity. The lack of power crippled water 
infrastructure and impaired critical healthcare services such as 
emergency operations and dialysis.
    The largest risk and greatest disruption occurs in the transmission 
and distribution systems, consisting of 2,478 miles of transmission 
lines, 31,485 miles of distribution lines, and 344 sub-stations, per 
the Build Back Better report. Failures in these systems can be 
widespread and typically leave remote communities in the mountainous 
center of Puerto Rico and Vieques and Culebra's islands, without power 
for an extended period of time. The risk occurs due to limitations on 
vegetation management (leaving many power lines at risk of falling 
limbs), under-investment in key facilities and substations, and a 
system design with much of the high voltage transmission running 
through mountainous terrain with limited road access.
    Many of the substations and all fossil-fueled generation facilities 
are located on the coast and are vulnerable to sea-level rise and 
flooding. Furthermore, increased temperatures create additional strain 
in electrical equipment.

    Question 3. Do you believe this puts an additional and unnecessary 
financial strain on those living on your islands?

    Answer. Per recent Census data, 45 percent of Puerto Ricans live 
below the poverty line. Extreme events such as Hurricane Maria were 
disproportionately deadly due to the weak infrastructure and the 
fragile state of the power grid. The ongoing financial crisis and 
prolonged recession have occurred in part due to key industries leaving 
the Island. According to the President of the Puerto Rico Manufacturers 
Association, reducing power costs must be the top priority to support 
the Island's competitiveness.
    The combination of burdensome costs of power, even as the global 
pandemic and lockdowns make household power exceptionally critical for 
all--combined with declining industrial activity and employment 
opportunities create an extraordinary strain.
    This strain is avoidable, given the increasingly competitive 
opportunities for renewable and battery storage options to decrease 
cost and improve Island communities' resilience. Examples from Saint 
Lucia, Hawaii, and Jamaica provide powerful examples to learn from. In 
Jamaica, the regulator calculated that in a decade of decreased oil 
fuel dependence (decreasing from 95 percent to 50 percent by 2019), 
system costs declined. The regulator assessed that the electricity 
tariff was 30 percent lower due to improved grid performance, renewable 
energy, and cleaner and more efficient fossil fuel usage. A similar 
result in Puerto Rico would significantly benefit families and 
communities and help improve business conditions and employment.
    In Puerto Rico, energy efficiency should also be broadly pursued, 
and the Puerto Rico Energy Bureau has initiated proceedings to prepare 
such programs. An effective island-wide energy efficiency effort will 
reduce the total requirements for new and replacement power generation, 
reduce costs for individuals and the grid (as energy efficiency is 
routinely determined to be the cheapest source of power), and make the 
grid more flexible and resilient to disruptions.

    Question 4. Given that, do you think there might be a market on 
your islands for affordable reliable resilient equipment to generate 
and use zero-emitting electricity, reducing dependence on expensive 
fossil fuels and the vulnerable electric grid?

    Answer. The market has already been shifting toward clean, 
resilient, and reliable options. Customers have chosen to adopt rooftop 
solar panels coupled with batteries for resilience. The grid regulator 
assessed a detailed future plan (the Integrated Resource Plan) for 
generation options and determined the highest renewable adoption 
scenario for cost reduction and meeting public objectives. In December 
2020, PREPA filed for the first phase of procurement in compliance with 
that approved plan, to seek 1,000 megawatts (MW) of solar PV or 
equivalent renewable energy and 500 MW of 4-hour battery storage.
    When given clear direction and appropriate federal support to 
rebuild the grid to incorporate new clean and resilient power, this 
market will boost Puerto Rican employment and help reduce dependence on 
imports. By similarly ensuring that grid-scale procurements, federal 
support, and incentives such as the Investment Tax Credit can apply to 
customer-sited systems (distributed energy), the grid and key critical 
facilities can be made more resilient. In this growing market, 
specialized off-grid technologies can be useful and supplemental 
(including solar lights).

    Question 5. Do you think certification of this kind of equipment by 
the U.S. Department of Energy, as described in the Background section, 
would increase consumer confidence in it and thereby promote its use on 
your islands?

    Answer. Generally, a clear and accepted certification will help 
advance customer confidence. Customers in Puerto Rico had already 
installed many solar systems before the impact of hurricanes in 2017. 
Yet those systems were designed to be grid-tied (meaning they only 
function when the grid is operable), and many customers were unaware of 
this constraint. Since this event, systems with the ability to 
disconnect are widely prevalent (including frequent integration of 
batteries to integrate with the solar and serve as grid back-up for the 
facility). Many customers still struggle to determine whether 
warranties and system interconnection will be straightforward.
    For efficient appliances, the DOE Energy Star is widely adopted and 
trusted by customers. It focuses on the energy performance of 
equipment, and other related certifications address reliability. 
Further advancement would be beneficial but should integrate with DOE 
Energy Star programs to ensure this is simple and straightforward for 
customers.

              Questions Submitted by Representative Graves
    Question 1. I am concerned that the creation of new Federal 
programs may result in duplication with existing programs, diluting 
funding availability and potential impacts. Are existing programs 
failing to meet these needs? If so, could they be reformed to better 
support current inadequacies? Please provide specific examples.

    Answer. Existing programs, specifically the Energy Star 
certification program provided by DOE, are an effective mechanism to 
indicate energy-efficient appliances to customers, and household 
surveys indicate high percentages of customers find the label 
influential in their purchasing decisions. These Energy Star certified 
appliances' performance will be functionally similar (barring any 
voltage fluctuations with weak grids). Continued support to further 
advance Energy Star's efficiency standards will help raise standards 
and minimize customer energy costs, particularly in insular areas.
    For solar panels and batteries, certification is provided by 
Underwriters Laboratories (UL) and the Institute of Electrical and 
Electronics Engineers (IEEE), with significant safety and reliability 
testing. These are refined and updated frequently and are readily 
available. These standards are applicable for all U.S. applications and 
territories.
    Continued support to insular areas through the National 
Laboratories to address customer concerns on interconnection and off-
grid operation is beneficial and can be augmented. In terms of solar 
and battery system sizing, IEEE 1562:2007 provides clear and effective 
guidance.

    Question 2. Insular areas are unique in many ways, including 
energy. These areas are largely dependent on imports for energy--
resulting in high costs, reduced energy security and vulnerability to 
supply chain disruption. Distributed generation and renewables are a 
very good fit for the natural resource availability of many of these 
areas. However, my concern is that the Federal Government would be 
mandating a singular approach. Even if you were to dramatically 
increase renewables, does it make sense to keep the door open for other 
energy options?

    Answer. To date, in Puerto Rico, federal entities have supported 
and advanced the public policy goals established by the Government of 
Puerto Rico. As established in Act 17 of 2019 and the approved 
Integrated Resource Plan established in August 2020, that pathway 
reduces import dependence, reduces costs, and advances renewable energy 
options. By 2028, the law mandates a full phase-out of the use of coal 
for power generation. By 2050, the law mandates that 100 percent of the 
Island's power will be generated by renewable energy.
    Institutions in Puerto Rico, particularly the energy regulator who 
has overseen and now approved the Integrated Resource Plan, can work 
together with federal support to advance these objectives while 
assessing other options, including existing resources, alternatives 
that exist today, and future energy options not yet viable.
    Acting quickly to install and integrate the renewable resources as 
specified by the law, and now in the procurement process by PREPA, will 
reduce costs for customers and help meet local objectives for a cleaner 
system.

    Question 3. A primary reason for a government mandates is that a 
desired outcome does not make financial sense over the long term. Is 
that the case--would renewable energy be more expensive over the long 
term? If not, what is the benefit of having the Federal Government 
impose such mandates (if it potentially ties the hands of these areas 
should a better option come along in the future)?

    Answer. Renewable energy is, in fact, the cheapest option for 
insular areas such as Puerto Rico. According to detailed grid analysis 
performed under the direction of the Puerto Rico Energy Bureau and 
carried out by a consultant team from Siemens using PREPA data and 
input, the cheapest option for all Puerto Ricans in the coming 20 years 
is the highest renewable energy scenario (S3S2B) assessed in the 
analysis. In the order titled `Final Resolution and Order on the Puerto 
Rico Electric Power Authority's Integrated Resource Plan,' the 
regulator approved that scenario in concluding the mandated Integrated 
Resource Plan Process. That plan includes procurements (now underway) 
to bring on 6,900-gigawatt-hours (GWh) of renewable energy annually by 
2025, equally 45 percent of the total grid energy. This scenario, and 
others assessed by the expert consultants, include energy efficiency 
programs to reduce total grid power demand. Those new renewables and 
efficient resources, including all program, financing, and installation 
costs, are cost-effective when compared against running existing fossil 
fuels or developing new fossil fuel infrastructure.
    Numerous expert witnesses and intervenors reviewed these findings. 
Similar findings from studies done by the University of Puerto Rico and 
led by Professors Efrain O'Neill Carrillo, Jose Colucci-Rios, Agustin 
Irizarry Rivera and others, the organization Cambio, the Institute for 
Energy Economics and Financial Analysis, and many others, all find that 
the most cost-effective option for Puerto Rico is efficiency and clean 
energy.
    Investing in the most cost-effective option, given all current 
knowledge and examples of successfully integrating renewable energy 
from Texas, Arizona, California, Costa Rica, Hawaii, Jamaica, Saint 
Lucia, and many other U.S. jurisdictions and similar islanded grids, is 
the clear answer for Puerto Rico.
      Questions Submitted by Resident Commissioner Gonzalez-Colon
    Question 1. Could you briefly discuss the role of the Puerto Rico 
Climate Change Experts and Advisory Committee, which you preside? What 
are some of the initiatives the Committee plans to pursue in the near 
future to increase adaptation and resilience to climate change on the 
Island? How can Congress be of assistance?

    Answer. The Committee of Experts and Advisers on Climate Change of 
Puerto Rico (CEACC, by its Spanish acronym) was established by Law 33-
2019. The Committee is comprised of nine members. Three members are ex 
Officio; the Secretary of Natural and Environmental Resources, who 
chairs the Committee; the Secretary of Economic Development and 
Commerce; and the President of the University of Puerto Rico. Six 
members are non-governmental scientists, which had to be confirmed by 
the Senate and the House of Representatives of Puerto Rico. The non-
governmental members serve for no less than 5 years to assure 
continuity of service.
    The main responsibilities of the CEACC are to oversee the 
implementation of Puerto Rico's climate change public policy as 
established by law; develop the Climate Change Mitigation, Adaptation 
and Resilience Plan of Puerto Rico (the Plan); oversee the 
implementation of the Plan, and provide advice to the executive and 
legislative branches of the Government of Puerto Rico on matters 
concerning climate change. The CEACC will recommend specific adaptation 
measures in reforestation, tourism, agriculture, transportation, energy 
production and distribution, water availability, protection of coastal 
areas, protection of key infrastructure, among others. In addition, the 
CEACC is following up on Puerto Rican agencies' compliance with 
specific mandates established in Puerto Rico's Climate Change Act. 
Examples of these mandates are: (1) purchasing hybrid or electric 
vehicles in all agencies and municipalities; (2) planting 100,000 trees 
per year; (3) generate 20 percent of electricity with renewables by 
2022, 40 percent by 2025, 60 percent by 2040 and 100 percent by 2050; 
(4) reduce electricity demand by 1 percent annually for 10 years; (5) 
conduct inventory of greenhouse gases; (6) mandatory use of solar-
powered heaters in homes built after the law was enacted; (7) develop 
an inventory of green gas execute strategies to protect coral reef, 
mangroves, and beaches; (8) reduce coastal erosion; (9) execute policy 
to face sea-level rise among others. The CEACC follows that proposed 
action and territorial plans and policies will align with the mandates 
established by law. Congress can help by providing funding for the 
Plan's development, which would provide the blueprint to mitigate and 
adapt to climate change in Puerto Rico. The Plan will also establish 
funding priorities. C of fisheries. Congress can also approve much-
needed funds to reduce water loss in the potable water system, 
implement EPA's WaterSense program in all hoons in the Island, and 
funds for dredging key water supply reservoirs and mitigate coastal 
erosion.
    Also, Congress should be including Puerto Rico in all climate 
change initiatives that will be executed as a part of the nation-wide 
plan.

    Question 2. As you know, coral reefs are crucial for Puerto Rico in 
a variety of ways, whether it is because of their ecological and 
environmental value, or their importance for our tourism and coastal 
economies. It is estimated that annually, reefs in Puerto Rico provide 
flood protection benefits to more than 4,200 people and $184 million in 
averted damages to property and economic activity. According to NOAA, 
coral reef-derived tourism generates nearly $2 billion in income and 
regional domestic product in Puerto Rico.

    However, coral reefs also provide protection against natural 
disasters and coastal erosion. That's why I believe one of the most 
effective ways to ensure Puerto Rico and other U.S. coral jurisdiction 
have the necessary resources to combat climate change would be to 
reauthorize and strengthen NOAA's Coral Reef Conservation Program. I've 
joined Congressman Soto and Senator Rubio in introducing the bipartisan 
and bicameral Restoring Resilient Reefs Act of 2021 (H.R. 160/S. 46), 
which would achieve just that.

    As Secretary of the Puerto Rico Department of Natural and 
Environmental Resources, could you elaborate on the role coral reefs 
play in Puerto Rico and why reef conservation efforts are so important 
to build resilience and mitigate against the impacts of hurricanes and 
other phenomena?

    Answer. Coral reefs are essential for 23 percent of fisheries. 
Moreover, coral reefs protect the coast from a hurricane and tropical 
storm waves. Coral reefs absorb up to 90 percent of the energy of these 
waves. If coral reefs disappear, more than 250,000 homes, all power 
plants, and 70 percent of Puerto Rico's wastewater treatment 
infrastructure would be destroyed.
    Coral reefs form barriers to protect the coastal communities from 
waves and storms, attenuating their impacts. The coral reef structure 
buffers shorelines against floods, preventing loss of life, property 
damage, and erosion. In engineering terms, the coral 3-D structural 
configuration acts as a submerged dam setting. That is why reef 
conservation efforts are so important to build resilience and mitigate 
against the impacts of hurricanes and other phenomena.
    Besides, coral reefs are home to many species. They are known to 
have the largest biodiversity globally, compared to the biodiversity 
found in a rainforest. They sustain many commercial fishes, 
representing an important food source to citizens and wildlife, like 
sea turtles and sharks. Coral reefs are part of the tropical coastal 
landscape. A variety of marine life depends on seagrasses, mangroves, 
and coral reefs. Those marine ecosystems intertwine and complement each 
other. That is our marine-scape in Puerto Rico.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    .eps  Map: K. Buja (2008)

    Challenges to coral reef protection are enormous in Puerto Rico and 
worldwide. For instance, decreases in pH within the water column can 
reduce corals' calcification rates and other calcifying organisms. 
Ocean acidification has significantly reduced reef-building corals' 
ability to produce their skeletons, posing a major threat to these 
organisms.
    Local efforts can contribute to reducing acidification by 
mitigating runoff discharges and sediments across the rivers and 
creeks. There are green engineering techniques available to mitigate 
untreated discharges to the sea by creating wetlands in the main bodies 
of water in PR. Hydrographic basins previously identified for this 
purpose are the following: Guanajibo River (Mayaguez, west coast), Loco 
River (Yauco, south), Anton River (Humacao, east), and Loiza, Manati, 
Arecibo Rivers (north coast). Second, there is a need to control and 
reduce the urban and industrial coastal development sewer discharges, 
including sanitary and stormwater sewer discharges. Primary treatment 
plants from the Aqueduct and Sewer Authority need to be upgraded, 
ideally to tertiary treatment plants, to remove nitrogen and phosphorus 
(nutrients that have been increasing the algae cover and their 
smothering effect over corals in the reefs).
    Puerto Rico is the oldest or second oldest territory in the U.S. 
that implemented a coral reef monitoring program, and it is still 
running. This accomplishment has allowed us to analyze changes in coral 
reefs around the Island over time, among other benefits. 
Notwithstanding, there is an area of opportunity with regards to water 
quality. DNER would like to associate the state of the reefs with the 
condition of water quality. Our current resources have not allowed us 
to do so. We would appreciate it if Congress could help us get funding 
to establish and continue a water quality monitoring program integrated 
with our coral monitoring program.
    Work with communities is recommended to develop action plans based 
on preparedness and risk reduction activities to increase resilience to 
disasters and Climate Change. Some municipality mitigation plans have 
been developed, but more need to be prepared. Their implementation is 
also needed.
    On the other hand, the emergent Stony Coral Tissue Loss Disease 
(SCTLD) aggressively spread on Puerto Rico's coasts. This disease was 
first detected in Florida, then in the Virgin Islands, and in Puerto 
Rico, was first seen in Culebra. It is now very troublesome on all the 
east coast, but it also affects corals in the south, southwest (La 
Parguera), and north. Once the coral is infected with SCTLD, the 
chances of survival are very low. The disease can kill a colony in a 
matter of days. Coral reefs in Puerto Rico are facing the worst threat 
in history with this disease. In collaboration with other entities, 
DNER is treating with antibiotics some sick coral colonies. However, 
the treatment needs to be significantly strengthened and widen. We 
would appreciate any prompt help Congress can provide to us. One of the 
actions honorable Gonzalez may conduct is to urge NOAA to approve using 
their funds to treat infected corals. They are currently evaluating the 
treatment for NEPA approval. Until this approval is achieved, none of 
our NOAA funds could be expended for treatment. Meanwhile, we have been 
trying to get donations of the medicine. Funds are also needed to 
strengthen the implementation of Law 147 of 1999-PR Coral Reef 
Protection Act and its regulation.

    Question 3. I think one of the biggest challenges we face in Puerto 
Rico when it comes to accessing Federal grants--including those to 
mitigate the impacts of climate change--is that often individuals, 
communities, and organizations on the Island simply do not apply for 
the program, either because they are not aware about the funding 
opportunity, or because they lack the necessary capacity and know how 
to go through the application process.

    3a. Is this something you've seen or experienced yourself?

    Answer. Yes.

    3b. In your opinion, should Federal agencies invest more in raising 
awareness about existing funding opportunities to tackle these issues, 
building capacity among potential applicants, and simplifying the grant 
application processes?

    Answer. One of the main constraints to accessing Federal grants to 
mitigate climate change are:

   i. the access of grant information announcement in time, and

   ii. the complexity of the grant application related to the 
            administration process.

    All of the above will help. However, a major obstacle is obtaining 
from IRS nonprofit status, which is a prerequisite to receiving federal 
funds. The process is very cumbersome. Nonprofits have to pay up to 
$5,000 for professional services to complete the process. Disadvantaged 
communities don't have this money to get the IRS nonprofit standing. 
The other major problem is filling up the paperwork.

    Question 4. During the hearing, you mentioned that the most 
critical climate-related concern in Puerto Rico is coastal erosion.

    4a. Can you elaborate on the impact coastal erosion is having on 
the Island?

    Answer. Coastal changes have occurred in Puerto Rico, with erosion 
causing major problems. Coastal erosion results from the interaction of 
physical variables such as storm waves, swells, storm surge, storms 
that act over dunes, beaches, coastal bluff, and alluvial deposits, and 
other loosely consolidated coastal features. Human activities such as 
sand extraction, changes in land cover and land use (LCLUC), 
construction of hard structures in the shoreline, modification of 
coastal barriers, coastal deforestation, and extraction of sand from 
rivers, among others, are reducing in many cases the supply of sand to 
the beaches, causing coastal erosion. Also, the loss of sand is 
incrementing due to the effects of climate change. As sea levels rise, 
ocean acidification and the increase of storms' magnitude in the region 
decrease these coastal events' buffering effect.
    For 2021, beach and coastal bluff erosions were the principal types 
of coastal erosion shown in Puerto Rico. Approximately 70 percent of 
the Island coastline was suffering erosion, causing important damages 
in critical infrastructure such as roads, schools, and recreation 
centers. Also, erosion is continuously reducing the natural buffering 
action of beaches and dunes and the quality and distribution of coastal 
ecosystems that depend on it as this main resource.
    An overview of the Island's coastal erosion showed sand loss events 
affecting most beaches from the 1970s to 2010. Approximately 60 percent 
of the beaches in PR suffered erosion during this period (low (15.8 
percent); moderate (14.9 percent); high (3.1 percent) and very high (5 
percent) erosion rates) (Barreto et al. 2018). No severe erosion was 
identified from 1970 to 2010. However, severe erosion has been found at 
some coastal sites of PR since 2012. The loss of sand was mainly 
observed in beaches located in the municipalities of Loiza, San Juan, 
Arecibo, Hatillo, Arroyo, Dorado, and Rincon, where the significant 
loss of infrastructure--such as roads, buildings, and houses--was also 
identified (Barreto et al. 2020). Human activity, such as built-up 
structures, along the shoreline, was one of the variables identified in 
some beaches that experienced erosion for this period. The loss of 
infrastructure was observed at many coastal sites where infrastructure 
was located along the beachfront and faced erosion problems before 
Hurricane Maria (Federal Emergency Management Agency [FEMA] 2018).
    Hurricane Maria caused significant beach erosion along the 
coastline of the Island. Most beaches suffered a loss of beach 
elevation. Furthermore, beach width changes were highly variable along 
the coastline of PR. Major losses in beach width were identified in 
beaches located in the west-northwest, north-central, and southeast 
municipalities of the main Island. An increase in erosion was observed 
mainly in beaches with previous erosion history and/or high human 
intervention levels along the coast. Minor beach changes and accretion 
were identified in beaches with natural barriers, such as coral reefs 
and mangroves, mainly located in the northeast and southwest of the 
Island. Beach progradation and retreat may affect the enhancement and/
or reduction of these geographic areas' beach resilience capacity. This 
new geomorphic state of the beaches in PR will be important to define 
beaches' buffer capacity when facing future extreme meteorological and 
oceanographic events.
    For the 2018 period, major erosion was identified in coastal sites 
in the Arecibo, Hatillo, Aguada, Anasco, San Juan, Loiza, Arroyo, 
Humacao, Dorado, Mayaguez, Catano, Vega Baja and Manati municipalities. 
Major erosion (beaches and coastal bluff) was identified at Arecibo. 
Loss of sand is mainly caused by the combination of wave regime, winter 
storms, swells, cold fronts, human impact. The erosion of the coastal 
cliff is causing significant damage to the infrastructure of Arecibo's 
``Barrio Pueblo'' and its nearby areas. As well as the area of Ocean 
Park and Condado in San Juan (Mendez-Tejeda, et al 2020). Schools, 
roads, recreational areas, and services infrastructures related to 
water distribution and treatment and electricity generation and 
distribution were exposed in coastal sites affected by erosion. 
Significant coastal bluff erosion was identified at Arecibo, Humacao, 
Yabucoa, San Juan (Puerta de Tierra) and Toa Baja (Isla de Cabra). 
Coastal bluff erosion increases the exposition of critical 
infrastructure as principal roads and state buildings at Puerta de 
Tierra at San Juan.
    Approximately 18 percent of the population was exposed to multi-
coastal risk in Puerto Rico. These people (496,442) live in the Coastal 
Zone (legal unit defined by the Government), and 14 percent of people 
live in coastal areas from 0 to 3 meters of elevation at the Island. 
This population is highly exposed to coastal erosion, sea-level rise, 
storm surge, storm waves, and tsunami events.

    4b. What actions or policies would you recommend Congress adopt to 
help mitigate and address this issue?

    Answer. The following actions are recommended to mitigate coastal 
erosion, promote safety and wellness as well protect infrastructure and 
economic development at the Island: (1) strengthening natural barriers, 
such as beaches, dunes, coral reefs, seagrass beds, and beach rocks; 
(2) conducting offshore investigations to identify sediment sources for 
beach and dune restoration; (3) limiting new constructions in selected 
high-vulnerability areas; (4) critically evaluating the need to 
reconstruct infrastructure damaged by the storm; (5) use of green and 
blue infrastructure as a one of the mitigation strategies; (6) 
evaluating relocation based on vulnerability and feasibility, with 
coastal communities being involved in the process; (7) use coastal 
vulnerability (social, physical and infrastructure) as a one of the 
metrics to determinate priorities in the mitigation processes; (8) 
conducting a detailed evaluation of coastal erosion as a part of the 
assessment of the hazards that may affect PR; (9) use scientific data 
as a baseline of coastal management decision-making processes; (10) 
support studies of coastal changes to gathering continuous data for the 
availability of updating data for the 44 coastal municipalities; (11) 
pronouncing beaches, dunes, coral and mangroves as a vital 
infrastructure of PR and treating them as such; and (12) evaluate the 
possibility of revising the cost-benefit metric application over the 
Puerto Rico territory. This metric is one of the criteria used to 
decide priorities in the coastal mitigation process.
    It is important to execute the different mitigation interventions 
(e.g., protection, adaptation, and relocation) according to the new 
coastal scenario on the Island based on post-storm a seismic event by 
geographic area. It is also necessary to improve non-structural 
intervention as an important part of the decision-making process in the 
Island.

    Question 5. As we briefly discussed in the hearing, the Puerto Rico 
Department of Natural and Environmental Resources (DNER) participates 
and receives funding under various NOAA programs, including the 
National Coastal Zone Management Program and the Coral Reef 
Conservation Program. Additionally, DNER oversees the Jobos Bay 
National Estuarine Research Reserve, which is part of NOAA's National 
Estuarine Research Reserve System.

    Can you discuss the importance of these programs for Puerto Rico 
and how they help DNER combat the impact of climate change on the 
Island?

    Answer. The DNER PR Coral Reef Conservation and Management Program 
supports the conservation, protection, and restoration of coral reefs 
across Puerto Rico. Coral reefs are vulnerable to climate change yet 
are key players in protecting our coastal habitats and population from 
climate change impacts, so their protection is vital. Coral reefs 
attenuate wave energy and reduce subsequent coastal erosion processes 
from storms, surges, and other high wave energy events. Coral reefs in 
the U.S. provide flood risk reduction, which has an annual estimated 
value of $1.805 billion (2010 U.S. dollars) (Storlazzi et al. 2019). 
Due to their importance in coastal protection, coral reefs are 
considered critical infrastructure by Puerto Rican law.
    The PR Coral Reef Conservation and Management Program implements 
and supports various projects around the Archipelago to promote coral 
reef health and recovery. A programmatic project of this Program is the 
monitoring of 42 coral reef permanent stations around the Archipelago. 
This is the second oldest coral monitoring sub-program in the U.S., 
collecting benthic data since 1999 to establish tendencies and document 
change over time. Education and outreach to the public and stakeholders 
conducted by the Program promote these resources' responsible use to 
avoid damage from anchoring, groundings, and other direct interactions 
that cause coral mortality. By restoring coral reef ecosystem function 
through coral restoration and disease response efforts, the PR Coral 
Reef Conservation and Management Program is protecting associated 
ecosystems, including Puerto Rico's fisheries resources and coastal 
infrastructure for the Island.
    The Coastal Zone Management Program, managed by the DNER, is a 
federal grant focused on the following components: wetlands, coastal 
hazards, public access, marine debris, cumulative and secondary 
impacts, special area management planning, ocean resources, energy, and 
government facility siting and aquaculture. In our Program, a lot of 
attention and funds have been granted to address Climate Change, 
especially coastal erosion and coastal hazard mitigation. The Coastal 
Zone Program has coordinated the preparation of coastal mitigation 
plans of several municipalities. A lot of surveying work associated 
with the maritime zone has been performed. The Council of Climate 
Change was formed through the Coastal Zone Program to share information 
and recommendations among multiple scientists of different fields and 
other stakeholders. Several documents have been produced on the 
subject. Even though significant works have been achieved regarding 
Climate Change and coastal protection in Puerto Rico, there is no 
secured and recurring budget aimed at mitigating the impacts of Global 
Warming in PR. Congress is welcome to aid in this important matter.
    The Jobos Bay Estuarine Research Reserve (JBNERR) is a natural 
protected area in Salinas and Guayama, geared toward research, 
education, and outreach. The Reserve operates fully with NOAA funds. 
This protected area has coral reefs, mangroves, coastal lagoons, salt 
flats, and important wildlife resources. Recently, the SCTLD was 
detected in Jobos Bay. Unfortunately, approximately 70 percent of the 
corals were infected in a very short time frame, and many have already 
died.
    Among the research efforts being conducted, there is the Sentinel 
Initiative. It mainly consists of monitoring the advances of sea-level 
rise in the reserve areas such as mangroves over time. We have 
permanent areas being monitored. Besides, JBNERR has a Coastal Training 
Program. Different audiences get educated on relevant subjects. The 
Sentinel Program and other research initiatives in JBNERR, the Coastal 
Training Program, and the Education and Outreach Program help combat 
climate change on the Island.

    Question 6. In your written testimony you call for additional 
technical assistance for water conservation efforts and initiatives 
that help reduce portable water loss in the distribution system, among 
other issues.

    Last Congress, I introduced legislation--H.R. 6050, the Puerto Rico 
WaterSMART Grants Eligibility Act--to make Puerto Rico an eligible 
jurisdiction for the Bureau of Reclamation's WaterSMART Grants Program 
and Drought Resiliency Project Grants Program. These programs provide 
cost-shared Federal funding for projects that conserve and use water 
more efficiently and contribute to water supply reliability, as well as 
to increase resiliency to drought by funding on-the-ground projects 
that improve water management flexibility during periods of low water 
supply.

    Originally, eligible applicants for these grants had to be located 
in one of the 17 western states or the small U.S. territories. In 2019, 
Congress made Alaska and Hawaii eligible applicant locations as well, 
meaning that Puerto Rico was the only territory and non-contiguous 
jurisdiction in the United States where these water conservation grants 
were not available. My bill sought to address this exclusion.

    The Puerto Rico WaterSMART Grants Eligibility Act was enacted into 
law in December 2020 as part of the FY 2021 omnibus funding package. 
Now that the Island is eligible for these grants, I would encourage you 
and the Puerto Rico Climate Change Experts and Advisory Committee to 
engage with the Bureau of Reclamation, as this funding opportunity 
might help address some of the long-standing water conservation and 
supply issues we face in Puerto Rico.

    Could you briefly elaborate on the need to invest in water 
conservation projects in Puerto Rico? Why is it so important?

    Answer. Climate change is already affecting water availability and 
will exacerbate the situation in the near future. It is important to 
mention that the lack of water will impact one of the main sources of 
Puerto Rico's economy, which is tourism, as well as agriculture and 
livestock.
    Sea level rise has increased saltwater intrusion into our aquifers. 
This is particularly critical on the south coast. The Department of 
Natural and Environmental Resources (DNER) formally declared the 
Southern Aquifer in ``critical condition'', which means that if 
immediate measures are implemented, the whole aquifer will be lost to 
seawater intrusion. The DNER implemented a ban on the drilling of new 
wells and a ban on increasing groundwater pumping from existing wells. 
Since the situation continued to deteriorate, DNER imposed a 
construction ban in the Municipality of Salinas. Since sea level will 
continue to rise and a rainfall shortfall is predicted by 2030, a 
construction ban will be implemented in other municipalities on the 
South coast if other measures are not established.
    Climate change has increased the frequency of severe droughts. In 
2015, a severe drought affected half of the Island for 5 months. As a 
result, the Government of Puerto Rico implemented water rationing. 
First, every other day, then every 48 hours, and finally, 3 days 
straight without water service followed by 24-hour service. The 
rationing cost $1 billion to the Puerto Rico Economy. Last summer, we 
suffered another drought which prompted water rationing. This time 
every other day.
    Hurricane Maria destroyed 144 million trees, which has exacerbated 
the sedimentation of our drinking water reservoirs. Some of our key 
reservoirs have lost more than 50 percent of storage capacity. 
According to NOAA, Puerto Rico will suffer a 10 percent rainfall 
shortfall by 2030, so the above-described water scarcity events will be 
exacerbated. To address the water scarcity that Puerto Rico is facing 
and will face in the immediate future, the following is needed:

  1.  Dredging of key reservoirs.

  2.  Reducing water loss in the distribution system from 60 percent to 
            17 percent.

  3.  Reuse of treated wastewater.

  4.  Implementation of EPA's WaterSense water conservation program.

  5.  Rainfall harvesting in new homes.

  6.  Use of home cisterns.

                                 ______
                                 

    The Chairman. Thank you very much, Mr. Secretary.
    Now let me recognize Ms. Zena Grecni, Sustained Climate 
Assessment Specialist, East-West Center.
    The time is yours. Thank you very much for being here. We 
look forward to your testimony.

    STATEMENT OF ZENA GRECNI, SUSTAINED CLIMATE ASSESSMENT 
         SPECIALIST, EAST-WEST CENTER, HONOLULU, HAWAII

    Ms. Grecni. Aloha and good afternoon. Thank you, Chairman 
and distinguished Committee members, for this opportunity to 
testify.
    My name is Zena Grecni, and I am the Sustained Climate 
Assessment Specialist at the East-West Center in Honolulu. I 
have worked for more than a decade in Hawaii and the U.S.-
affiliated Pacific Islands, or USAPI. This is the region that 
includes American Samoa, the Commonwealth of the Northern 
Mariana Islands, Guam, and the Freely Associated States.
    I coordinate the Pacific Islands Regional Climate 
Assessment, or PIRCA, our regional assessment effort, and serve 
as an author on its recent reports as well as on the U.S. 
National Climate Assessment.
    Climate change has arrived in the Pacific Islands. 
Governments and leaders are taking the impacts seriously and 
are committing the resources, time, and creativity to keep 
people safe, while fostering adaptation and practical planning 
for the future. Yet, climate change remains the greatest 
challenge to our region.
    Without increased support, adaptation will not approach the 
scale needed to meet the multiple crises that climate change 
will bring to the U.S.-affiliated Pacific Islands, home to 
nearly half a million people.
    I am therefore pleased and excited by the introduction of 
the Insular Area Climate Change Act, which will leverage the 
considerable efforts of Pacific Island governments and 
communities and further build local adaptive capacity.
    The Act will help address unique risks to our region. In 
2018, we saw Super Typhoon Yutu damage and destroy a 
significant portion of buildings and infrastructure in the 
Northern Mariana Islands, requiring more than $100 million in 
public assistance.
    Scientists have reported an increase on average in tropical 
cyclone intensity globally, and they expect further increases 
in the strength of hurricanes and typhoons as the climate 
warms, amplifying the potential for severe damage.
    Even small increases in average sea level could be 
disastrous for the Pacific Islands, where the majority of 
infrastructure and communities lie along the coast near sea 
level. And as Ambassador Zackios referenced, it is an 
existential threat for the Marshall Islands and other low-lying 
atolls. Sea-level rise is expected to accelerate strongly after 
mid-century, highlighting the need for adaptive action now to 
avoid higher long-term costs.
    Wildfire, drought, hotter weather, and more extreme 
rainfall events threaten public health and the provision of 
critical services, like safe drinking water. Compound impacts 
could cause severe disruptions to livelihoods and could compel 
migration.
    What approaches are needed to address these unique risks? 
Some of the most cost-effective climate solutions involve 
boosting the resilience of local ecosystems. Coral reefs inject 
hundreds of millions of dollars into local economies each year 
and offer vital protection from coastal flooding. In Guam, 
reef-related tourism alone adds $323 million per year.
    Severe coral bleaching is now more frequent and is expected 
to happen annually before 2050 if current warming continues. 
Programs and grants under this Act would therefore catalyze and 
scale up vital coral reef conservation and restoration 
programs.
    Basing management decisions on past experience alone is 
kind of like trying to drive by looking in the rearview mirror. 
More data is needed to see the upcoming curves in the road. 
This Act would expand climate monitoring through existing NOAA 
programs, helping to guarantee that we have fine-scale 
projections for a region that currently lacks them.
    Ultimately, the data must reach managers who can apply it, 
and my team supports that kind of work. I am part of the 
Pacific RISA, one of several Regional Integrated Sciences and 
Assessments Programs that the NOAA Climate Program office funds 
to help managers produce actionable research and help them to 
evaluate and identify adaptation actions.
    The proposed Insular Area Climate Change Task Force would 
point to ways to provide more equitable access to territories 
and Freely Associated States to Federal climate change 
programs. I would suggest that the task force include heads of 
state, governors, and presidents as members and advisors to 
better guarantee the success of new and existing programs.
    Other potential blind spots in the curve are shifts in 
global energy supply and prices. The U.S.-affiliated Pacific 
Islands, again, here, are very vulnerable, as they are 
dependent on imported fossil fuels, and electricity prices for 
residents are higher than the U.S. average.
    Titles IV and V of the Act would inject critical funds to 
U.S. territories and Freely Associated States to access 
renewable sources of reliable renewable energy and increase 
their resilience to extreme weather and price shocks.
    Because Pacific Islands have constrained financial, 
technical, and human capacity, the Act rightly puts emphasis on 
programmatic coordination and technical assistance. Local 
training and capacity-building are essential.
    The Pacific RISA stands ready to support important new 
programs for the U.S. insular areas to address climate change.
    Thank you.

    [The prepared statement of Ms. Grecni follows:]
    Prepared Statement of Zena Grecni, Sustained Climate Assessment 
                      Specialist, East-West Center
    Chair Grijalva, Ranking Member Westerman, and distinguished members 
of the Committee, it is an honor to submit this written testimony in 
support of the Insular Area Climate Change Act.
    My name is Zena Grecni, and I am the Sustained Climate Assessment 
Specialist with the Pacific RISA team based at the East-West Center in 
Honolulu. The Pacific RISA is one of 11 Regional Integrated Sciences 
and Assessments (RISA) teams funded and supported by the NOAA Climate 
Program Office to build the nation's capacity to prepare for and adapt 
to climate variability and change. I have worked in the Pacific Islands 
region for more than a decade, supporting Pacific Island governments 
and communities by conducting research and synthesizing climate 
information.
    As the Sustained Climate Assessment Specialist for Hawai'i and the 
US-Affiliated Pacific Islands (USAPI), I coordinate a regional climate 
assessment effort, the Pacific Islands Regional Climate Assessment 
(PIRCA), comprised of local governments, NGOs, and academic 
organizations, and supported by Federal entities. To increase 
representation of the USAPI (American Samoa, the Commonwealth of the 
Northern Mariana Islands, Guam, and the Freely Associated States under 
the Compact of Free Association) in regional and national assessments, 
the PIRCA is conducting climate assessments for each of the USAPI 
countries and territories. The PIRCA reports summarize up-to-date 
climate trends and projections for Pacific Islands, and detail specific 
ways that climate change is affecting critical sectors. Each report was 
co-authored with local experts and involved collaboration with 30 to 50 
technical contributors across a range of essential sectors. I served as 
an author on three of these assessments released in the past year, 
including as lead author on assessments for Guam and the Commonwealth 
of the Northern Mariana Islands (CNMI). I was also an author of our 
region's chapter in the Fourth US National Climate Assessment, Volume 
2, released by the US Global Change Research Program in 2018.
    Climate change has arrived in the Pacific Islands. I have spoken 
with public officials struggling to help their communities to recover 
from the strongest storm ever to strike US soil. I have witnessed coral 
reefs dying record-high temperatures. Governments and leaders are 
taking the impacts seriously and are committing resources, time, and 
creativity to keep people safe, while fostering adaptation and 
practical planning for future climate-related risks. Yet climate change 
remains the greatest challenge to the region.
    I am therefore pleased and excited by the introduction of the 
Insular Area Climate Change Act, which will support the considerable 
efforts of Pacific Island governments and communities. Without 
increased support, adaptation will not approach the scale needed to 
meet the multiple crises that climate change will bring to Pacific 
islands, the beloved home to nearly half a million people. By 
necessity, Pacific Island governments have recently focused on 
addressing extreme weather events and the COVID pandemic more than on 
actions to respond to future climate risks and emerging threats. 
Despite setbacks, Pacific Island peoples have nonetheless shown time 
and again that adaptation and resilience are at their core and that 
they are willing and ready to partner with US Federal entities and the 
international community on durable, scalable solutions to the climate 
crisis.
 the need for unique climate programs for insular areas in the pacific
    The Pacific Islands region contains an area larger than the 
continental United States, including 50% of the US Exclusive Economic 
Zone and key strategic sites for the US Military. The US Pacific Island 
Insular Areas--also known as the USAPI--are culturally, socially, and 
economically diverse.

    Communities in the USAPI are already experiencing unique impacts 
from climate change, which are well-documented. The Fourth US National 
Climate Assessment describes the key climate-related challenges that 
the Pacific Islands already face and what lies ahead:

    <bullet> Dependable and safe water supplies are at risk from rising 
            temperatures, changing rainfall patterns, sea level rise, 
            and increased risk of extreme drought and flooding. Some 
            islands already experience saltwater contamination of fresh 
            water supplies or periodic extreme droughts (Keener et al. 
            2018, Key Message 1). Because of the remoteness of islands, 
            responses to water scarcity have involved delivery of water 
            and deployment of emergency reverse osmosis units by the US 
            Navy at a high cost (Keener et al. 2018; Keener et al. 
            2012).

    <bullet> Sea level rise is now beginning to threaten critical 
            infrastructure. Even on islands with higher land 
            elevations, most infrastructure and communities are 
            typically confined to a narrow band of land within a few 
            feet of sea level. The USAPI will experience higher sea 
            level rise than the global average (Sweet et al. 2017). Sea 
            level rise projected during this century will threaten the 
            food and freshwater supplies of Pacific island populations 
            and jeopardize their continued sustainability (Keener et 
            al. 2018, Key Message 3).

    <bullet> Coral reefs and ocean resources are inseparable from well-
            being in the Pacific because they underpin livelihoods, 
            culture, and economies. Widespread coral reef bleaching and 
            mortality now occur more frequently than before. By mid-
            century, the conditions for severe coral bleaching are 
            projected to occur annually if current warming trends 
            continue (see Figure 1). This could result in the loss of 
            reef structures, leading to the loss of coastal protection 
            and fish habitat that reefs provide (Keener et al. 2018, 
            Key Message 4).

    <bullet> Climate change impacts are expected to amplify existing 
            risks, such as the spread of disease and the prevalence of 
            poor health outcomes. In some locations, compounding 
            impacts may result in severe disruptions to livelihoods 
            that increase the risk of human conflict or compel the need 
            for migration (Keener et al. 2018, Key Message 6).

    <bullet> All of these changes imperil the health and well-being of 
            Indigenous communities of the Pacific (Keener et al. 2018, 
            Key Message 5).

            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
            

    .epsFigure 1. The figure shows the years when severe coral 
bleaching is projected to occur annually in the Hawai'i and the US-
Affiliated Pacific Islands region under a higher emissions scenario 
(RCP8.5). Darker colors indicate earlier projected onset of coral 
bleaching. Under projected warming of approximately 0.5+F per decade, 
all nearshore coral reefs in the region are expected to experience 
annual bleaching before 2050. Source: Keener et al. 2018; NOAA.

    The PIRCA assessment delves deeper into some of the impacts, 
further examining the situation in specific USAPI locations. For 
instance, the increasing power of hurricanes, also called tropical 
cyclones and typhoons in our region, puts island populations and 
infrastructure in a uniquely vulnerable state. In 2018, seven tropical 
cyclones, typhoons, and super typhoons damaged infrastructure, claimed 
lives, and destroyed ecosystems across the Pacific Islands in quick 
succession, causing billions of dollars in direct damages. A major 
disaster was declared when Super Typhoon Yutu struck the Northern 
Mariana Islands in October 2018. Torrential rain and sustained winds of 
130-180 miles per hour killed two citizens, injured at least 133 
others, and damaged or destroyed significant portions of the islands' 
buildings and critical infrastructure (FEMA 2020). Applications for 
individual assistance from FEMA amounted to $40.5 million and public 
assistance provided was $131 million (FEMA 2020).
    The inaccessibility of Pacific Islands means that recovery from 
such events is especially challenging. Super Typhoon Yutu caused 
widespread power outages, severed water lines, produced a sizable 
homeless population, and entailed extensive debris removal. Hazardous 
waste removed from damaged and destroyed households filled 193 shipping 
containers (FEMA 2020). School was disrupted for all students and many 
moved to temporary classrooms supplied by FEMA, some used for a year or 
more after the typhoon. There is scientific consensus that tropical 
cyclone intensity--the strength of hurricanes and typhoons--is likely 
to increase in a warming world (Kossin et al. 2017; IPCC 2013; Knutson 
et al. 2015; Kossin et al. 2020). Already, cyclone intensity has 
increased globally over the past four decades (Kossin et al. 2020). An 
increase in maximum typhoon intensities in the Pacific will amplify the 
potential for severe damage. The Insular Area Climate Change Act, 
particularly directly sections 404, 502-503 and 601-602, would reduce 
the potential for harm and increase the ability of communities to 
recover from major storms.
    Increasingly dangerous storms are not the only extreme climate 
events that require adaptations and weather-proofed infrastructure. 
Wildfire, drought, hotter temperatures, and more extreme rainfall 
events present issues for the reliable provision of critical services. 
As we witnessed millions of Texas residents under a boil water advisory 
in the past weeks, I thought of the residents of American Samoa for 
whom unsafe water is a long-term reality. Boil water advisories have 
been in effect on the most populated island of Tutuila for more than a 
decade (Wallsgrove and Grecni 2016). Climate change and increasingly 
intense storms promise to further hinder provision of clean water for 
drinking and household use.
    Even small increases in average temperatures can increase extremes. 
Hot weather is known to increase hospitalizations and deaths among 
people with pre-existing cardiovascular, kidney, and respiratory 
disorders (Sarofim et al. 2016). Non-communicable diseases are already 
leading causes of death in the USAPI territories, where medical 
services cannot match those available in most of the Contiguous US. 
NOAA weather stations have documented an increase in hot days across 
the Pacific Islands, and 2019 was the hottest year on record in Oceania 
(Grecni et al. 2021; NOAA NCEI 2021).
    Governments and leaders cannot afford to simply watch these impacts 
unfold. They are engaging in adaptation in many forms. Resilience-
building is evident in policies, plans, management actions, and 
international engagement by Pacific leaders. American Samoa's Governor 
created the American Samoa Climate Change Task Force; similarly, the 
Governor of Guam through Executive Order 2019-19 established Guam's 
Climate Change and Resiliency Commission, with the objective to develop 
an integrated strategy to build resilience against adverse climate 
impacts; the CNMI adopted Safe, Smart Growth Guidance; the Republic of 
Palau established a National Office of Climate Change and adopted the 
Palau Climate Change Policy, with an action plan and timeline for 
updates. The result of these actions, and others, is that US Insular 
Areas in the Pacific now have durable institutions in place that can 
identify high priority needs, develop proposals for funding, and 
coordinate cross-sectoral projects.
    Nevertheless, adjusting to the impacts of climate change presents 
logistical challenges and entails higher costs for the USAPI than for 
locations in the Contiguous US. Materials must be shipped in at great 
cost, and experienced contractors must be engaged from overseas. 
Recruiting contractors is particularly complicated now that COVID has 
necessitated travel restrictions. Because the USAPI have constrained 
human and technological capacity, the Insular Area Climate Change Act 
rightly puts emphasis on programmatic coordination and technical 
assistance. Local training and capacity building are essential for 
maintaining any new infrastructure or programs.
    The National Climate Assessment underscored the importance of early 
adaptation in avoiding accelerating costs. The savings in the long-term 
from adaptation are expected to be several times the up-front costs and 
can generate co-benefits (Lempert et al. 2018). Sea level rise, for 
example, is projected to accelerate strongly after mid-century, so 
adaptation strategies implemented sooner can better prepare communities 
and infrastructure, avoiding more severe impacts.
                   coral reefs are critical lifelines
    The PIRCA has highlighted just how integral healthy coral reefs are 
to the ongoing sustainability of Pacific Island populations, economies, 
and cultures. Reefs and connected nearshore ecosystems inject hundreds 
of millions of dollars into Pacific Island economies every year. The 
total economic value of the CNMI's coral reefs and connected seagrasses 
were estimated at $115 million USD, including all goods and services 
that reefs provide, the value to tourism, and the cultural and social 
value (Eastern Research Group 2019). In Guam, reef-related tourism 
alone was estimated at $323 million USD per year (Spalding et al. 
2017). Coral reefs currently offer $17 million USD annually in 
protection for buildings and economic activity from coastal flooding in 
Guam and $15 million USD annually on Saipan (Storlazzi et al. 2019).
    Given the enormous value coral reefs represent, it is troubling 
that multiple, consecutive coral bleaching events in recent years led 
to mass reef mortality in some locations. Bleaching events in 2017 
caused 90% mortality of some branching coral species in the Saipan 
Lagoon, well-documented by local scientists and management agencies 
(CNMI Coral Reef Initiative 2019; Maynard et al. 2019). In the CNMI and 
Guam, the conditions for significant bleaching are expected to occur on 
an annual basis starting between 2030 and 2040 (van Hooidonk et al. 
2016). Research has identified places have the greatest potential for 
reef resilience and thus represent wise investments in conservation 
(Schumacher et al. 2018; Maynard et al. 2019; Gouezo et al. 2017; Miles 
et al. 2020).
    Despite the urgent need to protect and restore reefs, funding 
levels remain low. According to a coral management specialist in the 
Northern Mariana Islands, it is like trying to run an emergency room 
stocked only with boxes of Band-Aids. Funding for targeted coral reef 
conservation in the CNMI has averaged less than $1 million USD annually 
in recent years. A significant portion of this funding has been 
allocated to outreach, reducing stresses on corals, and studying coral 
health. These activities create a good foundation for coral restoration 
by reducing non-climate threats and providing data to inform managers, 
yet coral restoration has barely begun in the USAPI. Scientists and 
managers identify the need for greatly increasing coral restoration to 
reach a meaningful scale. Saipan Lagoon alone has more than 1,500 acres 
of coral reef habitat, almost all of which could benefit from increased 
restoration and management effort. This entails hiring qualified people 
to implement, manage, and maintain projects. To realize the benefits 
from investments in coral reef restoration, programs must build local 
capacity to ensure that the application of new expertise, technology, 
or tools are sustained.
    Examples of projects that are ready to be implemented or scaled up 
include: (1) both in-situ and ex-situ coral propagation; (2) expanding 
existing in-water coral nursery networks; (3) developing a portfolio of 
coral conservation and restoration options that could function as a 
``mitigation bank'' to offset any unavoidable impacts from US Military 
operations in Guam and the CNMI; and, (4) enhancing post-disaster 
response and recovery with measures that restore corals in areas 
providing substantial protection for infrastructure from extreme 
storms. Great progress was made in the Caribbean after Hurricane Maria, 
where Puerto Rico and the US Virgin Islands were able to include coral 
reef work under FEMA recovery support functions. Similar programs for 
post-disaster recovery could be made available to the USAPI.
    Sections 103 (Coral Reefs Prize Competitions), 301 (Climate Change 
Insular Research Grant Program), and 302 (Coastal Management Technical 
Assistance and Report) of the Insular Area Climate Change Act can 
enable research and, most importantly, give a boost to innovative coral 
reef conservation programs, ultimately making reefs more resilient and 
bolstering the lifeline services they provide.
 active climate monitoring is needed for improved modeling and forward-
                           looking management
    Basing management decisions on past experience alone is like trying 
to drive by looking in the rearview mirror. It risks missing upcoming 
curves and going dangerously off the road. For decision-makers today, 
climate change is a big curve in the road.
    The Pacific RISA and the PIRCA have documented the need for 
increased climate monitoring in the Pacific Islands for more than a 
decade. Quality climate data is needed to produce more reliable 
forecasts and future projections that enable managers to construct 
reasonable future scenarios. Throughout the USAPI, stations collecting 
climate data (air temperature, rainfall, wind speeds, etc.) have 
changed location, and station records are not continuous. Tracking 
climate trends requires consistent data records of 30 years at the same 
location, yet only a few locations in the USAPI have data records of 
sufficient quality.
    Federally produced fine-resolution projections are currently 
available to the Contiguous US States but do not extend to the USAPI. 
Developing localized predictive modeling for infrastructure planning, 
agriculture, and a range of other applications would require more data 
collection stations and, ideally, fine-scale, gridded data. This bill 
would be a big step toward making the types of data currently available 
to the Contiguous US also available to the USAPI.
    The existing climate data are also difficult to access online in 
formats suitable for non-specialists. A central data portal for the 
USAPI could increase data access and use. The US Climate Explorer 
serves this purpose for all US states but is not available currently 
for the USAPI.
    Sections 303 (National Weather Service Technical Assistance and 
Grants) and 304 (Ocean and Coastal Mapping Integration) of the Insular 
Area Climate Change Act would expand the ability of existing NOAA 
programs to fill data gaps. Although the Act does not specifically 
provide for it, there is a great need for better understanding of 
surface water and groundwater systems. The PIRCA technical contributors 
identified the need for information about the impacts of climate change 
to island-specific water budgets (Grecni et al. 2021), such as a study 
done by the USGS looking at water resources under climate change in 
Guam (Gingerich et al. 2019). Insight into water supplies can help 
water managers enhance water sustainability and identify solutions, 
such as conservation measures or storage and recharge mechanisms.
regarding renewable energy programs for us insular areas in the pacific
    Other potential blind spots in the curve brought on by climate 
change are the shifts in global energy supply and prices. The Pacific 
Islands are highly dependent on imported fossil fuels, leaving them 
vulnerable to global oil price fluctuations that directly impact the 
cost of electricity. American Samoa relies on fossil fuel (primarily 
diesel) for 97% of its electricity generation; nearly 100% of CNMI's 
electricity is generated using heavy fuel oil; in Guam, 96% of 
electricity is generated using fossil fuels, with only 4% coming from 
solar (NREL 2020a; NREL 2015; NREL 2020b).
    Electricity prices for residential customers in the USAPI are above 
the US average. American Samoa's electricity rate for residential 
customers is $0.33 USD per kilowatt-hour (kWh); CNMI's residential 
rates are $0.21 to $0.35 USD/kWh; Guam's residential rate is $0.20 USD/
kWh; and the Freely Associated States have rates ranging from $0.27 to 
$0.43 USD/kWh (NREL 2020a; NREL 2020c; NREL 2020b). All are well above 
the $0.13 USD/kWh average US residential rate, while per capita GDP is 
well below that of any US state.
usapi clean energy initiatives provide a solid foundation, but updates 
                               are needed
    Title IV of the Act, particularly sections 403 (Energy Efficient 
Product Rebate Program), 404 (Renewable Energy Grant Program), and 406 
(State Energy Program Non-Federal Cost-Share Waiver), and Title V, 
section 504 (Insular Area Renewable Energy Grant Program), would 
support the renewable energy targets set by USAPI governments and 
protect island communities. Pacific Island governments have 
demonstrated they are ready to implement renewable energy and energy 
efficiency projects but need support to do so.
    The USAPI countries and territories have experience with successful 
small-scale renewable energy projects, particularly small-scale solar 
photovoltaic (PV) projects, demonstrating the economic and social 
benefits of such projects and the strong potential for increasing 
renewable energy generation. Furthermore, major electric utilities in 
American Samoa, Guam, and CNMI have net-metering in place. Issues 
remain with ensuring maintenance of new infrastructure and the capital 
investment needed to dramatically scale up renewable energy.
    The US Department of the Interior (DOI) Office of Insular Affairs 
(OIA) funded the National Renewable Energy Laboratory to conduct 
initial technical energy assessments for American Samoa, the CNMI, and 
Guam. With the technical assessments and a Territory energy summit as a 
springboard, the Pacific Island Territories each established through 
executive orders nonregulatory advisory groups: the American Samoa 
Renewable Energy Committee, the CNMI Energy Task Force, and the Guam 
Energy Task Force.
    In 2010, the CNMI Energy Task Force developed the Commonwealth of 
the Northern Mariana Islands Strategic Energy Plan with a focus on 
energy efficiency and renewable energy. In partnership with the US DOI 
OIA and the US Department of Energy's National Renewable Energy 
Laboratory, in 2013 the CNMI Energy Task Force created an Energy Action 
Plan that outlines near-term strategies for increasing energy 
efficiency and renewable energy technologies, and decreasing reliance 
on electricity generation from fossil fuels (NREL 2015).
    With the potential for growth in energy demand due to the 
anticipated military build-up and the need for increased economic self-
reliance, Guam has invested in energy conservation and efficiency, 
renewable energy, efficient transportation, green building design, and 
smart grid technologies. The Guam Energy Action Plan created by the 
Guam Energy Task Force identified strategies achievable in a short 
timeframe.
    Guam and the CNMI have sufficient wind and solar resources to make 
a significant shift toward renewable energy. However, potential impacts 
on threatened bird species and typhoon-level winds may complicate the 
siting of wind turbines.
    The American Samoa Renewable Energy Committee's activities have 
included expanding solar energy installation, exploring the option of 
geothermal energy, and developing a waste to energy plant. In 2017, the 
island of Ta'u converted their energy production from 100% diesel to an 
entirely solar-powered microgrid. With a population ranging from 200-
600 people, the $8 million project was funded by the DOI and the 
American Samoa Power Authority and installed by Tesla, demonstrating 
that energy sustainability is possible on small Pacific Islands.
    Updates are now needed to the Energy Action Plans to account for 
more recent technological advances, the landscape of private- and 
public-sector partners, and new understanding of best practices. All of 
the Energy Action Plans call for pursuing finance mechanisms, such as 
grants and public-private partnerships, for renewable power generation, 
energy efficiency, and energy conservation projects. The new programs 
detailed in the Insular Area Climate Change Act, Titles IV and V, would 
make great progress toward providing the US Territories and Freely 
Associated States reliable sources of renewable energy while increasing 
resilience to extreme weather and global energy price shocks.
additional specific considerations for the insular area climate change 
                                  act

    <bullet> The Insular Area Climate Change Act establishes the 
            Insular Area Climate Change Interagency Task Force (section 
            101) to evaluate and identify ways to provide greater 
            access to the Territories and Freely Associated States to 
            climate change-related Federal programs. Including the 
            heads of state of the Territories and Freely Associated 
            States (the Governors and Presidents) as members or 
            advisors to this Task Force would ensure that the leaders 
            responsible for the management of critical infrastructure 
            and natural resources are at the table and can help to 
            ensure success of Federal programs. Pacific RISA has 
            demonstrated that working directly with governments fosters 
            ownership of assessments, and results in lasting 
            relationships and two-way communication that ensures use of 
            Federal science products and resources in climate 
            adaptation. The inclusion of heads of state would follow on 
            a successful Federal model of the US Coral Reef Task Force, 
            which includes freely elected leaders from the US Insular 
            Areas. In Guam, the US Coral Reef Task Force has worked 
            effectively across levels of government to coordinate and 
            support coral reef management.

    <bullet> The programs and funding for US Insular Areas within the 
            Office of Insular Affairs and NOAA's Office for Coastal 
            Management would provide technical assistance for climate 
            change planning, mitigation, and adaptation. Some 
            flexibility in the language of the bill to support the 
            implementation of the projects that include nature-based 
            solutions, would increase the Act's effectiveness. I also 
            suggest that involvement of the NOAA Climate Program 
            Office, including the NOAA RISA teams, could be valuable, 
            as they have existing programs providing information and 
            assistance to support climate risk management and 
            adaptation in the USAPI.

    <bullet> Pacific Island economies are struggling to recover from 
            the collapse of tourism, an economic mainstay, due to 
            COVID-19. The waivers of Non-Federal matching requirements 
            for the grants listed in this legislation will remove a 
            barrier to resourcing projects that directly address 
            climate change and improve economic resilience.

    <bullet> Pacific RISA stands ready to support new programs for the 
            US Insular Areas in the Pacific with actionable research 
            that brings together natural resource managers, decision-
            makers, and scientists to better evaluate climate risks and 
            prioritize needed adaptations with the most up-to-date 
            science.

    Thank you.
                               references
CNMI Coral Reef Initiative, 2019: The Commonwealth of the Northern 
Mariana Islands' coral reef management priorities, 2019-2029, 22 pp, 
https://dcrm.gov.mp/wp-content/uploads/crm/2019-
Coral_Reef_Management_Priorities-Booklet-WEB.pdf.

Eastern Research Group, 2019: Value of ecosystem services from coral 
reef and seagrass habitats in CNMI. Final report prepared for Bureau of 
Environmental and Coastal Quality's Division of Coastal Resources 
Management (BECQ-DCRM) Commonwealth of the Northern Mariana Islands, 
https://dcrm.gov.mp/wp-content/uploads/crm/CNMI-Value-of-Ecosystem-
Services-Coral-Reefs-and-Seagrass-09-27-19-FINAL.pdf.

FEMA (Federal Emergency Management Agency), 2020: Super Typhoon Yutu: 
one year later. FEMA news release, DR-4404-MP NR 024, https://
www.fema.gov/news-release/20200220/super-typhoon-yutu-one-year-later.

Gingerich, S.B., and Coauthors, 2019: Water resources on Guam--
potential impacts of and adaptive response to climate change. US 
Geological Survey Scientific Investigations Report 2019-5095, 55 pp, 
https://doi.org/10.3133/sir20195095.

Gouezo, M., et al., 2017: 15 years of coral reef monitoring 
demonstrates the resilience of Palau's coral reefs. Palau International 
Coral Reef Center PICRC Technical Report 17-01, 20 pp, http://
picrc.org/picrcpage/wp-content/uploads/2016/01/Gouezo-et-al-2017-coral-
reef-status-and-trends_15-years_FINAL_August18th.pdf.

Grecni, Z., et al., 2020: Climate Change in Guam: Indicators and 
Considerations for Key Sectors. Report for the Pacific Islands Regional 
Climate Assessment. East-West Center, 60 pp, https://
www.eastwestcenter.org/PIRCA-Guam.

Grecni, Z., et al., 2021. Climate Change in the Commonwealth of the 
Northern Mariana Islands: Indicators and Considerations for Key 
Sectors. Report for the Pacific Islands Regional Climate Assessment. 
East-West Center, 68 pp, https://www.eastwestcenter.org/PIRCA-CNMI.

IPCC, 2013: Summary for policymakers. Climate Change 2013: The Physical 
Science Basis. Contribution of Working Group I to the Fifth Assessment 
Report of the Intergovernmental Panel on Climate Change, Stocker, T.F., 
et al., Eds., Cambridge University Press.

Keener, V., et al., 2012: Climate Change and Pacific Islands: 
Indicators and Impacts. Report for the 2012 Pacific Islands Regional 
Climate Assessment. Island Press, https://data.globalchange.gov/report/
2012-pirca.

Keener, V., and Coauthors, 2018: Hawai'i and the U.S.-Affiliated 
Pacific Islands. Impacts, Risks, and Adaptation in the United States: 
Fourth National Climate Assessment, Vol. II, D.R. Reidmiller, et al., 
Eds., US Global Change Research Program, 1242-1308, https://
nca2018.globalchange.gov/chapter/27/.

Knutson, T.R., et al., 2015: Global projections of intense tropical 
cyclone activity for the late twenty-first century from dynamical 
downscaling of CMIP5/RCP4.5 scenarios. Journal of Climate, 28, 7203-
7224, https://doi.org/10.1175/JCLI-D-15-0129.1.

Kossin, J.P., et al., 2017: Extreme storms. Climate Science Special 
Report: Fourth National Climate Assessment, Volume I, Wuebbles, D.J., 
et al., Eds., US Global Change Research Program, 257-276, https://
doi.org/10.7930/J07S7KXX.

Kossin, J.P., et al., 2020: Global increase in major tropical cyclone 
exceedance probability over the past four decades. Proceedings of the 
National Academy of Sciences, 117, 11975-11980, https://doi.org/
10.1073/pnas.1920849117.

Lempert, R., et al., 2018: Reducing risks through adaptation actions. 
Impacts, Risks, and Adaptation in the United States: Fourth National 
Climate Assessment, Volume II, Reidmiller, D.R., et al., Eds., US 
Global Change Research Program, 1309-1345, https://doi.org/10.7930/
NCA4.2018.CH28.

Maynard, J., S. McKagan, and S. Johnson, 2019: Assessing resistance and 
recovery in CNMI during and following a bleaching and typhoon event to 
identify and prioritize resilience drivers and action options. Final 
Progress Report for NOAA CRCP Grant No. NA17NOS4820088.

Miles, W., et al., 2020: Climate Change in Palau: Indicators and 
Considerations for Key Sectors. Report for the Pacific Islands Regional 
Climate Assessment. East-West Center, 68 pp, https://
www.eastwestcenter.org/PIRCA-Palau.

NOAA NCEI (National Centers for Environmental Information), 2021: State 
of the climate: Regional analysis for January 2021. Accessed February 
26, 2021, https://www.ncdc.noaa.gov/sotc/global-regions/202101.

NREL (National Renewable Energy Laboratory), 2015: Energy snapshot: 
Commonwealth of the Northern Mariana Islands. US Department of Energy, 
Energy Transitions Initiative DOE/GO-102015-4683, 4 pp.

NREL, 2020a: American Samoa energy snapshot. US Department of Energy, 
Energy Transitions Initiative DOE/GO-102020-5412, 2 pp, https://
www.energy.gov/eere/island-energy-snapshots.

NREL 2020b: Commonwealth of the Northern Mariana Islands energy 
snapshot. US Department of Energy, Energy Transitions Initiative DOE/
GO-102020-5413, 2 pp, https://www.energy.gov/eere/island-energy-
snapshots.

NREL, 2020c: Guam energy snapshot. US Department of Energy, Energy 
Transitions Initiative DOE/GO-102020-5414, 2 pp, https://
www.energy.gov/eere/island-energy-snapshots.

Sarofim, M.C., and Coauthors, 2016: Ch. 2: Temperature-related death 
and illness. The Impacts of Climate Change on Human Health in the 
United States: A Scientific Assessment, US Global Change Research 
Program, 43-68, http://dx.doi.org/10.7930/J0MG7MDX.

Spalding, M., et al., 2017: Mapping the global value and distribution 
of coral reef tourism. Marine Policy, 82, 104-113, https://doi.org/
10.1016/j.marpol.2017.05.014.

Schumacher, B.D., B. Vargas-Angel, and S.F. Heron, 2018: Identifying 
coral reef resilience potential in Tutuila, American Samoa based on 
NOAA coral reef monitoring data. NOAA Special Publication, NMFS-PIFSC-
SP-18-03, 15 pp.

Storlazzi, C.D., and Coauthors, 2019: Rigorously valuing the role of 
U.S. coral reefs in coastal hazard risk reduction. US Geological Survey 
Open-File Report 2019-1027, 42 pp, http://dx.doi.org/10.3133/
ofr20191027.

Sweet, W.V., et al., 2017: Sea level rise. Climate Science Special 
Report: Fourth National Climate Assessment, Volume I, Wuebbles, D.J., 
et al., Eds., US Global Change Research Program, 333-363, https://
doi.org/10.7930/J0VM49F2.

Wallsgrove, R., and Z. Grecni, 2016: Water Resources in American Samoa: 
Law and Policy Opportunities for Climate Change Adaptation. Pacific 
Regional Integrated Sciences and Assessments, 32 pp, https://
www.eastwestcenter.org/publications/water-resources-in-american-samoa-
law-and-policy-opportunities-climate-change.

van Hooidonk, R., and Coauthors, 2016: Local-scale projections of coral 
reef futures and implications of the Paris Agreement. Scientific 
Reports, 6, 39666, https://doi.org/10.1038/srep39666.

                                 *****

The following documents were submitted as supplements to Ms. Grecni's 
testimony. These documents are part of the hearing record and are being 
retained in the Committee's official files:

    --  Climate Change in the Commonwealth of the Northern Mariana 
            Islands: Indicators and Considerations for Key Sectors. 
            Report for the Pacific Islands Regional Climate Assessment. 
            East-West Center, 68 pp, https://www.eastwestcenter.org/
            PIRCA-CNMI

    --  Climate Change in Guam: Indicators and Considerations for Key 
            Sectors. Report for the Pacific Islands Regional Climate 
            Assessment. East-West Center, 60 pp, https://
            www.eastwestcenter.org/PIRCA-Guam

    --  Climate Change in Palau: Indicators and Considerations for Key 
            Sectors. Report for the Pacific Islands Regional Climate 
            Assessment. East-West Center, 68 pp, https://
            www.eastwestcenter.org/PIRCA-Palau

    --  ``Hawai'i and the U.S.-Affiliated Pacific Islands'' in Impacts, 
            Risks, and Adaptation in the United States: Fourth National 
            Climate Assessment, Vol. II, US Global Change Research 
            Program, 1242-1308, https://nca2018.globalchange.gov/
            chapter/27/

                                 ______
                                 

   Questions Submitted for the Record to Ms. Zena Grecni, Sustained 
            Climate Assessment Specialist, East-West Center
              Questions Submitted by Representative Sablan
    Question 1. Given the recent publication of the PIRCA report for 
the Northern Mariana Islands (Climate Change in the Commonwealth of the 
Northern Mariana Islands: Indicators and Considerations for Key 
Sectors), are there major areas of climate change risk in the Northern 
Marianas that the draft bill, the Insular Area Climate Change Act, 
would address?

    Answer. The increasing intensity of typhoons and other tropical 
cyclones is increasing the potential for damage to the CNMI's critical 
infrastructure. The recent Pacific Islands Regional Climate Assessment 
report for the CNMI underscored that hardening measures to protect 
electrical, water, wastewater, and other infrastructure can improve 
reliability, resilience, and energy and water security. The Insular 
Area Climate Change Act Section 404 creates grant programs that address 
vulnerabilities in the electric system with updates to power 
generation, distribution, communication, and information systems. These 
actions will make the electric system more flexible and able to 
withstand changing conditions and extreme storms. Access to the smart 
technologies the Act incentivizes can provide real-time communication 
and offer the power utility better tools to prevent outages and manage 
restoration efforts. Additionally, Sections 502 and 503 would increase 
the Environmental Protection Agency's role in coordinating and 
implementing programs that strengthen infrastructure against disasters. 
The increased technical assistance to the CNMI will boost efforts to 
update other systems, including drinking water, septic systems, 
stormwater systems, and solid waste systems, all of which were 
compromised by Super Typhoon Yutu and other recent powerful storms. 
Sections 601 and 602 would increase the ability of communities to 
recover from major storms by eliminating financial barriers for 
Territories to seek Federal recovery funds.
    The PIRCA report also emphasized that climate-related risks to the 
global economy are expected to cause large shifts in prices and 
availability of agricultural, energy, and other goods, potentially 
leading to food and energy insecurity (Grecni et al. 2021; Smith et al. 
2018). Provisions of the Act will assist Insular Areas in preparing 
comprehensive energy plans and facilitate energy efficiency (Sections 
401-403) and renewable energy development (especially Sections 404 and 
405). These measures will increase resilience to energy price shocks 
and self-sufficiency of CNMI communities.
    The 2013 CNMI Strategic Energy Plan identified the precarious state 
of CNMI's energy security and called for creation of a more 
comprehensive strategy. Updates to the plan, and its further 
development, are needed now. The Commonwealth is interested in 
developing solar and other renewable energy sources to increase 
resilience and efficiency in the energy and water sectors, reduce 
greenhouse gas emissions, and lower power costs for residents--called 
for under its recent Guidance Manual for Smart, Safe Growth (CNMI 
2018). In 2015, the Commonwealth Utilities Corporation explored various 
energy options in the planning process for an Integrated Resources Plan 
and issued a Request for Proposals to private companies for power 
generation projects, including renewable energy. The RFP was later 
canceled, and the Plan remained a draft document. The Insular Area 
Climate Change Act's comprehensive energy plans will restart energy 
planning and facilitate studies to assist managers to site renewable 
energy projects (such as newly available renewable technologies and how 
climate change may affect the amount and duration of solar exposure and 
wind speed and direction).
    Additionally, the Act will add technical assistance and grants to 
conduct climate change research and provide information for impact-
based decision support (Sections 301-304). This actionable research 
could support decision-making and solutions for additional areas of 
climate risk, including: the impact of rising air temperatures and 
extreme heat on human health; sea level rise threats to transportation, 
housing, businesses, and critical infrastructure; needed protection for 
cultural resources and sites; and risks to ecosystems.

    Question 2. Besides energy infrastructure, what other types of 
infrastructure in the insular areas are affected by climate change? 
What types of support are needed to enable managers to protect 
infrastructure from the impacts of climate change?

    Answer. In the water management sector, we recommend managers and 
policymakers consider proactive strategies to mitigate the impacts of 
drought, sea level rise, and stronger typhoons. Technical assistance is 
needed to assess the impacts of climate change on surface water and 
groundwater systems and to identify solutions. Using scenarios and 
modeling to understand the effects of future conditions on island-
specific water budgets can inform water system management. Also helpful 
is improved water resource monitoring (spatial variation in well fields 
and salinity levels, for example). Technical capacity-building within 
local management departments is a way to ensure the skills and 
resources necessary to support ongoing monitoring and adaptive 
management. Technologies that augment water supply during times of 
drought (already periodically impacting Guam and the CNMI) would help 
residents and business to experience less disruption during dry 
periods.
    The CNMI has a history of management challenges regarding disposal 
of military, industrial, and municipal solid waste, which in some cases 
has resulted in contamination of fresh water. Policy-relevant research 
that supports the provision of safe drinking water to all CNMI 
communities is needed. Examples of such research include vulnerability 
assessments of CNMI drinking water supply to both climate and non-
climate threats.
    Additional technical analysis is needed to evaluate changing 
hazards for highly vulnerable infrastructure and areas of concern 
previously identified in local planning and assessment. Decision-makers 
can utilize the existing vulnerability assessments to explore climate-
proofing and relocation options. Climate resilience infrastructure 
projects could be piloted on a small scale to demonstrate and support 
problem-solving.

    Question 3. Are there other areas of support needed to address the 
main challenges of climate change in the region?

    Answer. More support is needed to increase the scale of response to 
meet the many challenges U.S.-Affiliated Pacific Islands face from 
climate change. I recommend consulting with the local governments and 
leaders involved in resilience and climate adaptation planning, such as 
members of the CNMI's interagency Planning and Development Advisory 
Council who collectively updated the Resources Report (CNMI ODP 2020). 
Several priority areas outlined in the PIRCA report by technical 
contributors include:

    <bullet> Pre-disaster recovery planning--Pre-planning for disaster 
            recovery can help communities to seize opportunities in the 
            rebuilding and recovery phase and improve resilience to 
            future disasters and climate change. Governments and 
            engineers can account for the risk of future changes in 
            extreme weather in the siting and design of new 
            infrastructure (including buildings, communication and 
            energy systems, transportation, and water and wastewater 
            systems). Guidance is available to local governments and 
            communities on developing pre-disaster recovery plans (see: 
            FEMA 2017 and Guidance Manual for Smart, Safe Growth, CNMI 
            2018). Further support and incentives for pre-disaster 
            recovery planning in the Pacific Island Territories can 
            catalyze rebuilding plans that account for climate change.

    <bullet> Ecosystem-based solutions--Ecosystem-based adaptation 
            remains underutilized as a cost-effective approach for 
            reducing climate risk. Governments need additional 
            technical support and capacity for ecosystem-based 
            adaptation, for example to revegetate coastal areas with 
            mangroves to reduce flooding and erosion, thereby helping 
            to protect coastal communities from storm surge and high 
            winds.

    <bullet> Innovative insurance mechanisms--The risks posed by 
            climate change are too great for individuals, businesses, 
            and local governments in the Pacific Islands to cover on 
            their own. Countries with greater insurance coverage across 
            sectors are found to experience better GDP growth after 
            weather-related catastrophes (Melecky and Raddatz 2011). 
            Thus, making additional insurance options available, such 
            as weather-indexed insurance products and risk transfer-
            for-adaptation programs, could speed up recovery from 
            extreme events and bolster economies.

    Question 4. How can the insular areas best build their respective 
local capacities to ensure coral reef ecosystems conservation and 
restoration projects are effectively managed and maintained?

    Answer. Scientists and managers identify the need for greatly 
increasing coral conservation and restoration to reach a meaningful 
scale. This entails increasing (perhaps doubling or tripling) the 
funding that CNMI receives for coral reef conservation. It also 
requires hiring qualified people to implement, manage, and maintain 
projects. To realize the benefits from investments in coral reef 
restoration, programs must build local capacity to ensure that the 
application of new expertise, technology, or tools are sustained.
    The need to fund personnel and capacity-building within projects is 
being increasingly recognized by the funding community. The NOAA 
Coastal Resilience Grants Program and some other recent awards have 
included additional personnel and leniency with matching requirements. 
An expansion of this model across other funding sources would be 
welcomed in the Pacific Island jurisdictions.
    Coral reef conservation and restoration in the Pacific Islands 
Region would also benefit from more long-term funding periods focusing 
on partnerships between government and NGOs. Often, projects have 18- 
to 24-month performance periods for implementation. A small amount of 
contractual funds may be included for NGOs to provide targeted 
technical assistance, which is not sustained after a year or so. The 
short performance periods create challenges to implementing truly 
impactful conservation and restoration projects. The planning and 
permitting phases typically consume most project resources. Sustained 
jurisdictional and regional public-private partnership support across 
3- to 5-year timelines should be a primary aim, so that these 
relationships can be leveraged over the course of multiple discrete 
projects.
    One crucial partner in the effort to restore and conserve vital 
reef ecosystems may be the U.S. Military due to the scale of mitigation 
needed to offset defense activities. The Department of Defense appears 
to have a growing recognition of climate threats and the role that 
reefs play in coastal defense functions.
    Lastly, post-disaster funding for coral reef triage and restoration 
is becoming widely acknowledged to increase shoreline protection while 
generating economic benefits. Great progress was made in the Caribbean 
after Hurricane Maria, where Puerto Rico and the U.S. Virgin Islands 
were able to include coral reef work under FEMA recovery support 
functions. While NOAA's Coral Program is in currently initiating an 
Emergency Coral Response Fund, conservation and restoration in support 
of nature-based infrastructure could be instituted or codified in other 
Federal agency priorities for post-disaster recovery.

    Question 5. As noted in the PIRCA reports, the coral reef 
ecosystems in the Pacific insular areas provide hundreds of millions of 
dollars of economic benefit each year to our island economies. Coral 
reefs also provide effective natural protection from storm surge and 
coastal flooding. Unfortunately, widespread bleaching and mortality due 
to warming sea temperatures have become common occurrences in the 
region. Can anything be done to protect and restore the precious, vital 
coral reefs of the insular areas? How does this bill help?

    Answer. Widespread coral reef bleaching and mortality is now 
occurring more frequently, and the future outlook for reefs hinges on 
near-term global action to cut greenhouse gas emissions. Although 
conservation efforts can reduce stresses on coral and increase reef 
resilience to climate impacts, there is growing evidence that major 
impacts can be avoided only through substantial reductions in the 
global average atmospheric carbon dioxide concentration.
    Nonetheless, reef resiliency does matter. Research in CNMI has 
identified places that have the greatest potential for reef resilience 
and thus represent wise investments in conservation and reef 
restoration (Maynard et al. 2019). Managers are undertaking coral 
propagation and restoration on high-value reefs. The first pilot 
projects for structure-building coral propagation (coral nurseries) are 
being implemented in the Saipan Lagoon in the vicinity of Managaha 
Island.

    Examples of projects that are ready to be implemented or scaled up 
with additional funding, technical assistance, and capacity include:

    <bullet> both in-situ and ex-situ coral propagation;

    <bullet> expanding existing in-water coral nursery networks;

    <bullet> developing a portfolio of coral conservation and 
            restoration options that could function as a ``mitigation 
            bank'' to offset any unavoidable impacts from U.S. Armed 
            Forces operations in Guam and the CNMI;

    <bullet> and, enhancing post-disaster response and recovery with 
            measures that restore corals and other natural 
            infrastructure that provide substantial protection from 
            extreme storms.

    The Insular Area Climate Change Act would remove a barrier to 
obtaining funding for coral management and monitoring under the Coral 
Reef Conservation Act of 2000 by waiving the matching requirement for 
Insular Areas. It would also add Coral Reef Prize Competitions (Section 
103) managed by the Office of Science and Technology Policy that would 
inject needed funds to scale up coral reef conservation, restoration, 
and research. Through this Act and growth in capacity-building 
programs, the Pacific Islands Region can become a leader in providing 
job growth in coral management and secure a livable future for 
communities.
References

CNMI, 2018: Guidance manual for smart, safe growth, Commonwealth of the 
Northern Mariana Islands. Prepared by Nimbus Environmental Services for 
the Federal Emergency Management Agency and the Environmental 
Protection Agency, https://opd.gov.mp/library/reports/opd-safe-smart-
growth-guidance-for-cnmi/.

CNMI OPD (CNMI Office of the Governor, Office of Planning and 
Development), 2020: 2019-2020 Resources report: Planning for 
sustainability in the Commonwealth of the Northern Mariana Islands 
(Resources Report). Endorsed by the Planning and Development Advisory 
Council, July 30, 2020.

FEMA (Federal Emergency Management Agency), 2017: Pre-disaster recovery 
planning guide for local governments. FEMA Publication FD 008-03, 94 
pp, https://www.fema.gov/emergency-managers/national-preparedness/
plan#pre-disaster.

Grecni, Z., et al., 2021. Climate Change in the Commonwealth of the 
Northern Mariana Islands: Indicators and Considerations for Key 
Sectors. Report for the Pacific Islands Regional Climate Assessment. 
East-West Center, 68 pp, https://www.eastwestcenter.org/PIRCA-CNMI.

Maynard, J., S. McKagan, and S. Johnson, 2019: Assessing resistance and 
recovery in CNMI during and following a bleaching and typhoon event to 
identify and prioritize resilience drivers and action options. Final 
Progress Report for NOAA CRCP Grant No. NA17NOS4820088.

Melecky, M. and C. E. Raddatz, 2011: How do governments respond after 
catastrophes? Natural-disaster shocks and the fiscal stance. World Bank 
Policy Research Working Paper No. 5564, 59 pp, https://papers.ssrn.com/
abstract=1759155.

Smith, J.B., et al., 2018: Climate Effects on U.S. International 
Interests. In Impacts, Risks, and Adaptation in the United States: 
Fourth National Climate Assessment, Volume II [Reidmiller, D.R., et al. 
(eds.)]. U.S. Global Change Research Program, Washington, DC, USA, pp 
604-637, doi: 10.7930/NCA4.2018.CH16.

van Hooidonk, R., et al., 2016: Local-scale projections of coral reef 
futures and implications of the Paris Agreement. Scientific Reports, 6, 
39666. doi:10.1038/srep39666.

             Questions Submitted by Representative DeGette
Background
    Rep. DeGette's Clean Energy Innovation and Deployment Act includes 
a provision (Section 130 of H.R. 7516 in the 116th Congress) that may 
be of great benefit to people living in U.S. territories, as well as on 
islands and in remote areas worldwide.
    The provision would require the Department of Energy (DOE) to 
establish a certification program for electricity-related technologies 
for use in remote communities. Companies whose products were certified 
could use that fact in marketing the technologies, much as do the 
recipients of DOE's Energy Star label. Facilitating the deployment of 
these technologies would make modern electricity services more 
affordable, reliable, and resilient to households in remote areas, and 
reduce demand for expensive imported fossil fuel-generated electricity 
and the associated carbon emissions.
    Qualifying technologies would include those that can generate 
electricity off-grid (such as solar panels), those that store energy, 
and highly efficient appliances, including lights, cell-phone chargers, 
computers, fans, refrigerators, stoves and ovens. DOE would only 
certify a technology determined to function properly; generate no 
greenhouse gas emissions; be affordable, reliable, durable, safe, and 
protective of human health and the environment; be compatible with 
other technologies relevant to its functioning, including those which 
have been similarly certified; and be available for deployment at 
commercial-scale throughout the territories and states of the United 
States.
    There is already a market for these kinds of technologies, 
especially in developing countries, but many of the products being 
marketed today do not work well, are sold on the basis of fraudulent 
claims, or are not compatible with adjacent technologies (for example, 
a solar panel not being compatible with a battery). Rep. DeGette's 
measure would make DOE the validator of these technologies, thus 
driving their innovation, increasing their quality, protecting 
consumers in the United States and globally, and facilitating the 
deployment of affordable reliable resilient climate-friendly 
technologies to communities in the United States, and around the world, 
that need them the most.

    Question 1. In addition to being on the front lines of climate 
change, are communities on your islands paying much higher electricity 
rates due to the fact that most electricity is generated from imported, 
expensive, and, in many cases, polluting fossil fuels?

    Answer. Yes, the high price of fossil fuel electricity places an 
undue burden on low-income, remote Pacific Island communities. The 
Pacific Island Territories (American Samoa, the Commonwealth of the 
Northern Mariana Islands [CNMI], and Guam) are almost entirely 
dependent on fossil fuels to meet their electricity generation needs, 
and oil is imported at high shipping rates and prices. (Guam, the CNMI, 
and American Samoa are each more than 5,000 miles from the Continental 
U.S.)
    Electricity prices for residents in the Pacific Island Territories 
are above the U.S. average. American Samoa's electricity rate for 
residential customers is $0.33 USD per kilowatt-hour (kWh); CNMI's 
residential rates are $0.21 to $0.35 USD/kWh; and Guam's residential 
rate is $0.20 USD/kWh (NREL 2020a, b, & c). All are well above the 
$0.13 USD/kWh average U.S. residential rate. Residents in American 
Samoa pay more than double the U.S. average rate, while median 
household income is much lower than for the U.S. as a whole (52% lower 
at the last Census in 2009). The CNMI has a median household income 
below that of any U.S. state (at $19,958 in 2009).
    While the Pacific Island Territories have no natural oil reserves, 
they have abundant sun and wind resources that can play a major role in 
meeting their energy needs (Baring-Gould et al. 2011a & b; Busche et 
al. 2011). Renewable energy generation sources are becoming 
increasingly cost competitive with an expanding market share for solar 
and wind energy.

    Question 2. Are the electric grids on your islands vulnerable to 
disruption by the effects of climate change, in particular increasing 
storm intensity, water cycle disruption, average temperatures, and sea 
level rise?

    Answer. Yes, on Pacific Islands, the majority of infrastructure and 
communities lie along the coast near sea level and are exposed to sea 
level rise and increasingly powerful storms. Extreme weather events in 
recent years have exposed a high degree of vulnerability of electrical 
grids and supply infrastructure. In 2018, Super Typhoon Yutu, a 
Category 5 cyclone, was the strongest typhoon ever recorded to impact 
the Mariana Islands. Super Typhoon Yutu damaged or destroyed 
significant portions of buildings and critical infrastructure in the 
CNMI, causing widespread power outages. While recent updates by FEMA 
and the Commonwealth Utilities Corporation have ``storm-proofed'' and 
improved some electric infrastructure in Saipan's integrated system 
(consisting of three diesel generation facilities and an integrated 
grid), other parts of the grid remain under-protected. The CNMI's 
infrastructure has been described as a patchwork of systems, with 
coverage, reliability, and modernization varying across different 
villages and sections of the island (Greene and Skeele 2014). Temporary 
blackouts are not uncommon when power levels are lower than normal or 
when weather disrupts areas of service.
    Sea level rise presents major risks for electrical supply 
infrastructure. For example, Saipan's primary electricity generation 
plant is in a FEMA flood zone and within the zone exposed under the 
CNMI Coastal Management Program's sea level rise planning scenario 
(Grecni et al. 2021). Temporary flooding from a 10-year storm event 
combined with sea level rise by mid-century (under a business-as-usual 
scenario) would inundate all access routes to the main power plant and 
the plant itself (Green and Skeele 2014).
    The CNMI's seaport facilities (where fuel shipments are received) 
face challenges as well. The Port of Saipan complex is particularly 
exposed to waves and storm surge during swell and storms, with the 
channel and docking facilities oriented toward the exposed west-
southwest (Greene and Skeele 2014).
    On Guam, electrical generation and transmission systems are 
similarly exposed to sea level rise and storm inundation. The 
commercial sector (including hotels, restaurants, and commercial 
buildings) consumes more than one-third of Guam's electricity, while 
the U.S. Military accounts for one-fifth of Guam's electricity 
consumption. Guam's petroleum used for energy is mostly imported from 
Asian countries (US EIA 2021). Thus, risks to global energy supply 
chains and expected climate change impacts pose a threat to Guam's 
economy as well as U.S. defense installations.

    Question 3. Do you believe this puts an additional and unnecessary 
financial strain on those living on your islands?

    Answer. According to the U.S. Fourth National Climate Assessment, 
climate change is anticipated to lead to large-scale shifts in the 
availability and prices of energy, with impacts on the U.S. economy 
(Smith et al. 2018). Given their nearly complete reliance on high-cost 
imports of fuel for their energy needs, islands are vulnerable to 
global price shocks and energy shortages that may result from climate 
change and extreme weather.
    The cost burden is already high for residents (see response to 
Question 1), and climate change adds volatility to the cost of 
electricity. At the last Census, income levels in the Pacific Island 
Territories were low in comparison to the U.S. as a whole.
    The COVID-19 pandemic and its enormous impact to tourism, 
devastating the islands' economies in the past year. This additional 
loss of income further creates the situation for energy price increases 
to harm people in the Pacific Islands.

    Question 4. Given that, do you think there might be a market on 
your islands for affordable reliable resilient equipment to generate 
and use zero-emitting electricity, reducing dependence on expensive 
fossil fuels and the vulnerable electric grid?

    Answer. Yes, provided technologies are very affordable or can be 
funded through low-cost loans or grant programs. A similar program, the 
Energy-Efficient Appliance Rebate Program that provides funding to 
assist residents to reduce their energy consumption by purchasing 
energy efficient appliances, has been successful in the Pacific Island 
Territories. With the potential for growth in energy demand due to the 
anticipated U.S. Military build-up and the need for increased economic 
self-reliance, the Pacific Island Territories could represent a market 
for zero-emitting appliances and technologies.

    Question 5. Do you think certification of this kind of equipment by 
the U.S. Department of Energy, as described in the Background section, 
would increase consumer confidence in it and thereby promote its use on 
your islands?

    Answer. The cost of technologies may be a larger factor than 
certifications in decisions for many consumers. However, the use of 
technologies by government, U.S. Military, and some private sector 
consumers may increase from the boost in confidence that comes with 
U.S. Department of Energy certification.
References

Baring-Gould, I., et al., 2011a: Guam Initial Technical Assessment 
Report. National Renewable Energy Laboratory, NREL/TP-7A40-50580, 75 
pp, https://www.nrel.gov/docs/fy11osti/50580.pdf.

Baring-Gould, I., R. Hunsberger, C. Visser, and P. Voss, 2011b: 
Commonwealth of the Northern Mariana Islands Initial Technical 
Assessment Report. National Renewable Energy Laboratory, NREL/TP-7A40-
50906, 81 pp, https://www.nrel.gov/docs/fy11osti/50906.pdf.

Busche, S., et al., 2011: American Samoa Initial Technical Assessment 
Report. National Renewable Energy Laboratory, NREL/TP-7A40-50905, 49 
pp, https://www.nrel.gov/docs/fy11osti/50905.pdf.

Grecni, Z., et al., 2021. Climate Change in the Commonwealth of the 
Northern Mariana Islands: Indicators and Considerations for Key 
Sectors. Report for the Pacific Islands Regional Climate Assessment. 
East-West Center, 68 pp, https://www.eastwestcenter.org/PIRCA-CNMI.

Greene, R. and R. Skeele, 2014: Climate change vulnerability assessment 
for the island of Saipan. Bureau of Environmental and Coastal Quality, 
Division of Coastal Resources Management, Commonwealth of the Northern 
Mariana Islands, 95 pp, https://opd.gov.mp/library/reports/2014-saipan-
vulnerability-assessment/.

NREL, 2020a: American Samoa energy snapshot. US Department of Energy, 
Energy Transitions Initiative DOE/GO-102020-5412, 2 pp, https://
www.energy.gov/eere/island-energy-snapshots.

NREL 2020b: Commonwealth of the Northern Mariana Islands energy 
snapshot. US Department of Energy, Energy Transitions Initiative DOE/
GO-102020-5413, 2 pp, https://www.energy.gov/eere/island-energy-
snapshots.

NREL, 2020c: Guam energy snapshot. US Department of Energy, Energy 
Transitions Initiative DOE/GO-102020-5414, 2 pp, https://
www.energy.gov/eere/island-energy-snapshots.

Smith, J.B., et al., 2018: Climate Effects on U.S. International 
Interests. In Impacts, Risks, and Adaptation in the United States: 
Fourth National Climate Assessment, Volume II [Reidmiller, D.R., et al. 
(eds.)]. U.S. Global Change Research Program, Washington, DC, USA, pp 
604-637, doi: 10.7930/NCA4.2018.CH16.

US EIA (Energy Information Administration), 2021: Guam Territory Energy 
Profile, updated 18 Feb 2021, accessed 17 Mar 2021, https://
www.eia.gov/state/print.php? sid=GQ.
              Questions Submitted by Representative Graves
    Question 1. I am concerned that the creation of new Federal 
programs may result in duplication with existing programs, diluting 
funding availability and potential impacts. Are existing programs 
failing to meet these needs? If so, could they be reformed to better 
support current inadequacies? Please provide specific examples.

    Answer. The Insular Area Climate Change Act will add vital 
increased support for existing programs and fill certain important gaps 
for U.S. Pacific Island Insular Areas. Addressing energy planning needs 
with support from the Department of Energy specifically for insular 
areas will better direct, coordinate, and fund energy programs that are 
not sufficiently supported to achieve comprehensive planning and 
management. (For example, comprehensive energy planning for the CNMI by 
the Commonwealth Utilities Corporation started in 2015 but later 
stalled due to disaster recovery and the need for technical 
assistance.) Also, the creation of the Climate Change Insular Research 
Grant Program within NOAA would expand critical climate monitoring by 
providing grants to institutions of higher education and research 
entities. This is much needed in a region that lacks fine-scale climate 
projections and has only a few climate datasets suitable for 
understanding climate and the shifts taking place.

    Some federally sponsored regional programs not covered in the draft 
bill are successful and currently provide effective support to 
governments and managers to address climate risk. These programs could 
be expanded with further funding and include:

    <bullet> The NOAA Regional Integrated Sciences and Assessments 
            (RISA) program supports 11 RISA teams in regions across the 
            U.S. that help expand and build the nation's capacity to 
            prepare for and adapt to climate variability and change. I 
            work as Sustained Climate Assessment Specialist at one RISA 
            team, the Pacific RISA, which serves Hawaii and the U.S.-
            Affiliated Pacific Islands. We partner with public- and 
            private-sector user communities to provide innovative 
            services, products, and tools to enhance the use of science 
            in climate-related decision-making.

    <bullet> The National Climate Adaptation Science Centers (NCASC), 
            funded by the Department of the Interior and managed by the 
            USGS, currently disseminate Federal funding for academic 
            research that can be applied in local management decisions. 
            We coordinate and partner with the Pacific island Climate 
            Adaptation Science Center, a consortium that includes the 
            University of Hawaii and the University of Guam.

    <bullet> The U.S. Global Change Research Program (USGCRP) 
            coordinates a quadrennial assessment of climate risk to the 
            U.S. economy, key sectors, and the environment. Some 
            reporting requirements of the bill might be more 
            efficiently accomplished if done as part of assessments 
            that USGCRP coordinates.

    Question 2. Insular areas are unique in many ways, including 
energy. These areas are largely dependent on imports for energy--
resulting in high costs, reduced energy security and vulnerability to 
supply chain disruption. Distributed generation and renewables are a 
very good fit for the natural resource availability of many of these 
areas. However, my concern is that the Federal Government would be 
mandating a singular approach. Even if you were to dramatically 
increase renewables, does it make sense to keep the door open for other 
energy options?

    Answer. I would not advocate an approach that rules out any viable, 
resilient energy strategy, especially in a region that is so vulnerable 
to acute and chronic stressors. The Insular Area Climate Change Act in 
no way precludes any option that may assist in the transition away from 
carbon-based fuel sources, however specific support for renewable 
energy is needed. The Pacific Islands lag most U.S. States in renewable 
energy development and the new jobs that it creates. Without the 
involvement of Federal programs and support, comprehensive energy 
planning, research, and development may further stall in U.S. Pacific 
Island Territories, as they struggle to recover from the collapse of 
tourism, the main economic driver.
    The costs of continued reliance on fossil fuels for islands go 
beyond reduced energy security and risk of supply chain disruptions. 
While issues associated with importing energy sources do leave islands 
in a precarious position, the impacts of climate change uniquely 
threaten islands, and some islands may even cease to exist. This 
situation makes the global transition to renewable, low-emission energy 
sources urgent. Islands can be hubs of innovation for sustainable, 
resilient energy systems, providing useful experience for the energy 
and utilities industry throughout the United States.

    Question 3. A primary reason for a government mandates is that a 
desired outcome does not make financial sense over the long term. Is 
that the case--would renewable energy be more expensive over the long 
term? If not, what is the benefit of having the Federal Government 
impose such mandates (if it potentially ties the hands of these areas 
should a better option come along in the future)?

    Answer. The Act's proposed Office of Insular Area Energy Policy 
(Section 401) and Comprehensive Energy Plans (Section 402) would 
involve comprehensive review of energy costs in the Territories, with 
the mandate to ``reduce or stabilize energy costs in the Insular 
Areas'' (page 15, lines 18-19). I see no mandate in the draft Insular 
Area Climate Change Act that would exclude any energy source. Rather, 
the Act calls for a comprehensive look at the initial, current, and 
future planned sources of energy, including both renewable and imported 
sources.
    Renewable energy has become more cost competitive as its use has 
grown. However, further incentives are needed in island areas where 
resources for new capital investments are limited. Jobs in the 
renewable energy sector have also seen tremendous growth in the past 
decade, and the Act would enable the Insular Areas to access this job 
growth. Recent figures show renewable energy employs about 850,000 
people in the U.S. (not including some 2.3 million jobs in energy 
efficiency). Wind turbine service technician is a fast-growing 
occupation according to the U.S. Bureau of Labor Statistics.
    Energy security is critical to the Pacific Islands' future economic 
development and sustainability. A trained workforce to develop and 
expand energy industries and energy-efficient technologies will play a 
critical role in achieving economic stability for the Pacific Islands.

                                 ______
                                 

    The Chairman. Thank you very much. I appreciate your 
testimony.
    Let me now ask Dr. Austin Shelton, Director, University of 
Guam Center for Island Sustainability, for your comments.
    Doctor, the floor is yours.

STATEMENT OF AUSTIN SHELTON, PH.D., DIRECTOR, CENTER FOR ISLAND 
       SUSTAINABILITY, UNIVERSITY OF GUAM, MANGILAO, GUAM

    Dr. Shelton. Chairman Grijalva, Ranking Member Westerman, 
and distinguished members of the Committee, hafa adai. My name 
is Austin Shelton, and I am a marine and environmental 
scientist serving as the Director of the University of Guam 
Center for Island Sustainability and Guam Sea Grant and also 
co-chair of the U.S. Climate Strong Islands Network.
    Instead of heavy climate statistics and data, which I am 
sure my fellow witnesses and I are submitting to you all in 
writing, I would like to start off with some counterintuitive 
thoughts about islands.
    Under the weight of climate change impacts, biodiversity 
loss, debilitating storms, and swallowing seas, islands are not 
sinking. Strong and resilient, islands are rising.
    Traditional celestial navigators remind the world that 
islands were never isolated. Oceans connected us for millennia. 
Now, a vast network of undersea fiber optic cables make islands 
some of the most digitally connected places in the world. While 
the pandemic dictates that we plant our feet one place on the 
ground, we connect across the planet here on screens to share 
glimpses of what a brighter future could look like.
    Islands are rising.
    Since the start of nonindigenous colonial periods, islands 
suffered high rates of chronic conditions and communicable 
diseases. Now, during the most challenging global health 
pandemic, islands are among the safest places in the world.
    Islands are rising.
    I would like to thank Chairman Grijalva for introducing 
this legislation and thank the Members for considering the 
critical support it would provide for climate change planning, 
mitigation, and adaptation in U.S. island territories and 
Freely Associated States.
    The University of Guam Center for Island Sustainability was 
established in 2009 to lead and support the transition of our 
island region toward a sustainable future, and our center fully 
supports the legislation and is pleased to offer comments.
    Echoing my fellow witnesses, climate change impacts to our 
nation are disproportionate. Islands contribute the least to 
the causes of climate change, yet we experience the brunt of 
its impacts, in the form of frequent and severe storm events, 
droughts, flooding, and coral bleaching. Islands are victims 
and we are suffering, but we also have lots of knowledge and 
innovations to share as bright spots for the nation in the 
fight against climate change.
    That is why I say to you that islands are rising. It is the 
theme of our upcoming University of Guam Conference on Island 
Sustainability, which last year brought together thousands of 
islanders from around the globe virtually.
    And one island innovation example that we learned through 
the conference network last year was solar schools in Puerto 
Rico. Following Hurricanes Irma and Maria, over 100 schools 
were equipped with solar PV and battery storage. The project 
can serve as a roadmap to resilience for other island 
communities that we would love to follow in Guam with the 
resources to be provided through this legislation.
    After disasters, schools become community shelters and 
command centers. Right now, schools are COVID-19 testing, 
vaccination, and food distribution sites. Upgrading school 
infrastructure with solar photovoltaics and battery storage 
will greatly improve resilience, as electricity is often wiped 
out for weeks or months following a disaster.
    Guam recently took a few big steps toward achieving a 
sustainable future, and we would be ready to take advantage of 
new opportunities provided through this legislation.
    In November 2019, Guam Public Law 35-46 was signed, 
mandating 50 percent renewable energy production for the island 
by 2035 and 100 percent by 2045.
    In September 2020, the Guam Green Growth Action Framework 
was formally adopted by the Governor of Guam, Lourdes Leon 
Guerrero. The initiative aligns with the 17 United Nations 
Sustainable Development Goals, serving as our island's most 
comprehensive action plan ever created to achieve a sustainable 
future. U.N. Sustainable Development Goal 13, climate action, 
is a common thread through the whole framework.
    A Guam Coral Reef Resilience Strategy and Guam Climate 
Change Resilience Commission were also recently formed. And 
thanks to the Pacific Island's Regional Climate Assessment in 
Zena's presentation, we know what climate impacts are here and 
on the way. With our island's initiatives in place and 
priorities identified, Guam is ready to hit the ground running 
with technical assistance and infrastructure development upon 
passage of this legislation.
    The University of Guam Center for Island Sustainability 
implements climate actions and serves as a convener of local, 
regional, and global partners. In solidarity, islands are 
uniting in common purpose through the Local2030 Islands 
Network, Climate Strong Islands Network, and other 
organizations to act on climate.
    Islands are distant, but they are not alone. Together, 
islands are rising.
    Si yu'os ma'ase, and thank you for the opportunity to 
testify.

    [The prepared statement of Dr. Shelton follows:]
Prepared Statement of Austin J. Shelton, Ph.D., Director and Assistant 
Professor, University of Guam Center for Island Sustainability and Sea 
                                 Grant
    Hafa Adai. My name is Austin Shelton, and I am a marine and 
environmental scientist serving as the director of the University of 
Guam Center for Island Sustainability and Guam Sea Grant.

    I would like to start off with some counterintuitive thoughts about 
islands.
                           islands are rising
    Under the weight of climate change impacts--biodiversity loss, 
debilitating storms, and swallowing seas--islands are not sinking. 
Strong and resilient, islands are rising.
    Traditional celestial navigators remind the world that islands were 
never isolated. Oceans connected us for millennia. Now, a vast network 
of undersea fiberoptic cables make islands some of the most digitally 
connected places in the world. While the pandemic dictates that we 
plant our feet one place on the ground, we connect across the planet 
here on screens to share glimpses of what a brighter tomorrow could 
look like. Islands Are Rising.
    Since the start of non-indigenous colonial periods, islands 
suffered high rates of chronic conditions and communicable diseases. 
During the most challenging global health pandemic, islands are among 
the safest places in the world. Islands Are Rising.
    I would like to thank Chairman Grijalva for introducing this 
legislation and thank the members for considering the critical support 
it would provide for climate change planning, mitigation, and 
adaptation in U.S. island territories and Freely Associated States. The 
University of Guam Center for Island Sustainability was established in 
2009 to lead and support the transition of our island region toward a 
sustainable future. Our center fully supports the legislation and is 
pleased to offer comments.
    Climate change impacts to our nation are disproportionate. Islands 
contribute the least to the causes of climate change, yet we experience 
the brunt of its impacts in the form of frequent and severe storm 
events, droughts, flooding, and coral bleaching. Islands are victims 
and we're suffering, but we also have lots of knowledge and innovations 
to share as bright spots for the nation in the fight against climate 
change.
    That is why I say to you that Islands Are Rising. It's the theme of 
our upcoming University of Guam Conference on Island Sustainability 
April 5-9, 2021, which last year, brought together thousands of 
islanders from around the globe virtually (over 16,000 on Zoom and 
social media from 80 countries, states, and territories).
    One island innovation example learned through the conference 
network was solar schools in Puerto Rico. Following Hurricanes Irma and 
Maria, Blue Planet Energy equipped over 100 schools with solar energy 
and battery storage. The project can serve as a roadmap to resiliency 
for other island communities that we would love to follow in Guam with 
the resources to be provided through this legislation. After disasters, 
schools become community shelters and command centers. Right now, 
schools are COVID-19 testing, vaccination, and food distribution sites. 
Upgrading school infrastructure with solar photovoltaics and battery 
storage will greatly improve resilience as electricity is often wiped 
out for weeks or months following a disaster.
           energy and sustainability policies and initiatives
    Guam recently took a few big steps toward achieving a sustainable 
future, and we would be ready to take advantage of new opportunities 
provided through this legislation. In November 2019, Guam Public Law 
35-46 was signed, mandating 50% renewable energy production for the 
island by 2035 and 100% by 2045.
    The Guam Green Growth (G3) Initiative is the most comprehensive 
public-private partnership ever created to achieve a sustainable future 
for our island. Executive Order 2019-23 brought together 97 working 
group members representing all sectors of society to create the Guam 
Green Growth Action Framework. The executive order assigned our Center 
for Island Sustainability to facilitate G3. Formally adopted by 
Governor Lourdes A. Leon Guerrero and Lt. Governor Joshua F. Tenorio in 
September 2020, the G3 Action Framework guides implementation of the 17 
United Nations Sustainable Development Goals in locally and culturally 
effective ways. U.N. SDG 13 Climate Action is a common thread through 
the whole framework. While G3 drives local action, it also places Guam 
at the global forefront of leadership in island sustainability. Guam is 
a founding member of the Local2030 Islands Network, through which 
islanders scale innovative, values-based, and resilient sustainability 
solutions worldwide. The G3 Action Framework is focused on five 
categories of action--1) Healthy and Prosperous Communities; 2) 
Educated, Capable, and Compassionate Island; 3) Sustainable Homes, 
Utilities, and Transportation; 4) Thriving Natural Resources; and 5) 
Sustainable Alliances. Cross-cutting elements are incorporated into all 
categories--climate action, resilience, public engagement, policy, and 
the core CHamoru values of respect, cooperation and treating others 
with kindness, generosity, and dignity.
    The Guam Coral Reef Resilience Strategy (GRRS) was adopted in 2018. 
The goal of the GRRS is to enhance the resilience of Guam's coral reef 
ecosystems and human communities to the impacts of climate change by 
2025. The GRRS is a tool for adaptive, strategic management; an 
opportunity to engage and inform key stakeholders; a mechanism to 
increase effectiveness of coral reef management; and a guide for 
funding projects designed to reach a common goal. The Guam Climate 
Change Resiliency Commission was formed in 2019. It is the objective of 
the commission to develop an integrated strategy to build resiliency 
against the adverse effects of climate change and to reduce 
contributing factors such as greenhouse emissions. Goals from both the 
GRRS and the Guam Climate Change Resiliency Commission are integrated 
into the G3 Action Framework.
                         funding considerations
    With our initiatives in place and priorities identified, Guam is 
ready to hit the ground running with technical assistance and 
infrastructure development upon passage of this legislation. However, 
non-federal cost sharing should not be a barrier to action on climate 
change. The Sec. 102 Non-Federal Cost Share Waiver provision to 
increase the waiver to $750,000 for territories would greatly increase 
the ability of islands to implement climate action projects. Though we 
have the scientific and institutional capacity to make significant 
impacts with additional federal funds, we often need to scale back 
grant proposal plans because local funds are limited and often tied up 
for other federal matching requirements. An increased match waiver 
would greatly expand our capabilities and allow islands to leverage and 
maximize other federal investments.
    The legislation's appropriations to NOAA for increased climate 
change, coastal management, and ocean and coastal mapping are most 
welcome. Please also consider additional appropriations to NOAA for the 
National Sea Grant College Program to achieve equity for insular areas. 
The National Sea Grant College Program enhances the practical use and 
conservation of coastal, marine and Great Lakes resources in order to 
create a sustainable economy and environment. Puerto Rico is currently 
the only U.S. territory with a full-status Sea Grant College Program. I 
serve as the director of the Guam Sea Grant Coherent Area Program, and 
we will soon undergo a review for Institutional Status to increase our 
base funding. CNMI, American Samoa, USVI, and the Freely Associated 
States do not have their own Sea Grant Programs.
    The world is at the cusp of a green industrial revolution with the 
unfolding of new technological advances in 5G Internet, renewable 
energy, and emission-free transportation. In addition to climate change 
planning and research, U.S. island territories and the FAS urgently 
need assistance with the build-out of infrastructure to make a swift 
transition into the new green industrial revolution. The proposed 
provisions for renewable energy and sustainable infrastructure grant 
will support new green jobs, increase climate resilience, and lower 
fossil-fuel emissions.
                            island partners
    The University of Guam Center for Island Sustainability implements 
climate actions and serves as a convenor of local, regional, and global 
partners. In solidarity, islands are uniting in common purpose through 
the Local2030 Islands Network, U.S. Climate Strong Islands Network, and 
other organizations to act on climate. I suggest adding representatives 
of these networks in a member or advisory capacity to the Insular Area 
Climate Change Interagency Task Force in Sec. 101.

    Islands are distant, but they are not alone. Together, Islands Are 
Rising.

    Si Yu'os Ma'ase and thank you for introducing this legislation and 
providing me the opportunity to testify.

                                 ______
                                 

  Questions Submitted for the Record to Dr. Austin Shelton, Director, 
          University of Guam, Center for Island Sustainability
              Questions Submitted by Representative Sablan
    Question 1. Widespread bleaching and mortality due to warming sea 
temperatures have become common occurrences in the region. Can anything 
be done to protect and restore the precious, vital coral reefs of the 
insular areas? How does this bill help?

    Answer. Coral reefs provide immense ecological, economical, and 
cultural benefits to islands. Guam and the CNMI are home to the most 
diverse coral reefs in the United States, with more species of coral 
than Hawaii and the entire Caribbean combined. Bleaching killed 34% of 
Guam's coral reefs between 2013-2017, and it was likely similar in the 
CNMI. In order to end widespread bleaching and mortality before coral 
reefs are completely decimated, the U.S. and global community must 
rapidly reach net zero carbon emissions. While new national policies 
and global accords work to achieve carbon neutrality, funding to 
improve coral resilience is essential.
    Resilience is achieved through direct actions taken to reduce local 
environmental stressors, such as coastal pollution, nutrient loading, 
and land erosion and subsequent sedimentation on coral reefs. This bill 
states that coral reef prize competitions should be established in 
federal agencies, but it is unclear whether new funding sources will be 
appropriated for these purposes or take funding from other programs. 
The proposed local matching funds waiver will be helpful to increase 
local access to federal funds in insular areas, but new large 
investments for coral resilience are also needed. For example, the 
majority of current funding from the NOAA Coral Reef Conservation 
Program is used only for U.S. Coral Reef Task Force Priority Sites, 
which is a very small percentage of total coastal area in the insular 
areas. This leaves the majority of the local environmental stressors in 
the rest of island territories and FAS often completely neglected.
    Any new funds for coral resilience that this legislation may 
provide should go directly to natural resource agencies, non-
governmental organizations, and institutions of higher learning based 
in insular areas. Islands should not have to compete with institutions 
in continental states for coral resilience funds.

    Question 2. How can the insular areas best build their respective 
local capacities to ensure coral reef ecosystems conservation and 
restoration projects are effectively managed and maintained?

    Answer. An increase in funding from the NOAA Coral Reef 
Conservation Program, DOI Office of Insular Affairs Coral Reef 
Initiative, US EPA, etc. to create more positions at local government 
natural resource agencies will ensure better management and maintenance 
of coral reef conservation and restoration projects.
    Local capacity of trained individuals can be increased with more 
funding for place-based K-12 environmental education and STEM pathway 
funding for colleges and universities. National Science Foundation 
EPSCoR and INCLUDES programs are providing over 100 opportunities for 
local students in marine and environmental students in Guam over the 
next few years. Increased funding to programs such as these should be 
considered.
    University of Guam Sea Grant is providing some additional research 
and student opportunities each year. Equitable funding to all 
territories and FAS from the National Sea Grant College Program should 
be considered. As mentioned in my earlier written testimony, only 
Puerto Rico is the only insular area that has a full-status Sea Grant 
College Program. Guam is two steps behind with only a Sea Grant 
Coherent Area Program. CNMI, American Samoa, USVI, and all the FAS lack 
their own Sea Grant Programs. A $2 million investment per year for each 
territory and FAS could provide for full Sea Grant College Programs in 
all insular areas. This would provide critical research, extension, and 
education services for islands on the frontlines of climate impacts 
such as coral bleaching.
             Questions Submitted by Representative DeGette
Background
    Rep. DeGette's Clean Energy Innovation and Deployment Act includes 
a provision (Section 130 of H.R. 7516 in the 116th Congress) that may 
be of great benefit to people living in U.S. territories, as well as on 
islands and in remote areas worldwide.
    The provision would require the Department of Energy (DOE) to 
establish a certification program for electricity-related technologies 
for use in remote communities. Companies whose products were certified 
could use that fact in marketing the technologies, much as do the 
recipients of DOE's Energy Star label. Facilitating the deployment of 
these technologies would make modern electricity services more 
affordable, reliable, and resilient to households in remote areas, and 
reduce demand for expensive imported fossil fuel-generated electricity 
and the associated carbon emissions.
    Qualifying technologies would include those that can generate 
electricity off-grid (such as solar panels), those that store energy, 
and highly efficient appliances, including lights, cell-phone chargers, 
computers, fans, refrigerators, stoves and ovens. DOE would only 
certify a technology determined to function properly; generate no 
greenhouse gas emissions; be affordable, reliable, durable, safe, and 
protective of human health and the environment; be compatible with 
other technologies relevant to its functioning, including those which 
have been similarly certified; and be available for deployment at 
commercial-scale throughout the territories and states of the United 
States.
    There is already a market for these kinds of technologies, 
especially in developing countries, but many of the products being 
marketed today do not work well, are sold on the basis of fraudulent 
claims, or are not compatible with adjacent technologies (for example, 
a solar panel not being compatible with a battery). Rep. DeGette's 
measure would make DOE the validator of these technologies, thus 
driving their innovation, increasing their quality, protecting 
consumers in the United States and globally, and facilitating the 
deployment of affordable reliable resilient climate-friendly 
technologies to communities in the United States, and around the world, 
that need them the most.

    Question 1. In addition to being on the front lines of climate 
change, are communities on your islands paying much higher electricity 
rates due to the fact that most electricity is generated from imported, 
expensive, and, in many cases, polluting fossil fuels?

    Answer. Guam's rate of electricity per kwh is on the lower end 
compared to other islands in the Pacific (https://guamccu.org/wp-
content/uploads/2020/12/gpa_ar_ 2019.pdf). Imported diesel is what 
fuels most of the energy demand, and the Public Utilities Commission 
just authorized the building of a new 180MW diesel burning powerplant. 
While the current dollar cost is not currently alarming, we will be in 
a precarious situation for decades to come with continued reliance on 
imported fossil fuels and its global price fluctuations instead of 
capturing more renewable sources of energy.

    Question 2. Are the electric grids on your islands vulnerable to 
disruption by the effects of climate change, in particular increasing 
storm intensity, water cycle disruption, average temperatures, and sea 
level rise?

    Answer. Yes, Guam's electric grid is vulnerable to disruptions. 
Residents can lose electricity for weeks or months following storms, 
which is predicted to be more frequent and severe due to climate 
change. Most power lines are above ground and exposed to high winds 
adding to the vulnerability. Existing power plants are located at sea 
level, close to the coastline.

    Question 3. Do you believe this puts an additional and unnecessary 
financial strain on those living on your islands?

    Answer. Yes, the vulnerability of the electric grids adds to 
electricity costs of island residents.

    Question 4. Given that, do you think there might be a market on 
your islands for affordable reliable resilient equipment to generate 
and use zero-emitting electricity, reducing dependence on expensive 
fossil fuels and the vulnerable electric grid?

    Answer. Yes, more resilient, zero-carbon-emitting technology would 
certainly be welcomed to reduce vulnerability and reliability on fossil 
fuels. Guam's Governor signed a 100% renewable energy by 2045 mandate 
into law in 2019. It is the first law of its kind in any U.S. 
territory. We need all the support possible from Federal policies and 
programs to help us achieve the ambitious mandate.

    Question 5. Do you think certification of this kind of equipment by 
the U.S. Department of Energy, as described in the Background section, 
would increase consumer confidence in it and thereby promote its use on 
your islands?

    Answer. The certification program will be helpful. However, 
individual consumer purchasing of appliances will not be enough to 
reach zero-emissions by 2050. Along with the certificate program, 
federal policies should provide further incentives to ensure adoption 
of the new technologies by local power agencies and commissions.
              Questions Submitted by Representative Graves
    Question 1. I am concerned that the creation of new Federal 
programs may result in duplication with existing programs, diluting 
funding availability and potential impacts. Are existing programs 
failing to meet these needs? If so, could they be reformed to better 
support current inadequacies? Please provide specific examples.

    Answer. U.S. island territories and Freely Associated States are on 
the frontlines of climate change-generated natural disasters and 
impacts. Existing federal programs are inadequate to achieve the impact 
necessary to address the current and future threats to communities, 
infrastructure, and natural resources. For example, current funding 
from the NOAA Coral Reef Conservation Program is extremely limited and 
only used for U.S. Coral Reef Task Force Priority Sites, which is a 
very small percentage of island coastal areas. This leaves the majority 
of the local environmental stressors in the rest of island territories 
and FAS often completely neglected. Significantly larger and dedicated 
investments to island infrastructure and natural resources is the 
reform needed, and this proposed legislation is helping to address 
that.

    Question 2. Insular areas are unique in many ways, including 
energy. These areas are largely dependent on imports for energy--
resulting in high costs, reduced energy security and vulnerability to 
supply chain disruption. Distributed generation and renewables are a 
very good fit for the natural resource availability of many of these 
areas. However, my concern is that the Federal Government would be 
mandating a singular approach. Even if you were to dramatically 
increase renewables, does it make sense to keep the door open for other 
energy options?

    Answer. In my understanding of the legislation, the door is not 
closed to existing energy options. This legislation helps shift 
dependence on imported fossil fuels to local, renewable energy 
production. Every dollar spent on imported fossil fuels (which mostly 
come from Singapore in Guam's case) is a dollar exported from the local 
economy of the U.S. territory. The shift to local renewable energy 
production is critical for providing energy resilience and cost-savings 
to island communities.

    Question 3. A primary reason for a government mandates is that a 
desired outcome does not make financial sense over the long term. Is 
that the case--would renewable energy be more expensive over the long 
term? If not, what is the benefit of having the Federal Government 
impose such mandates (if it potentially ties the hands of these areas 
should a better option come along in the future)?

    Answer. No, renewable energy will not be more expensive over the 
long term. Renewable energy will save money over the long term. 
Renewable energy production in Guam will allow locally generated 
dollars, along with federal aid provided to the territory, to remain in 
the local economy instead of being sent off to Asia for the importation 
of fossil fuels. A rapid shift to renewable energy today will also 
avoid future infrastructure repair expenses. If carbon emissions 
continue, islands will experience more climate-related impacts, such as 
severe storms and rising seas. Because of the cost of future 
infrastructure repairs, any dollar we think we're saving today with 
fossil fuels, is really just stealing from our future generations.

                                 ______
                                 

    The Chairman. Thank you very much, Doctor.
    Let me return to Commissioner Oriol from the U.S. Virgin 
Islands Department of Planning and Resources--the technical 
difficulties have been dealt with--to finish his testimony that 
he was unable to do so at that time.
    Mr. Oriol. Thank you, Chairman Grijalva. And thank you for 
allowing me to navigate through these small island issues that 
we have down here.
    I will just return to page 4 of my testimony.
    The U.S. Virgin Islands is very supportive of the coral 
reef prize competition authorized under Title I, Section 103 of 
the bill. As the Caribbean Islands are faced with battling the 
effects of the stony coral tissue loss disease and the Pacific 
Islands are increasing efforts for restoration in response to 
the 50 percent loss of coral in the last 6 years due to 
bleaching, awarding funds supporting innovative ideas for 
research and conservation in the insular areas will provide a 
great benefit for the management of coral reef ecosystems.
    The USVI would ask that the language also include 
restoration in addition to research and conservation, as we 
work with partners in more active management for coastal coral 
reef ecosystems that protect our coasts and service the 
community with our food, economy, and quality of life.
    Coastal water quality is both a human health and natural 
resource management issue that will be significantly impacted 
by climate change. Climate will impact available drinking water 
and pose increased risks from stormwater discharge. Funding 
should be earmarked to upgrade the infrastructure to ensure 
adequate drinking water supply and effectively manage the 
volume and quality of ocean discharge from stormwater to 
protect coastal coral reef ecosystems.
    Under Title IV, Section 405, as it relates to the 
opportunities for the development of offshore wind, the USVI 
would ask that consideration for the language to include wave 
energy production be included. The monitoring buoys, to include 
those that are part of the Integrated Ocean Observing System, 
suggest that there is great potential for wave energy 
generations in the U.S. Virgin Islands. This potential may 
exist beyond the territorial limits of the USVI in the U.S. 
EEZ, and, as such, we would not want to limit the potential for 
research and investment only to wind production.
    As it relates to Title V, Section 503, for the development 
of an insular area sustainable infrastructure grant program, 
again, we highlight the significant amount of funding 
associated with this program which would allow the islands to 
make significant improvements to the infrastructure systems.
    We would ask that language also be considered such that 
each insular area receive assistance from FEMA to standardize 
the hazard mitigation package that will be used to respond and 
to restore coastal natural resource loss after future natural 
disasters to maintain coastal protection rather than such loss 
being on a case-by-case basis.
    Lastly, on behalf of the insular family, I would like to 
thank the bill sponsor for language in Title I, Section 102, 
that proposes increasing the cost-share match waiver from 
$200,000 to $750,000, as well as the many sections calling for 
the waiving of the match requirement for the different 
programs. This would not only impact our programs covered under 
this bill but across many of our territorial programs 
altogether.
    In conclusion, I would like to thank you, Mr. Chair, and 
the members of the Committee for the opportunity to address the 
proposed Insular Area Climate Change Act. There are many 
benefits to the people of the insular areas and territories 
that can be realized from the passage of this bill.
    This comprehensive strategy to address climate impacts to 
the islands will result not only in improvement of our natural 
and built systems but will also improve our economic, social, 
and cultural systems as well, providing a sound legacy for 
future generations. We look forward to Congress' favorable 
consideration of this bill.
    Thank you very much.

    [The prepared statement of Mr. Oriol follows:]
     Prepared Statement of Mr. Jean-Pierre L. Oriol, Commissioner, 
Department of Planning and Natural Resources, Government of the United 
                         States Virgin Islands
    Thank you Representative Grijalva for the opportunity to testify in 
support of the proposed ``Insular Areas Climate Change Act'' on behalf 
of the US Virgin Islands. Whether it is the 2015 federally-declared 
disaster for drought in the US Caribbean, the impact of Hurricanes Irma 
and Maria to Puerto Rico and the US Virgin Islands in 2017, and 
Tropical Cyclone Gita in American Samoa or Super Typhoon Yutu in the 
Mariana Islands in 2018--the people of the Insular Areas and the 
Territories of the United States are no strangers to damaging events 
associated with climate change. Our islands make minimal contributions 
to greenhouse gas emissions, yet they are experiencing overwhelming 
ecological, economic and cultural impacts from global climate change, 
which will dramatically increase over the next several decades. The 
combined effects of sea level rise, ocean acidification, increased 
storm intensity and frequency, significant changes in rainfall, coral 
bleaching, and temperature-induced changes in the distribution of ocean 
productivity and fisheries are of great concern to all of the Insular 
Areas, and require addressing infrastructure improvements as well as 
sustainability and climate change adaptation planning.
    Addressing climate change in an effective and timely manner is one 
of the most pressing challenges where sound environmental policy is 
also the best economic policy, and addresses key quality of life issues 
for present and future generations. For the US Virgin Islands, as we 
recover from the devastation suffered from two Category 5 hurricanes, 
we are focused on incorporating long-term resilience into our everyday 
way of life. The US Virgin Islands is involved in several initiatives 
related to assessing the impacts from climate change on our Territory. 
In conjunction with the University of the Virgin Islands, using funding 
from NOAA's Office for Coastal Management, the VI's Coastal Zone 
Management Program is developing a Coastal Vulnerability Index which 
will identify our susceptibility to different climate-related events 
such as sea-level rise, tsunamis, storm surge, drought, coastal 
flooding and coastal erosion; DOI's Office of Insular Areas has 
provided funding to the Territory through its Coral Reef Initiative to 
install ocean acidification monitors at our long-term monitoring sites, 
and has also provided funding to the Territory for a 50 kW microgrid at 
one of our hurricane shelter sites; the US Department of Energy is 
partnering on many initiatives with the Virgin Islands' Division of 
Energy, including an energy rebate program, our ``Sun Power'' grant 
program and providing technical assistance with our Comprehensive 
Energy Strategy; the GVI is receiving support from FEMA's Hazard 
Mitigation Program for the updating of our Hazard Mitigation Resilience 
Plan, which identifies threats across all sectors and strategies to be 
implemented as part of our long-term resilience; and last, but not 
exhaustive, I would also like to recognize the support given to us from 
the Department of Housing and Urban Development, who is administering 
the Community-Development Block Grant-Disaster Recovery funding issued 
to the US Virgin Islands, which has a mandate for the US Virgin Islands 
to relate the activities in the third traunche of funds to the Hazard 
Mitigation Resilience Plan.
    The proposed bill provides five sections directing the actions of 
our federal partners in assisting the Insular Areas and Territories 
with planning and implementation of climate resilience activities. The 
US Virgin Islands is supportive of all the directives in Titles II to 
VI. Overall, the USVI sees the significance of this bill as the 
proposed creation of programs and steady funding sources specifically 
for the Insular Areas and Territories to address impacts related to 
climate change. We applaud the bill's sponsor for the language included 
in Title I, Section 101(c)(1) and (c)(2) related to ``equitable 
baseline funding.'' Many baseline formulas for assistance under federal 
programs use landmass or population as criteria in the allocation of 
funds, which means that the islands will likely always receive the 
least amount of funding; however, as islands, our areas are the most 
impacted by climate change, and therefore a different strategy should 
be implemented to assist our areas. It is our opinion that the passage 
of the Insular Areas Climate Change Act creates the equitable 
conditions for the islands to comprehensively address the challenges 
that will come as a result of climate change. I'd also like to 
highlight a few key points made in the bill . . .

    As there are a number of programs proposed in the bill for funding 
between the Territories and the Freely Associated States (FAS), we 
would ask that the distribution of the funds be provided in the 
language of the bill. As the FAS is also eligible for sources of funds 
not available for the Territories (such as other international 
programs), we would recommend an 85% share of funded programs be 
dedicated to the Territories and 15% funding to FAS.

    As a representative of the US Coral Reef Task Force, an inter-
agency body comprised of 12 federal agencies and 7 jurisdictional 
partners plus the FAS, with the goal of protecting the coral reef 
ecosystems under and affiliated with the United States, I have 
witnessed first-hand the benefits of inter-agency collaboration 
described in Title I. It reduces redundancies, streamlines processing 
and often results in more efficient use of funds for project 
implementation. The Task Force should be a partnership between the 
federal family and the jurisdictions with the goal of promoting 
adaptation and implementation of appropriate response measures to 
enhance resilience. Currently the Task Force only includes members of 
the federal family, but should include the islands as well.

    The USVI is very supportive of the Coral Reef Prize Competition 
authorized under Title I, Section 103 of the bill. As the Caribbean 
Islands are faced with battling the effects of Stony Coral Tissue Loss 
Disease, and the Pacific Islands are increasing efforts for restoration 
in response to the 50% loss of coral in the last 6 years due to 
bleaching, awarding funds supporting innovative ideas for research and 
conservation in the Insular Areas will provide a great benefit for the 
management of coral reef ecosystems. The USVI would ask that the 
language also include ``restoration'' in addition to research and 
conservation, as we work with partners in more active management of the 
coastal coral reef ecosystems that protect our coasts and service our 
community with food, economy and quality of life.

    Coastal water quality is both a human health and natural resource 
management issue that will be significantly impacted by climate change. 
Climate will impact available drinking water and pose increased risks 
from stormwater discharge. Funding should be earmarked to upgrade the 
infrastructure to ensure adequate drinking water supply and effectively 
manage the volume and quality of ocean discharge of stormwater to 
protect the coastal coral reef ecosystem.

    Under Title IV, Section 405 as it relates to opportunities for the 
development of offshore wind, the USVI would ask that consideration for 
language to include wave energy production be included. The monitoring 
buoys, to include those that are part of the Integrated Ocean Observing 
System, suggest that there is great potential for wave energy 
generations in the Virgin Islands. This potential may exist beyond the 
territorial limits of the USVI, in the US EEZ, and as such, we would 
not want to limit the potential for research and investment only to 
wind production.

    As it relates to Title V, Section 503 for the development of an 
Insular Area Sustainable Infrastructure Grant Program, again we 
highlight the significant amount of funding associated with this 
program which would allow the islands to make significant improvements 
to the infrastructure systems. We would ask that language also be 
considered such that each insular area receive assistance from FEMA to 
standardize the hazard mitigation package that will be used to respond 
to and restore coastal natural resource loss after future natural 
disasters to maintain coastal protection, rather than such loss being 
on a case by case basis.

    Lastly, on behalf of the Insular family, I would like to thank the 
bill sponsor for language in Title I, Section 102(a) proposing 
increasing the cost-share match waiver from $200,000 to $750,000, as 
well as the many sections calling for the waiving of the match 
requirement for the different programs. This would impact not only 
programs covered under this bill, but across many of our territorial 
programs.

    In conclusion, I would like to thank Representative Grijalva and 
the members of the Committee for the opportunity to address the 
proposed Insular Areas Climate Change Act. There are many benefits to 
the people of the Insular Areas and Territories that can be realized 
from the passage of this bill. This comprehensive strategy to address 
climate impacts to the islands will result, not only in improvement of 
our natural and built systems, but will also improve economic, social 
and cultural systems as well, providing a sound legacy for future 
generations. We look forward to Congress's favorable consideration of 
this bill.

                                 ______
                                 
    Questions Submitted for the Record to Mr. Jean-Pierre L. Oriol, 
    Commissioner, USVI Department of Planning and Natural Resources

Mr. Oriol did not submit responses to the Committee by the appropriate 
deadline for inclusion in the printed record.

             Questions Submitted by Representative DeGette
Background
    Rep. DeGette's Clean Energy Innovation and Deployment Act includes 
a provision (Section 130 of H.R. 7516 in the 116th Congress) that may 
be of great benefit to people living in U.S. territories, as well as on 
islands and in remote areas worldwide.
    The provision would require the Department of Energy (DOE) to 
establish a certification program for electricity-related technologies 
for use in remote communities. Companies whose products were certified 
could use that fact in marketing the technologies, much as do the 
recipients of DOE's Energy Star label. Facilitating the deployment of 
these technologies would make modern electricity services more 
affordable, reliable, and resilient to households in remote areas, and 
reduce demand for expensive imported fossil fuel-generated electricity 
and the associated carbon emissions.
    Qualifying technologies would include those that can generate 
electricity off-grid (such as solar panels), those that store energy, 
and highly efficient appliances, including lights, cell-phone chargers, 
computers, fans, refrigerators, stoves and ovens. DOE would only 
certify a technology determined to function properly; generate no 
greenhouse gas emissions; be affordable, reliable, durable, safe, and 
protective of human health and the environment; be compatible with 
other technologies relevant to its functioning, including those which 
have been similarly certified; and be available for deployment at 
commercial-scale throughout the territories and states of the United 
States.
    There is already a market for these kinds of technologies, 
especially in developing countries, but many of the products being 
marketed today do not work well, are sold on the basis of fraudulent 
claims, or are not compatible with adjacent technologies (for example, 
a solar panel not being compatible with a battery). Rep. DeGette's 
measure would make DOE the validator of these technologies, thus 
driving their innovation, increasing their quality, protecting 
consumers in the United States and globally, and facilitating the 
deployment of affordable reliable resilient climate-friendly 
technologies to communities in the United States, and around the world, 
that need them the most.

    Question 1. In addition to being on the front lines of climate 
change, are communities on your islands paying much higher electricity 
rates due to the fact that most electricity is generated from imported, 
expensive, and, in many cases, polluting fossil fuels?

    Question 2. Are the electric grids on your islands vulnerable to 
disruption by the effects of climate change, in particular increasing 
storm intensity, water cycle disruption, average temperatures, and sea 
level rise?

    Question 3. Do you believe this puts an additional and unnecessary 
financial strain on those living on your islands?

    Question 4. Given that, do you think there might be a market on 
your islands for affordable reliable resilient equipment to generate 
and use zero-emitting electricity, reducing dependence on expensive 
fossil fuels and the vulnerable electric grid?

    Question 5. Do you think certification of this kind of equipment by 
the U.S. Department of Energy, as described in the Background section, 
would increase consumer confidence in it and thereby promote its use on 
your islands?
              Questions Submitted by Representative Graves
    Question 1. I am concerned that the creation of new Federal 
programs may result in duplication with existing programs, diluting 
funding availability and potential impacts. Are existing programs 
failing to meet these needs? If so, could they be reformed to better 
support current inadequacies? Please provide specific examples.

    Question 2. Insular areas are unique in many ways, including 
energy. These areas are largely dependent on imports for energy--
resulting in high costs, reduced energy security and vulnerability to 
supply chain disruption. Distributed generation and renewables are a 
very good fit for the natural resource availability of many of these 
areas. However, my concern is that the Federal Government would be 
mandating a singular approach. Even if you were to dramatically 
increase renewables, does it make sense to keep the door open for other 
energy options?

    Question 3. A primary reason for a government mandates is that a 
desired outcome does not make financial sense over the long term. Is 
that the case--would renewable energy be more expensive over the long 
term? If not, what is the benefit of having the Federal Government 
impose such mandates (if it potentially ties the hands of these areas 
should a better option come along in the future)?

                                 ______
                                 

    The Chairman. Thank you, Commissioner. I am very glad that 
you were able to finish that part of your testimony and 
appreciate it very much.
    Now it is time for the Members to ask questions to our 
witnesses. And, again, the 5-minute limit will be in place for 
the Members.
    Let me recognize myself for the initial questions.
    Mr. Westerman. Chairman Grijalva? This is Representative 
Westerman.
    The Chairman. Ah, Mr. Ranking Member. I was trying to 
acknowledge you a couple of previous times. Now that I have you 
there, you are recognized.

  STATEMENT OF THE HON. BRUCE WESTERMAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ARKANSAS

    Mr. Westerman. Thank you. I could hear you, but apparently 
there was a problem getting my microphone unmuted, but it is 
working now.
    Thank you, Chairman. I just wanted to make some opening 
comments. And I want to thank the witnesses for being with us 
virtually today, as well as all the Members.
    As you are all aware, the U.S. territories and Freely 
Associated States are located in some of the most remote places 
on the planet. Aside from environmental and climate concerns, 
there are legacy issues with many of the insular energy 
systems, as has been highlighted by recent tropical storms. 
Each have individual needs and circumstances that should be 
given thoughtful consideration when Congress does its work.
    Although when creating long-term energy plans we should 
consider all energy sources and technologies, we also must be 
intellectually realistic, knowing that the greenhouse gas 
emissions from insular areas is hardly a blip in the global 
data.
    A healthy economy and a healthy environment are linked. 
Reliable, efficient, and affordable energy are critical to both 
the economy and the environment. Domestic production of both 
conventional and alternative energy sources ensures that the 
best global standards will be used to power our nation and our 
allies abroad, as the United States has some of the most 
stringent environmental and labor standards in the world.
    Even assuming renewable energy continues its recent growth 
trajectory, global demand for oil and natural gas is not 
expected to fade in the foreseeable future. In fact, the Energy 
Information Administration predicts a 40 percent growth in 
global natural gas consumption by 2050.
    Energy policy for insular areas must focus not only on 
renewability but also on reliability, efficiency, and 
affordability. The important question today is: What are the 
practical ways we can reduce pollution, promote a healthier 
environment, and not decimate the American taxpayers' and 
families' checkbooks, nor the economies and standard of living 
in insular areas?
    Although this is our first hearing this Congress, this 
Committee has held numerous climate change hearings in each of 
its Subcommittees the past several years. Most seem to be more 
about playing politics and the generation of headlines instead 
of workable solutions.
    What is clear is that a total energy transition by 2030 is 
estimated to eliminate nearly all of the current energy sources 
and the millions of jobs related to those sources. It is also 
clear that this would have an extraordinary cost.
    The draft bill by Mr. Grijalva authorizes millions of 
dollars for new grant programs and offices to push the insular 
areas toward the use of renewables and mitigate the effects of 
climate change. While the intent of doing something positive 
for the insular areas is commendable, I believe this bill 
somewhat misses the mark in some key areas.
    In my mind, there is nothing limiting the executive branch 
from forming a task force on its own to study access barriers 
the insular areas face and issue a report to Congress.
    It is vitally important to work with each of these islands' 
leaders and their Members in Congress to address each island's 
specific goals and needs. Strengthening existing programs and 
grants available should come before we see an expansion of 
government. Congress should be providing tools to the insular 
areas and allowing each of them to make their own decisions on 
what energy sources they use or want to develop.
    I am also concerned that we don't have any witnesses here 
today from the Administration. These officials would be able to 
speak to the capacity of existing programs and if increases are 
warranted. They would also be able to tell whether any of these 
new grant programs are redundant.
    I hope today's conversation will help promote sensible 
solutions that will push for greater coordination between 
Federal agencies that provide assistance to the insular areas 
and Freely Associated States.
    Chairman, I appreciate you coming back to me, with the 
technical problems that we had, and I look forward to a 
discussion with the witnesses today. I yield back.

    The Chairman. No problem, Mr. Ranking Member. Thank you for 
your comments.
    And I know the Ambassador needs to leave for his very 
important 1 o'clock meeting. If I may, one quick question.
    You state that climate change poses an existential threat 
to your country and you don't use those words lightly because 
the very existence of your island is challenged, quote/unquote. 
You say that the adaptation is central to your continued 
ability to exercise your national right of self-determination 
in the face of challenges created by climate change.
    Given the leadership role RMI has been playing on the 
international stage, particularly around the security issues 
that you mentioned, to highlight the issues you face as a 
result of climate change that you have done, what lessons can 
you share that could be helpful in our efforts to adapt to a 
new reality?
    And, with that, Mr. Ambassador, let me ask you for whatever 
response you might have, sir. And I know that you leave after 
your answer, but I appreciate your time and making time for us 
today.
    Ambassador Zackios. Thank you very much, Mr. Chairman, for 
that very important question. And, of course, the Marshall 
Islands, as you have correctly said, has not only raised these 
issues at the regional and global levels on the existential 
threat that climate change does, but the Marshall Islands has 
also worked with multilateral institutions to address the issue 
of climate change.
    As I mentioned in my oral testimony and in the written 
testimony, the Marshall Islands is part of a four atolls work 
that is looking into elevation of islands in the four atolls 
that are mostly at risk: that is the Marshall Islands, 
Seychelles, Maldives, and Tarawa. We are working very closely 
in that effort.
    We have also looked at, given the studies from the 
University of Hawaii and others, elevation of islands so that 
our populations can relocate because of the threats that 
climate change poses. We have done energy and national 
strategy. We were the first to provide our national determined 
contribution. We are looking at renewable energy independence 
in 2050, coal independence in 2020, and these are some of the 
measures that we have. We continue to advocate the importance 
of climate change and how that affects us.
    In the case of the Marshall Islands, we see inundations 
almost every year and at every cycle of them all. So, it is a 
real threat to us, and all these efforts are being taken. And 
given that we have a very important and key infrastructure for 
the United States in the Marshall Islands, as stated, the 
Ronald Reagan Ballistic Missile Defense Site, island elevation 
is something that is very important.
    There was a study by George Washington University on 
elevating islands in the Marshall Islands as well as in Roi-
Namur, and these are some efforts that we continue to work on. 
We are partners and have entered into and established 
organizations, including organizations to discuss and raise 
more awareness on the issue of climate change.
    So, these are some brief comments, Mr. Chairman. I hope I 
have been able to answer your question. But if there is need, 
we could always submit further in writing to your Committee. 
Thank you.
    The Chairman. If I may, Mr. Ambassador, one of the 
questions that I think invariably comes up is--do you really 
need to go this far in terms of the approach with not only this 
legislation, but other initiatives around climate change? And I 
think you bring a valid and unique issue, and I think the 
Defense Department will be studying that as well, now that they 
are free to do that.
    Is the effect on national security and defense, in terms of 
the assets and the investment that has already occurred, short 
term and long term, and then give any followup with regard to 
those two topics, national security and defense, and the 
importance of mitigating the issue of climate change with 
regard to Marshall Islands in particular in this question. But 
I think overall, if you could forward that to the Committee, 
because I think we lose sight of what that is going to cost 
both in terms of security, but also in terms of investment that 
has already occurred in those locations.
    With that, let me thank you, and I will save other 
questions for later on.
    And I now turn to Ranking Member Gonzalez-Colon, 
Commissioner, for any questions that you might have of our 
panelists.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman.
    I will go first with Secretary Machargo from Puerto Rico. I 
know in his statement he made a description of the climate 
change expert and advisory committee and whose members were 
there. And I would like to know, specifically, what are the 
initiatives of that committee for the near future? What is the 
resiliency to climate change on the island? What are the top 
three specific goals of that committee?
    Mr. Machargo. Yes. First, we want to hold community polls 
to get the input from the people on what measures we should 
take to tackle climate change and what are the ill effects of 
climate change in these communities. With that input from the 
communities, then the committee would be enacting a climate 
change resiliency plan. That, again, will be submitted for 
public hearings.
    The plan has some very stringent goals regarding the use of 
renewable sources for Puerto Rico. One of the methods of the 
law that we are implementing right now is to work with the 
General Services Administration from the Government of Puerto 
Rico to make sure that all vehicle purchases by the Government 
of Puerto Rico are either hybrid or electric cars.
    We are also working with the Energy Regulatory Commission 
to make sure that the Puerto Rico Electric Energy Authority is 
moving to renewable fuels for the power grid of Puerto Rico. We 
are also going to start a baseline greenhouse gas study, and 
our next step is also to have an economic study of the impacts 
of not having any climate change mitigation measures in Puerto 
Rico and what would be those effects on the economy.
    Miss Gonzalez-Colon. What is the most critical climate 
change related concern in Puerto Rico at this time?
    Mr. Machargo. I think it is the coastal erosion.
    Miss Gonzalez-Colon. Coastal erosion. And we accomplished a 
Army Corps of Engineer study for the island during 2017 and 
2018, that are still being conducted.
    One of the issues that you discuss in your statement was 
that Puerto Rico was eligible for a series of grants, including 
NOAA coastal zone management grants and coral reef conservation 
programs, among others, and the natural resources department, 
that you actually directly received funding in many of those 
programs. How has been your experience dealing at this time 
with NOAA, with Fish and Wildlife, the Department of the 
Interior, and EPA, regarding all those grants, and how do you 
compare that with FEMA?
    Mr. Machargo. We have an excellent relationship with Fish 
and Wildlife, EPA. We are getting Federal grants, working with 
them to achieve the goals of the Department. With FEMA, they 
take too long. There are still many facilities of the 
Department that have suffered damage from Hurricane Irma and 
Maria that have not been inspected by FEMA, so we cannot put 
them in working order. And the people are concerned why those 
facilities are not yet ready to serve the people, and instead 
that we are still working for FEMA. We are frustrated by that.
    Miss Gonzalez-Colon. So, we can say that your experience 
dealing with the agency, in NOAA, Fish and Wildlife, Department 
of the Interior, EPA, are dealing with the Department very 
diligently to work with climate issues, and you have been 
having good experience with them?
    Mr. Machargo. Yes, yes.
    Miss Gonzalez-Colon. Thank you. I know my time has expired, 
so I thank you.
    I yield back, Mr. Chairman.
    The Chairman. Thank you very much.
    We are going to proceed with the Members by seniority. Let 
me now turn to Vice Chair for Insular Affairs for the Full 
Committee, Mr. Sablan. The time is yours, sir. You are 
recognized.
    Mr. Sablan. Yes, thank you. And welcome to all the 
witnesses. Thank you for taking the time to submit testimony 
and for appearing today.
    Ms. Grecni, did I say that right? Ms. Grecni? Zena. Is that 
right? Can I call you Zena?
    Ms. Grecni. Yes, that is right.
    Mr. Sablan. OK. Thank you.
    Ms. Grecni. I am having a little bit of a connectivity 
issue. Sorry.
    Mr. Sablan. Thank you. One of the reasons I asked the 
Committee to include you as a witness is I was impressed with 
your institution's report on climate change in the Northern 
Mariana Islands, and also because you are able to make 
comparisons between Northern Marianas, Guam, and American 
Samoa, and, of course, they are Freely Associated States.
    And you alluded in your written testimony about the updates 
that are needed to the energy action plans to account for more 
recent technological advances, the landscape effect, and all of 
those things.
    So, I will ask you this, because I know it is important to 
all the witnesses and to all of the residents of the insular 
areas, that lowering the cost of electricity has been a long-
standing goal for all the insular areas, especially if 
greenhouse gas emissions can also be decreased.
    We have been successful in increasing funding for energy 
action plans mandated in Section 9 of Public Law 113-235. And 
the law requires the Department of the Interior to create a 
team of technical, policy, and financial experts to write an 
energy plan for each insular area and to help put the plans in 
action.
    The goal is to reduce reliance on expensive imported fuel 
replacing it with low-energy sources and to improve the 
efficiency of island power systems. The plans are to include a 
specific timetable and lay out how the changes can be financed. 
And every year, Interior is supposed to report to Congress on 
whether progress is occurring. And every year, representatives 
of the insular areas try to make sure that this program is 
funded.
    So, except for initial technical energy assessments about 
10 years ago and the awarding of small annual grants that some 
in Interior put out as if they come from their family estate, 
none of this requirement established by law is happening, none, 
zero. And there are no proposals, timelines, funding strategies 
to increase energy efficiency. There has been no substantial 
progress to move toward a reliable source of renewable energy, 
while increasing the recipients of energy infrastructure to 
extreme weather hazard.
    Let me ask you, and any of the witnesses could also chime 
in if they wish, will transferring this requirement that is now 
assigned to Interior, transferring it to the Department of 
Energy, as this deal proposes, would it help insular areas 
improve energy efficiencies and reduce cost? What do you think 
the insular areas need to meet renewable energy targets and 
protect island communities?
    And, Ms. Grecni, I will tell you, I appreciate your 
testimony. It is very well written, and your report was science 
and research based.
    So, if anybody has an answer--Ms. Grecni can start. I have 
a minute left.
    Ms. Grecni. Thank you, Vice Chair Sablan. It is really 
wonderful to hear that the products that we put out from the 
scientific community can be useful in practical decision 
making.
    I would just point out that fossil fuels make up almost 100 
percent of energy budgets for all of the U.S.-affiliated 
Pacific Islands, and those must be shipped in, so that is not 
cost effective or efficient. So, I think that there is a strong 
need for these energy action plans to really remain 
coordinated.
    My experience is not largely in energy; it is in science 
and research, in supporting decision making. But in that area I 
see that a lot of times we are working under unfunded 
initiatives, so people from the management sector and research 
sector are having to volunteer their time. They are having to 
put aside the day-to-day work and really focus on data and 
assembling and synthesizing research to even understand the 
impacts of climate change. So, if that is also the case in the 
energy sector, I can see that just having an influx of 
programmatic support would be very helpful.
    Mr. Sablan. My time is up, but if anybody else would like 
to answer that question in writing, I would really appreciate 
very much your support toward Chairman Grijalva's draft of this 
bill that he is proposing and remove that authority and 
responsibility from Interior into the Department of Energy.
    Chairman, my time is up. I yield.
    The Chairman. Thank you, Mr. Vice Chairman.
    And let me now turn to the Ranking Member of the Full 
Committee, Mr. Westerman, for his time. Sir, you are 
recognized.
    Mr. Westerman. Thank you, Chairman Grijalva. And thank you 
again to the witnesses for your time today.
    As we look at insular areas and energy systems, this is 
definitely an area that needs to be addressed, and I hope we 
can work as a Committee to address those areas, but I think we 
have maybe a difference of opinion on the best way to address 
these issues.
    Mr. Sablan talked about reliability and how important that 
is, and I think most people who connect to their energy systems 
are very concerned about the reliability and the affordability 
of those energy systems.
    Title V of this bill creates a renewable energy grant 
program under DOE, and it specifically says in there that the 
insular areas are free to choose--or it doesn't give them the 
freedom to choose what kind of energy sources they use. It 
specifically refers to renewable energy and says that it can't 
be generated from fossil fuels or nuclear energy, which I have 
always thought nuclear was one of the cleanest, most reliable 
sources of energy that we have.
    My first question is for Mr. Machargo, and it is, would you 
like more flexibility in the language to allow Puerto Rico to 
use these funds toward other sources?
    Mr. Machargo. Yes, we would like to have more flexibility. 
We are moving toward having a greater percentage of renewable 
energies, but the electricity regeneration in Puerto Rico, it 
needs to have some reliable baseload so the power can stay on 
when the renewables are not ready. So, I would agree with that 
recommendation.
    Mr. Westerman. And, as you know, in the United States, we 
have been able to cut back on emissions. We have actually 
decreased emissions more than the top 12 countries in the Paris 
Climate Accord combined without threatening the reliability 
actually by using more natural gas. And, again, thinking about 
Puerto Rico and the location to the Gulf and where a lot of our 
liquid natural gas exports would be originating from, would you 
support being able to use this funding to access LNG to use in 
Puerto Rico?
    Mr. Machargo. Well, we will support it if it is within the 
goals of Act 33 of the percentages of renewables versus the 
percentages of hydrocarbons, yes. And the remaining percent of 
hydrocarbon that the law allows--actually, if we are going to 
use hydrocarbon, it should be renewable natural gas.
    Mr. Westerman. And, Mr. Oriol, do you believe that insular 
areas should have a say in what energy projects they should be 
able to use this money for and that the money should not be 
limited?
    Mr. Oriol. Thank you for the question, Representative. I 
believe that our systems as they exist are already primarily on 
fossil fuels, so I think that the limitation to want to push 
renewables and possibly hybridize our systems is actually a 
better solution for the island destinations.
    And while we already have existing systems that will work 
on our fossils, we are trying to upgrade that infrastructure to 
be that cleaner burning capacity of multiple types, because I 
don't think that in areas where we have limited land capacity 
that we can rely on one single source across our territory.
    Mr. Westerman. Yes. I think we have seen that illustrated 
in a lot of places where we need multiple sources of energy to 
have that reliability. Also, affordability is something that I 
think is very important. And I am just wondering how much 
economics are actually considered or would be considered in 
these projects, and how much of a burden it would create on 
people on the islands to get their electricity so that it would 
not only be reliable, but also would be affordable.
    One area of renewable energy that I am a proponent of is 
using woody biomass, which also, when we look at Puerto Rico 
and the Virgin Islands and their proximity to the mainland, you 
could be a huge market for domestically produced wood pellets. 
But although it is not called out in the language, I am 
guessing woody biomass would be frowned upon as an energy 
source as well. So, I would open that up to anyone on the panel 
about your thoughts on using woody biomass as a fuel source.
    The Chairman. The time is up on those questions, and we 
will adjust and see if there is any response going forward.
    Let me now turn to the Chair of the Subcommittee on Energy, 
Mr. Lowenthal, for his questions. Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chair.
    I thank all the witnesses for being here. I am enjoying 
this tremendously and being educated myself.
    As we all know, the reason for this hearing is climate 
change is already bringing increased temperatures, sea-level 
rise, and 100-year extreme weather events are now occurring 
once a decade, not once every 100 years, and it is only going 
to get worse. Now talking about the insular areas surrounded by 
sea, populations largely in low-lying areas and largely 
situated in areas that are prone to both hurricanes and typhoon 
activities, climate change is going to continue to have an 
outsized impact on our territories.
    So, in all of your testimonies, many of you, both in your 
written and sometimes the oral testimony, and we have already 
had this very extensive discussion about the need and 
opportunities for expanded renewable energy projects and how 
the Insular Area Climate Change Act can help jump start such 
projects.
    And the bill creates, as we know, the interagency task 
force, new grant opportunities at different agencies for 
renewable energy projects, as well as the study and available 
leasing for offshore wind opportunities, all bringing exciting 
new opportunities for cleaner power sources for the 
territories, as well as greater energy independence.
    But I am interested in digging a little deeper into this, 
because some territories may be better suited for some 
renewable sources, while with proper siting, all of the 
territories may have the opportunities for several different 
technologies.
    Mr. Oriol, in your testimony, you mentioned the potential 
of wave energy in the Virgin Islands; Mr. Zackios, you 
mentioned the opportunities for solar in the Marshall Islands; 
and, Ms. Grecni, you have discussed solar and wind 
opportunities throughout the territories. I would love for each 
of you to briefly go into the renewable energy potential and 
where this bill will help and maybe where this bill may need to 
have some additions.
    Mr. Oriol, can we start with you, and, Mr. Zackios, and 
then Ms. Grecni, and, if we have time, from any of the other 
witnesses on this area. We are going to dig a little deeper 
into what is really the renewable potential that you see in the 
territories that you are here speaking about. So, I am going to 
start now.
    First, Mr. Oriol, can we start with you?
    The Clerk. Mr. Lowenthal, I believe he is having 
connectivity issues.
    Mr. Lowenthal. Oh, OK. Any of the others want to tell us a 
little bit more in depth about what are the potentials for 
renewable energy, dig a little deeper on the actual potentials 
and what you see--what kinds of renewable energies we are 
talking about.
    Dr. Shelton. Hello. This is Austin Shelton from the 
University of Guam.
    Mr. Lowenthal. Yes.
    Dr. Shelton. I would like to share, Congressman, that the 
potential that we have is to meet our mandates for 50 percent 
renewable energy by 2035 and 100 percent by 2045. Our power 
authority here in Guam is confident that they are going to be 
able to reach the 50 percent with existing technology and solar 
energy. And as more technologies are developed over the years, 
I think we are confident that we can get to the 100 percent by 
2045.
    The reason that this bill, I think, is important for us is 
because it will provide the critical technical assistance. So, 
we are looking forward to working with the Department of 
Energy, the national laboratories, to understand the potential 
for other technologies that will work.
    For example, in high school, I used junkyard materials to 
make energy from the ocean currents behind my house. So, it can 
be done cheaply in some instances, but we need the higher level 
technology to shift to the greener infrastructure, which I 
think is possible for islands in many different ways.
    Mr. Lowenthal. So, now you are going to look both at the 
addition and the technologies around solar and then really move 
and look at if there are other potential sources of energy 
also?
    Dr. Shelton. Correct.
    Mr. Lowenthal. Anybody else want to talk about what 
specific energy sources you are going to move quickly to, and 
what are the other opportunities that you see?
    Mr. Oriol. Hi. Good afternoon, Congressman. This is 
Commissioner Oriol again. I apologize for my bandwidth issues.
    The Virgin Islands is actually in the midst of a 
comprehensive energy strategy for the territory right now and 
working with a number of partners, NREL, in trying to determine 
what the best way forward for the territory is, which is going 
to be a diversified program.
    And what we do know is that with a territory population of 
100,000 people, we need to make a municipal system across that, 
because we are not going to be able to individually support 
what those costs are.
    So, this Act and the funding that is pledged toward the 
planning and then the infrastructure for it allows for multiple 
things to be thought of across that time frame. But then, also, 
because it is sustained funding, as technology evolves, we 
would then be able to access that funding and install that 
infrastructure that would allow us to diversify our grid across 
the territories.
    Mr. Lowenthal. Thank you.
    And I am going to yield back. Thank you very much, Mr. 
Chair.
    The Chairman. Thank you, Mr. Lowenthal.
    Let me now ask Mr. Gohmert, who is recognized for 5 
minutes.
    Mr. Gohmert. Thank you very much. I appreciate our 
witnesses. I appreciate it, Mr. Chairman.
    Dr. Shelton, you were talking earlier about Guam's capacity 
and the batteries that you are developing. And, by the way, I 
love your island. In fact, I love all the islands we have had 
Representatives from. But at Guam, I even loved being a single 
lover at Two Lovers Point out there, but you have a beautiful 
island.
    But I was wondering, I am from Texas, and what we have 
found is--and I don't want to be too elementary, but in severe 
storms, especially prolonged severe storms, solar doesn't end 
up being a very reliable energy source. And I still have 
confidence some day some bright mind is going to figure out how 
we can hold gigawatt electricity, massive amounts, and not lose 
much but hold it efficiently. And I think that that is the far 
greatest need we have. If we can hold massive gigawatt 
electricity--as you know, we can hold DC currents in low 
batteries, but we are not there. But when we can, our problems 
will be over, I think.
    But, in the meantime, you mentioned the batteries that you 
have, and I am wondering what is the capacity that you have? 
How much energy are you able to store and for how long?
    Dr. Shelton. Thank you for the question, Congressman 
Gohmert. I don't think I spoke about batteries, but I do know 
that the Guam Power Authority is developing a solar farm right 
now that should have around 100-something megawatts storage 
capacity. I think our total island need is in the megawatt 
range. We don't have--I mean, 200 something. I am sorry, I will 
find the correct numbers to you to submit in writing. But I 
think we are in the 100-megawatt range for the storage right 
now with that capacity.
    So, perhaps as islands can serve as an example, in a bright 
spot, with our lower energy needs, that the battery storage is 
actually more feasible here than in large-scale gigawatt states 
like Texas.
    Mr. Gohmert. I haven't seen a briefing recently. How many 
American troops do you have at Guam now? I was thinking some 
years back they were increasing those numbers, so it is 
important that we not only keep Guam powered for the good 
people of Guam, but also with the wonderful host that you have 
been to American servicemembers. Do you know about how many you 
have out there on the far end of the island?
    Dr. Shelton. No. I am sorry, Congressman. I don't want to 
take a guess at that. I know we have quite a few, but I will 
say that the Guam power--the Department of Defense is one of 
our Guam Power Authority's largest customers, and I think they 
have a good partnership with the reliability that Guam is 
providing for the Department of Defense's energy needs.
    Mr. Gohmert. OK. Well, I mean, back before nuclear energy, 
the Navy was the most intensive at developing battery capacity, 
but then when nuclear came along and submarines and ships 
shifted over to nuclear, that money and that effort at research 
failed, but now we have a new interest in that. I am hoping we 
will get there at some point.
    But we also learned in Texas, through our latest storm, 
that wind capacity can be so overwhelming that it becomes a 
nonfactor. So, I think the key to the renewables is if we can 
develop a way, whether it is a battery or some type of 
capacitor that can hold that energy, heck, we might even be 
able to capture some lightning to power things, but in the 
meantime, we have to struggle along.
    I wanted to ask Ms. Monzon--you are right, there have been 
two Category 5 devastating hurricanes. I mean, Puerto Rico has 
suffered before, but a Category 5 really is so devastating. 
With China set to double the number of coal-powered plants that 
they have and India continuing to just spew so much pollution 
into the air, ends up coming over to the United States, I am 
wondering what specific actions can the United States take that 
will stop Category 5 hurricanes?
    Ms. Monzon. Well, thank you for the question. This is not 
going to get any better from here. This is something that we 
have to understand. The hurricane trend of Category 4's and 5's 
is up, and unfortunately, this is going to be devastating for 
our islands. Before, we thought that we would have a Category 5 
almost every 100 years. Now, we are thinking perhaps 25, 20 
years, and we don't know. We are 3 months from starting a new 
hurricane season, and we are in a very fragile, fragile 
environment, because we are still recovering from Hurricane 
Maria, had an earthquake sequence, and are also under COVID. 
So, all our resources are compromised and are vulnerable to 
face another hurricane season.
    Mr. Gohmert. Well, and that is why I was hoping that you 
knew of something specific we could do to help reduce the 
Category 5. The last thing Puerto Rico needs is another 5. 
Anyway, hopefully at some point we will figure out what can be 
done to end Category 5's, but in the meantime, our hearts and 
our assistance goes to Puerto Rico. I know you are struggling. 
But my time is expired, and I appreciate your participation. 
Thank you.
    The Chairman. The gentleman yields.
    Let me now ask Ms. Leger Fernandez, Chair of the Indigenous 
Peoples Subcommittee for the Full Committee. Ms. Fernandez is 
recognized.
    Ms. Leger Fernandez. Good afternoon. Thank you so very much 
to our panelists, to Chairman Grijalva for this legislation, to 
the great questions that we are hearing that are illuminating 
what we must do.
    The stories of the risks of the sea-level rise, the ocean 
warming, the devastating hurricanes and cyclones, but also, 
that the islands are rising, right. The islands are rising. I 
liked hearing that because I think that we have much to learn 
and that your adaptation and response to build resiliency to 
get to 100 percent in 2045 is inspiring, and it might provide 
us lessons for action throughout the United States.
    So, in this bill, among other provisions, I am very 
supportive of the waiver of non-Federal cost-share requirements 
for some of the programs. I have worked on FEMA disasters with 
tribes and other communities in New Mexico, and we know that 
our most vulnerable, who suffer most from disasters, also have 
the fewest resources to rebuild in a green and resilient 
manner. So, I look forward to working with my Chair and 
colleagues to see if we can extend those exemptions to other 
communities in future legislation.
    Before the panel, I notice that the bill throughout has 
language to ensure the Federal agencies provide technical 
assistance to the communities. As you know, in New Mexico, we 
have the Los Alamos National Lab and Sandia National Lab. They 
are so interested in working on clean energy technologies such 
as renewables and microgrids.
    The Chair recognized that climate crisis is a national 
security threat and that these labs are tasked with addressing 
these national security threats. So, I wanted to see if any of 
you have worked with the labs or if you see that there is an 
opportunity working with these DOE labs on climate adaptation, 
designing energy infrastructure, geothermal, those new 
technologies that Mr. Shelton acknowledged we need to get to 
that 100 percent for 2045.
    This is a question for the panel. I don't know if Mr. 
Austin or if any of you want to take that up again.
    Dr. Shelton. Thank you, Congresswoman Fernandez. I can just 
make a quick comment that we haven't had the pleasure of 
working with the national labs based in New Mexico yet, but we 
have worked closely in the past with the National Renewable 
Energy Laboratory, which I believe is in Colorado, if I am not 
mistaken, and they helped us create our last energy strategy 
for the island.
    And we have just applied for technical assistance to create 
the roadmap to 100 percent renewable energy, so we are hoping 
that we will be considered favorably for that opportunity, and 
we look forward to learning about more technologies to achieve 
our 100 percent renewable mandate. Thank you.
    Ms. Leger Fernandez. Great. Well, I will raise the issue 
with our labs and make sure that they think about what we are 
doing in the territories.
    If anybody else wants to answer that, I would also then 
maybe talk a little bit about the microgrids and community 
resilience, especially with regards to community solar and for 
those individuals or communities who can't afford their own 
rooftop solar and battery. That is another issue that I think 
is really important.
    Can you, any of the panel, talk about how they are 
implementing that on the island and whether you think you need 
more support? Is everything in place for you with regards to 
that?
    Mr. Oriol. Good afternoon, Congresswoman. This is 
Commissioner Oriol from the U.S. Virgin Islands. To answer your 
first question, we are not working with the labs in the New 
Mexico area, but like Austin mentioned for Guam, the Virgin 
Islands is working extensively with the National Renewable 
Energy Lab based in Colorado. They are a part of our 
comprehensive energy strategy technical committee, and as I 
mentioned previously, we are working to diversify our grid. So, 
microgrids are, in fact, one of the strategies for us.
    If you are familiar with the U.S. Virgin Islands, we are a 
system of four main islands. And when one of the main islands, 
Saint Thomas, will shut down, then that will have effects on 
our neighboring island of Saint John and also Water Island.
    So, microgrids are, in fact, currently part of the strategy 
so that if, in fact, we do have a service interruption on the 
main island, the islands of Saint John, for example, which I 
believe were the furthest along on our microgrid right now, we 
would be able to still have the energy capacity to power its 
system and power the island. And we are looking at multiple 
areas to place microgrids rather than having everything tied 
back to the main plant in case of interruptions, that it is not 
disturbing the entire island all at one time.
    Ms. Leger Fernandez. Thank you for your answer, and my time 
is expired.
    I yield back.
    The Chairman. The gentlelady yields back.
    Let me now--Mrs. Radewagen. Representative, the time is 
yours.
    Mrs. Radewagen. Thank you, Mr. Chairman and Ranking Member, 
for your work in putting this hearing together. And thank you 
to the panel for your testimony.
    I also want to thank Chairman Sablan and Ranking Member 
Gonzalez-Colon as well for the efforts on behalf of the 
territories.
    The goal of the studies and funding grants outlined in the 
proposal to help prepare the territories to handle the effects 
of climate change is noble and worthwhile. And while I do have 
some concerns about parts of the draft bill we are discussing 
today, I am hopeful today's hearing will help us reach 
bipartisan solutions as we move forward.
    Let me begin by highlighting some of the unique challenges 
faced by American Samoa. Based on statistics from the 
University of Hawaii and briefings I have received in the past 
from our Sea Grant Fellows, the global sea-level rise averages 
one-eighth of an inch every year in American Samoa. However, 
the total real delta change for American Samoa is closer to an 
alarming three-quarters of an inch per year.
    So, actually, we have lost over 7 inches in the last 
decade, 10 percent from sea rise but 90 percent due to 
shrinking of our main island Tutuila, which is essentially a 
mountaintop arising from the sea. We are literally sinking due 
to volcanic activity and seismic shifting, and it is this 
shrinking effect which is the bulk of harm happening much 
faster than the sea-rise effect, which is somewhat unique to 
our principal island of Tutuila. As such, any resiliency 
initiatives for American Samoa should take this into 
consideration and prioritize buffering our seawall construction 
and preventing erosion.
    One of the other concerns faced by American Samoa is 
meeting our energy needs in a remote marine-based and dependent 
economy. Our territory knows better than anywhere else that a 
single hiccup in the oil supply chain can cause prices to rise 
or, worse still, leave us completely in the dark.
    It makes sense not to place all of our eggs in one basket, 
and alternate sources of energy play their part in filling 
those gaps. For example, the Island of Ta'u, in my home 
district, is almost 100 percent solar powered. They are 
completely off the regular grid and are using some of the 
latest in solar panel technology. That said, not all forms of 
energy are created equal. We are blessed to have abundant 
tropical sunshine, and that is a solution that works well for 
us.
    But I have some concerns about the one-size-fits-all 
approach this bill takes in places, particularly in regards to 
offshore wind farms. I supported wind energy initiatives for 
the territories in the past that give the territorial governors 
final discretion, and my office has been working with Ranking 
Member Gonzalez-Colon on her wind energy legislation for a 
while now.
    This draft bill, however, departs from past drafts as it 
mandates that the Secretary make at least one wind lease sale 
in each of the territories. The bill makes some efforts to 
consult with the territories' governors before the lease or 
sales. So, I would hope we can see some modification in this 
regard to weigh the governors' views more heavily when it comes 
to if, when, and where a lease or sale shall take place.
    My constituents have expressed concerns, many times to 
myself, our governor, and their local village leaders about the 
impact windmills will have on cultural land and sea traditions, 
scenic views, wildlife impact, and fishing access. Our fishing 
has been severely restricted with national sea monuments 
expansion. We also have several endangered species of birds and 
bats to think about.
    And aesthetic views from the shoreline mean much more in 
our island tradition. You see, we bury our dead, our loved 
ones, right beside our homes, a lot of times above ground and 
usually with the best possible views of the sea. The creation 
stories of our culture revolve around Tagaloa and the creating 
of the Samoan Islands and others as stepping stones. The point 
is, our people place their loved ones on their land 
specifically to have these sacred views, so we must protect 
that tradition.
    I want to reiterate, I am fully supportive of keeping our 
alternative energy options open. Chairman Grijalva's bill comes 
from a good place and is a very good start, but I would hope we 
can accommodate our governors' authority against forced changes 
from Washington that will impact our island's history, culture, 
and way of life.
    American Samoa voluntarily ceded these islands in exchange 
for the promise of protection of just these very cultural 
traditions and ways of life called our Fa'a Samoa. I am hopeful 
the process will yield legislation that can reach an effective 
compromise on this front.
    We have 25- and 50-mile restrictions imposed on certain 
fishing areas, so perhaps setting distance limits so that the 
wind farms are not so visible from the shoreline would help, or 
allowing the governor a veto over projects too close to shore 
within specified limits would be possible. There seem to be 
some options here, and I would like to work with the Majority 
to find the best fit.
    Finally, lack of funding and cost-matching ability often 
are barriers to entry to resiliency projects in American Samoa, 
and the Chairman's bill makes great efforts addressing that.
    Thank you again, Chairman Grijalva, for your bill and the 
opportunity to comment. I know you and the Ranking Member and 
all the Committee members care about the territories' needs and 
appreciate it, and I hope you can all enjoy the natural beauty 
this Committee is working to protect on a CODEL sometime this 
Congress to investigate these and other issues.
    Thank you, and I yield back my remaining time, if there is 
any left, to Ranking Member Gonzalez-Colon.
    The Chairman. Well, I don't think there is any left. But 
anyway, let me--Mrs. Radewagen, let me tell the gentlelady that 
her comments and her observations are important and valid, and 
look forward to working with her on the points that she made.
    Let me now ask Ms. Katie Porter, Representative, Chair of 
the Oversight and Investigations Committee, for her 5 minutes. 
You are recognized, Ms. Porter.
    Ms. Porter is recognized for 5 minutes. Is she there?
    Let me move to the gentlelady from Colorado, a valuable 
member of this Committee, Ms. DeGette. The floor is yours. You 
are recognized.
    Ms. DeGette?
    Mr. Sablan. Not here as well, Chairman Grijalva.
    The Chairman. OK. Going down the line, Mr. Soto--the 
gentleman is recognized for 5 minutes, if he is available.
    Mr. Soto. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Soto.
    Mr. Soto. I appreciate the opportunity.
    We know that climate change, the climate crisis is an 
existential threat to the human race, and we see low-lying 
states like Florida be affected like so many of our insular 
lands, whether it is the rising seas or whether it is through 
strengthening in extreme hurricanes as well as monsoons. And we 
know we have to do something about it, which is why I am very 
excited about the Chairman's presentation of a draft for the 
Insular Area Climate Change Act of 2021. It is a draft because 
we are seeking your input, and that is absolutely critical.
    As you know, the bill would help centralize and expand 
Federal energy programs--which programs and how we do it, we 
are here today to listen to that; create multiple grant 
programs; invest in renewable energy and sustainable 
infrastructure; taking care of the causes of climate change, 
fossil fuel, and other pollution; and also making our 
infrastructure more resilient against hurricanes and other 
extreme weather.
    This bill will be a critical part of the Build Back Better 
infrastructure package that we will be working on over the next 
few months. And the bill will also ensure that our insular 
lands won't be left behind as we give America a well-needed 
upgrade.
    And, Chairman, I wanted to thank you personally for the 
inclusion of the coral reef section, which will complement our 
Restoring Resilient Reefs Act very nicely in protecting 
declining reefs, including the Great Florida Reef and so many 
other reefs in the Caribbean and the Pacific.
    Turning to my family's native island of Puerto Rico, in 
2019, the Puerto Rican legislature passed an amazing goal, 100 
percent renewable energy by 2050. Sadly, it has been about 2 
years since we had our hearing in this Committee with HUD and 
with FEMA about the $1.9 billion HUD grant to upgrade the 
electrical system. We are still waiting on that, and that is 
critical funding to help with this upgrade, to meet this 
challenge that the Puerto Rico legislature has set for itself.
    Secretary Machargo, do you know what the status of this 
grant is and why is it so important that we finally get the 
grant?
    Mr. Machargo. The information I have from the Puerto Rico 
Electric Power Authority is that they submitted their plan to 
FEMA and that they are about to get started with their overhaul 
of the electrical grid of Puerto Rico.
    Mr. Soto. OK. But it looks like we need to help you.
    Secretary Machargo, I know about a year ago, 4 percent of 
the total power was renewable. What is the percentage today, so 
we get a sense of what we need to do to help in this bill?
    Mr. Machargo. I think it is about 20 percent, and we have 
to raise it according to the goals of Law 33 to increase it to 
50 percent in a couple of years. So, we are working toward that 
goal. The Puerto Rico Electric Power Authority is very 
aggressively pursuing renewable source of energy, and the 
Energy Commission is making sure that any further expansion on 
the energy grid, any new type kilowatt added should be 
renewable energy.
    Mr. Soto. Last, Ms. Monzon, about the importance of 
community-driven renewable projects, how critical is this bill 
to making sure we get solar into rural communities in the 
central part of Puerto Rico and other hurricane hard-hit areas?
    You are on mute.
    And, Chairman, I believe some of my time was already 
running by the time you called on me. You may want to check 
with staff on that.
    Ms. Monzon.
    Ms. Monzon. It is extremely critical, Mr. Soto. As a matter 
of fact, I think that because of the interruption of energy, we 
lost so many lives because people couldn't get access to 
services because it was delayed for a long time. So, as much as 
we can, we need to invest in renewable energy. It is the only 
way that we can make sure that hospitals, the emergency 
management offices, the critical essential services facilities 
can have access to their own energy, so that then they can 
provide the services that are needed, especially in 
catastrophic hurricanes or catastrophic events, because that is 
the time where we get tested. At that time, that is when we 
need to provide the services so that we don't lose lives.
    And in that sense, I think that we have to invest hard to 
switch to renewable energy and at the same time avoid 
disruption in water services, in health care, food supplies, 
the whole supply chain, because all of that provides for the 
stability and the response and recovery of our islands in case 
of a catastrophic event.
    Mr. Soto. Thank you. And my time is expired.
    The Chairman. Thank you, Mr. Soto.
    Mr. Stauber, you are recognized, sir, for 5 minutes.
    Mr. Stauber. Thank you, Chair Grijalva.
    Mr. Machargo, thank you for your public service to Puerto 
Rico, and thank you for testifying today.
    Chairman Grijalva's bill calls for a massive expansion of 
energy technology, especially wind as the bill requires further 
offshore lease sales. As you may be aware, a single wind 
turbine requires 335 tons of steel, nearly 5 tons of copper and 
others.
    One concern with this bill is that I see no buy-American 
requirements. In northern Minnesota, our iron miners produce 
the taconite that feeds 80 percent of this country's 
steelmaking. However, our top steelmaking competitor is China. 
Unfortunately, China's steelmaking requires a 50 percent higher 
greenhouse gas emissions footprint.
    For this one windmill, this is more than 300 hundred tons 
of carbon equivalents produced if the turbine is sourced in 
China. If the goal is truly a reduction in greenhouse gas 
emissions, can you commit to sourcing LNG energy components 
domestically?
    Mr. Machargo. You are asking me?
    Mr. Stauber. Mr. Machargo, yes.
    Mr. Machargo. Well, unfortunately, I am not in charge of 
the Puerto Rico Electric Power Authority, but I think your 
advice is well taken, and that we should source our wind power 
turbines from places that manufacture with energy efficiency 
because we don't want to defeat the purpose of moving toward 
renewable energy. You have seen a source of renewable energy 
that it takes oil-based energy or carbon-based energy to 
manufacture, so I think that advice is well taken and I will 
convey it to the Puerto Rico Energy Commission and the Puerto 
Rico Electric Power Authority. So, I welcome that suggestion.
    Mr. Stauber. And I think that that is very wise to invest 
in those domestically sourced materials that are produced using 
less carbon emissions with our labor standards and our 
environmental standards, and I appreciate your comments.
    I yield back, Mr. Chair.
    The Chairman. Mr. Vice Chair of the Full Committee, Mr. 
Garcia, you are recognized for 5 minutes.
    Mr. Sablan. Chuy, we can't hear you.
    The Chairman. Mr. Garcia, you are recognized for 5 minutes.
    Mr. Garcia. Oh, sorry. Yes. Thank you, Mr. Chairman. Sorry 
about that blip. Thank you for holding this hearing. And, of 
course, thanks to the Ranking Member.
    Today, we speak on one of the most important issues that we 
are facing and one that will impact generations to come: 
climate change.
    In one way or another, we are all impacted by climate 
change, but for those living in the insular areas, the impact 
is immediate and deadly. They do not have the luxury or 
privilege of ignoring climate change. The insular areas are a 
tragic reminder of why climate action cannot wait.
    In 2017, two major storms, Hurricanes Maria and Irma, 
impacted Puerto Rico and the U.S. Virgin Islands, causing 
thousands of deaths and significant damage to Puerto Rico's 
fragile power grid especially. Over 3 years later, people are 
still reeling from the pain and the islands have slowly 
recovered, despite the Federal Government's slow response.
    The evidence is clear: Rising temperatures and heavier 
rainfall both play a key role in intensifying hurricane 
strength and destruction, and it will only worsen unless we act 
now.
    As currently drafted, the Insular Area Climate Change Act 
of 2021 would provide the U.S. territories with long-overdue 
access to climate change and related Federal programs.
    Finally, but equally important to this proposal, is the 
importance of a process that is inclusive, transparent, 
community-led, and community-driven. Bottom line, the people 
who are most impacted by climate change should be at the table.
    Question for Secretary Machargo Maldonado. Thank you for 
joining us. Mr. Secretary, do you agree that people who are 
most impacted by climate change should be included in the 
decision-making process?
    Mr. Machargo. Yes. Thank you, Congressman Garcia.
    Yes, I agree that the decision of the climate change 
resiliency and response strategies should be a product of our 
public participation and should be brought out all throughout 
the communities, because there are many communities that are 
affected differently, especially those coastal communities that 
are seeing their homes being eaten away by the ocean. I have 
been in a community in Guayanilla that has been literally 
sinking, and the people are losing their homes. So, those 
people who have the most serious impact should be heard. I 
agree with you, Congressman Garcia.
    Mr. Garcia. Thank you, sir.
    And are you aware of the harmful impact that the 
construction of a proposed development, Kontel Adventure in 
Santa Isabel, would have on the community, environment, and 
endangered species, including cutting off the residents of the 
city from access to the beach?
    Mr. Machargo. Well, according to the law of the 
Commonwealth of Puerto Rico, everybody should have access to 
the beach. That would be illegal, to cut people from access to 
the beach.
    I will take note of that case that you mention, and I will 
look into it to see if they have all the permits, and I will 
evaluate any negative impact that that project will have on the 
surrounding communities.
    Mr. Garcia. Thank you, Secretary.
    Also, I want to know if the communities near Bahia Jauca 
were informed in advance of this development. And were there 
public forums or not--I have heard that there weren't--to 
address the concerns? That would be appreciated.
    The communities near Bahia Jauca were some of the hardest 
hit by Hurricane Maria and are still struggling more than 3 
years later. A project of this size with potential negative 
environmental impact must have public input and consideration.
    So, Mr. Chairman, I ask for unanimous consent to enter a 
letter on behalf of Salvemos Jauca into the record. Salvemos 
Jauca is a movement by a local organizer to ensure that the 
ecological and biodiverse treasures of Bahia Jauca are 
preserved.
    Most importantly, community input must always be 
prioritized so that people who are most impacted by such 
developments have their voices heard.
    Thank you. And if there is unanimous consent, I yield back.
    The Chairman. Without objection, so ordered.

    [The information follows:]
                               SAVE JAUCA COMMITTEE

                                                  December 12, 2020

Hon. Raul M. Grijalva, Chairman,
House Natural Resources Committee,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Grijalva:

    The Jauca Beach, located in the southern town of Santa Isabel, 
Puerto Rico is in danger of providing the last public community access 
to its beach. Our community recently discovered a construction proposal 
that will place a hotel in its last public access to the beach. For 
these reasons, the Save Jauca Beach Committee and residents of Puerto 
Rico request your aid in stopping the hotel construction and conserve 
its access to the people of our hometown in Santa Isabel, Puerto Rico.

    The hotel construction would affect its ecological and biodiverse 
treasures, as well as the community that surrounds it. Firstly, our 
Jauca beach bay area contains archeology treasures documented by 
archeologist Juan Gonzalez. Also, it contains great biodiversity in 
danger such as the Manatee and mangrove forest that could be affected 
by the construction of this Hotel.

    As people of the City of Santa Isabel we are opposing to this Hotel 
since it will limit the current use of the community and safety since 
the terrain where this hotel is proposed to be in the Maritime land. 
And lastly, after hurricane Maria it was reported by FEMA that this 
very same beach area was reported as a flood zone.

    We are requesting your intervention as Chairman of House Natural 
Resources Committee since the local government and agencies seem to 
bypass the protection of our natural resources and the public access of 
the people to it. Our request is to preserve and protect the Jauca Bay 
Maritime land and to guarantee the conservation of our natural 
resources.

    In times of global warming, sea level raise, and stronger storm 
systems on our region, we urge you to stand up for the natural resource 
access, for the maintenance of healthy communities and a safe climate.

            Respectfully,

      Moises Marrero      <bullet>     Nelson Torres       
                                 <bullet>     Eleri Ossorio

                                 ______
                                 

    The Chairman. And, Mr. Secretary, let me associate myself 
with Mr. Garcia's question and comments regarding this 
development. And any information that is forthcoming will be 
disseminated to the Committee. There is a great deal of 
interest on the part of many of us as to that particular 
development and its potential impacts. So, we are looking 
forward to it, and thank you very much for your willingness to 
provide that.
    Mr. Machargo. Mr. Chairman, I will look into the case and 
provide the Committee with the information regarding the case 
and the concerned public participation.
    The Chairman. Thank you so much.
    Let me recognize Mr. Tiffany.
    Representative Tiffany, you are recognized for 5 minutes.
    If not, Representative Carl, sir, you are recognized for 5 
minutes.
    Representative Rosendale, you are recognized for 5 minutes.
    Mr. Rosendale. Thank you, Mr. Chair and Ranking Member 
Westerman.
    The Chairman. You are welcome.
    Mr. Rosendale. And thank you to the entire panel for 
joining us.
    As an avid outdoorsman who lives in a rural community 
adjacent to Montana's largest state park, Makoshika, and two of 
the nation's gems, Yellowstone National Park and Glacier 
National Park, I know how special the environment is to our way 
of life in Montana and to the balance of the United States and 
the territories.
    I believe that we have an obligation to balance 
environmental protections with responsible energy production, 
and the two are not mutually exclusive. It is of grave concern 
to me when the government unfairly picks energy winners and 
losers in order to placate the environmental, green lobby.
    Modern American energy development goes to great lengths to 
minimize their environmental footprint by operating under the 
strictest regulatory standards and restoring disturbed areas to 
better than predeveloped condition.
    Traditional fuel sources continue to be the most reliable 
source of energy for the electric grid. They can be stored on-
site, are dispatchable, and operate 24/7/365 days a year.
    While I believe in an all-of-the-above energy approach, 
this proposal completely ignores that science and continues to 
push the left's Green New Deal initiative, which dramatically 
drives up energy costs for those who can least afford it.
    So, Secretary Maldonado, thank you for being here today.
    Nearly three-fourths of the energy used in Puerto Rico 
comes from petroleum products, all of which are imported. 
Currently, just 2.5 percent of Puerto Rico's electricity is 
generated by renewables.
    We have seen the devastating impacts hurricanes have had in 
Puerto Rico and the need for a reliable energy grid. How does 
Puerto Rico plan to implement grid reliability if mandated to 
transition to 100 percent renewable energy? And what measurable 
impact will this have on our climate?
    Thank you.
    Mr. Machargo. OK. Thank you, Mr. Congressman, for the 
question.
    One of the ways that Puerto Rico should recover and rebuild 
its electric grid is through the use of microgrids to make sure 
that critical infrastructure, like hospitals and government 
buildings, should have energy sources.
    Also, due to the production costs of the Puerto Rico 
Electric Power Authority, moving toward renewable energy has 
represented a saving in the cost per kilowatt, and regarding 
the effect on Puerto Rico's contribution to output, I don't 
think it would be that great, but every little bit helps.
    Mr. Rosendale. That is an awful lot to pay for a little bit 
of help, Mr. Maldonado.
    Do we have any kind of--we still have some time here. Do we 
have any kind of cost estimate on what that investment would 
take?
    Miss Gonzalez-Colon. Mr. Rosendale, will you yield?
    Mr. Rosendale. Yes, I will.
    Miss Gonzalez-Colon. Thank you, Mr. Rosendale.
    Secretary Machargo is from the Natural and Environmental 
Resources Department, so he is not in charge of energy for the 
island.
    We do have the Puerto Rico Electric Power Authority, which 
is the government-owned company managing all energy, and then 
you have the Energy Commission.
    And I agree with you 200 percent. We need to move forward 
for having energy solutions on the island that can be reliable, 
that can be constant, that can meet the demand of the industry 
as well.
    And being an island, that means that right now we are 
burning oil. And we need LNG, we need a lot of other 
opportunities. And I know that the island approved the law to 
have 100 percent renewables by 2050, but right now it is just 2 
percent that we have.
    I think one of the biggest issues is bringing the Energy 
Commission of Puerto Rico and discuss that same question you 
brought to the Committee. How much is it going to cost? How 
soon is that going to be implemented? Because you are hitting 
the target here. And I think that the perfect people to answer 
those questions should be the Energy Commission of the island 
and the Puerto Rico Electric Power Authority.
    And, with that, I yield to you.
    Mr. Rosendale. Thank you.
    Mr. Chairman, with that, I yield back to you.
    The Chairman. The gentleman yields back. Time is up. Thank 
you very much, sir.
    A new member to the Committee. Welcome, new member to the 
Committee, Mr. Cohen. You are recognized for 5 minutes if you 
are available.
    Mr. Cohen. Thank you, Mr. Chairman. I am here.
    I have enjoyed the meeting. This is my first Committee 
meeting on Natural Resources. I am a rookie. I appreciate you 
not requiring me to wear a beanie and signify that, but I would 
do that, because it is an honor to be on this Committee.
    And climate change is one of the major reasons why I wanted 
to be on this Committee, and protection of our waters and 
oceans. And, of course, that would include the insular areas.
    So, I thank you for the Committee meeting.
    I had a great opportunity to visit Puerto Rico February a 
year ago with Chairman DeFazio on a CODEL. And the Ranking 
Member, I think, joined us in the Virgin Islands. The first 
time I have been to either of those parts of the United States, 
and I learned a lot and enjoyed the experience and learned 
about the hurricanes and the devastation on those two islands.
    We need to be concerned about the effects the climate will 
have on those islands and on all the islands of the United 
States. So, this is an important meeting, and I am just 
learning and will follow along and try to learn more about what 
we can do to protect these areas, which we need to do. They are 
valuable.
    And I just wonder, is the gentleman still on from the 
Virgin Islands?
    Mr. Oriol. Yes, Congressman. Yes, I am.
    Mr. Cohen. Have you all constructed a statue of Delegate 
Plaskett yet? You know, she is a hero.
    Mr. Oriol. I am sure it is in the works.
    Mr. Cohen. I thought he was the greatest guy from the 
Virgin Islands, but Stacey Plaskett has surpassed him. She is 
phenomenal.
    And Commissioner Gonzalez-Colon treated us wonderfully in 
Puerto Rico, and I thank her for that. It was a great trip and 
a learning experience. She taught me something about Roberto 
Clemente, but she didn't tell me that Francisco Lindor was also 
from Puerto Rico, and he is a good guy too.
    But I will yield back and look forward to learning from the 
Chairman and the other Members, and take my position as a 
freshman. I yield back my time.
    The Chairman. Thank you very much, Mr. Cohen. Appreciate 
it.
    Let me now ask Mr. Moore. You are recognized for 5 minutes, 
sir.
    Mr. Moore. Thank you, Chairman.
    And thank you all for being here today. I do appreciate the 
time you have taken to share with us some of the challenges you 
face.
    I try to make every issue that comes up a bit personal, and 
this is another area. After the hurricane, after the 
devastation in Puerto Rico, a very, very close friend of mine 
is married to a gal whose sister lives in Puerto Rico. He 
organized a trip, he raised money, he went down there 
personally. Being able to contribute in a small way to that is 
a way that brings our world together.
    The areas that are involved in this, they mean a great deal 
to America, to the inclusive nature of territories, states, 
whatever you want to--this is an inclusive matter, right? And 
with respect to two big areas, with military and tourism, I 
hope that we are able to communicate that, and I hope that you 
are able to understand that this entire Committee cares and 
understands that greatly.
    Some of the comments previously, just about the importance 
of military. I also serve on House Armed Services, so I hope to 
be able to bring this topic to that Committee as well, given 
the specific nature of Guam.
    I do have concerns with the discussion draft of the Insular 
Area Climate Change Act.
    We have made incredible strides in recent years toward 
reducing our emissions, improving the efficiency of our energy 
infrastructure, and making breakthroughs in cleaner 
technologies. And I want to always be a force for market-based 
solutions and not forcing or overly mandating these types of 
things but creating the right incentive program, creating the 
right data to be able to continue to move us in the right 
direction. I sincerely believe that the market is doing a good 
job at this, and we are witnessing a shift toward cleaner 
technologies.
    So, I just want to be able to be a voice in making sure 
that this debate on this topic isn't shaped by sensationalism. 
We can't focus only on one industry or one interest group with 
respect to this topic. And I hope that we can create a really 
good dialogue going on with all my colleagues on this Committee 
and those of you that are willing to show up.
    I have a few questions in mind, and one was just, I 
believe, brought up, but feel free to touch on it as I toss 
this over to some of the experts here, or the witnesses.
    Just specifically, in plain speak, how can we move toward 
replacing petroleum as--what can we replace it with for a 
reliable source on the islands, specifically for Puerto Rico, 
given that 75 percent of Puerto Rico's energy needs are met?
    But the other question that I will pose--and I welcome any 
comments in these last couple minutes that remain. I am a 
strong believer in the importance of locally inspired, locally 
led, and locally executed projects. Any additional experiences 
that you all have had that will contribute to that would you 
like to share with us at this time? I think that we can find 
real solutions in that, local-led.
    So, either of those two questions, I will yield to anybody 
that would like to jump in on that. I don't want to 
specifically direct my comments toward anybody, but I will 
yield, though, and would love to hear your thoughts.
    In particular, Mr. Shelton, any other locally inspired that 
you would like to share?
    Dr. Shelton. Thank you, Congressman Moore.
    I think for locally inspired energy generation, that is a 
little bit difficult. I mean, there are some instances, like I 
mentioned earlier, that we can generate some of our own 
electricity with backyard contraptions. But it is not enough to 
move to the 100 percent renewable energy that we would like to 
do.
    I think one of the things that could lead to more 
affordability--there are some studies--I am not an economics 
expert, but there are heavy subsidies for fossil fuels still 
and fewer subsidies for renewable energy. So, if that can help 
with affordability, that would be great.
    And we also need to think about the long-term costs for 
islands. Maybe it is more affordable to the ratepayer for using 
fossil fuels today, but we are going to have a lot of 
infrastructure costs to literally, like, raise the islands--not 
in my metaphorical sense that I was using earlier, but we will 
have to build the infrastructure to avoid the rising seas, if 
that is the way that we continue to view the affordability in 
the short term versus the long term.
    Thank you, Congressman.
    Mr. Moore. Thanks.
    And it looks like our time could be up, so I yield back.
    The Chairman. Thank you, Mr. Moore.
    The gentleman yields.
    Representative Tlaib, you are recognized for 5 minutes. 
Thank you.
    Ms. Tlaib. Thank you, Chairman.
    While my district may be far from Puerto Rico or the U.S. 
Virgin Islands, we have more in common than one might think. My 
district is full of frontline communities directly exposed to 
the climate crisis, from what we call the ZIP Code 48217, where 
the concentration of corporate polluters is literally killing 
my neighbors, to a city of Dearborn Heights that I share with 
Congresswoman Dingell, where increased flooding in the Ecorse 
Creek is threatening people's lives.
    The sooner we realize that our fates are all connected and 
that nobody will be spared by our climate inaction, the sooner 
we can pass laws like the Insular Area Climate Change Act that 
take real steps to protect our most vulnerable communities. And 
it should not be controversial.
    Throughout the COVID pandemic, I have been contacted by my 
mayors in my district who face barriers to using Federal relief 
funds because of cost-sharing requirements they couldn't meet. 
And I know the pain these requirements can pose, so I am glad 
to see match requirements waived in this bill.
    Mr. Oriol, how would waiving the non-Federal cost-sharing 
requirements truly benefit the people of the Virgin Islands and 
allow you all to better fight climate change and its effects?
    Mr. Oriol. Thank you for the question, Congresswoman Tlaib.
    Even as we speak right now, the Virgin Islands, through the 
administration of the HUD CDBG-DR grant and the hazard 
mitigation funding for recovery right now from Hurricanes Irma 
and Maria require us to have some cost-share. I believe it is 
10 percent at this time.
    So, when you are talking about a billion dollars in relief 
aid but needing to come up with that 10 percent match 
requirement, that is a huge obstacle for a territory with 
100,000 residents who are suffering from a pandemic, whose 
primary revenue source is tourism, and everything has been shut 
down for over 12 months now.
    So, as this will continue, the types of things that the 
administrators have to grapple with is: How?
    Ms. Tlaib. Yes.
    Mr. Oriol. So, cost-share relief, even down to the smaller 
grants, where it allows us to be able to directly implement 
some of the strategies that we list with our Federal partners 
and get those out onto the ground. It is a huge, huge relief, 
from a very small $200,000 grant up to our billion-dollar 
assistance loans.
    Ms. Tlaib. I couldn't agree more.
    In my district, municipalities have been ravaged by debt. I 
don't know if you know--the city of Detroit recently went 
through the biggest municipal bankruptcy in American history. 
And I saw the impact on my residents. And the city of Inkster 
in my district lost its entire school district because of 
outstanding debt.
    So, I really do appreciate the leadership of our Chairman.
    Mr. Maldonado, one of the President's campaign promises was 
to forgive disaster relief loans to Puerto Rico, in the 
municipalities there, so they can recover faster. How would 
this proposal, which is also included in the bill as Section 
601, help Puerto Rico?
    And, Mr. Chair, I couldn't see that Mr. Maldonado was still 
with us. If not, I can proceed.
    Mr. Machargo. Yes, I am here. Madam, can you repeat the 
question?
    Ms. Tlaib. I was talking about one of the things that our 
current President had promised was to forgive disaster relief 
loans to Puerto Rico--and I know we talked a little bit about 
that--in the municipalities so they can recover faster.
    How does this proposal, which is included in the bill as 
Section 601, how does that really help the Puerto Rican people?
    Mr. Machargo. Well, we have a situation with the cost-share 
of the relief programs that are putting some small 
municipalities through strain, because they don't have the 
reimbursements, and they don't have the money to start the 
projects. And we in the local government are being--development 
like a line of credit so the municipalities can start the 
project.
    But that provision of the bill would greatly help, because 
we cannot----
    Ms. Tlaib. Because time is limited, would you say it truly 
paralyzes you all from continuing the services and support for 
the people? Am I correct?
    Mr. Machargo. Yes. Yes, it does.
    Ms. Tlaib. Same thing in the city of Detroit.
    I am really just--and bear with me, Chairman. I really want 
to show just how connected it is, that we can't allow 
communities to continue to fail like this. We are still seeing 
the impact of allowing Detroit to go bankrupt, and we can't 
continue to allow communities across the world to be able to 
face--especially Puerto Rico and the Virgin Islands. It is 
really up to us, the United States, to protect them.
    So, thank you all so much.
    I yield.
    The Chairman. Thank you very much, Representative. I think 
it is important to make that connection. I am glad that you 
brought that up. Because sometimes we deal with the issue of 
climate change in isolation of everything else, and we 
shouldn't. And I appreciate that.
    If there are no further Members that are seeking to be 
recognized for questions, I do want to thank the witnesses for 
their testimony. And as I said initially, before I adjourn, 
that we wanted to bring this as a draft so that we have the 
opportunity to receive input. And thank you very much to the 
witnesses for that, and also from our colleagues.
    The importance of this piece of legislation can't be under-
estimated, but also the need to take some action cannot be 
ignored either. The move toward coming up with some compromise 
and some bipartisan agreements that will be necessary going 
forward is important, but the need to take action is also 
important, and that process will not go on in perpetuity. And 
our staff will proceed to try to work with you, and I will 
certainly create outreach with Miss Colon and Mrs. Radewagen to 
see those areas in which they brought up some issues that we 
can deal with.
    Thank you very much.
    Before I close and before we close on the witnesses, there 
was a report that was issued by the Environmental Defense Fund. 
It said that Puerto Rico could be considered a canary in the 
coal mine for climate change because it has been feeling the 
consequences of a warming world for some time. In fact, the 
same could be said for all of the islands that we are dealing 
with today.
    Let me ask Ms. Monzon, do you agree with this assessment? 
And are these specific examples--do you agree with the 
assessment that the Defense Fund came up with regarding the 
canary in the coal mine?
    If she is still available.
    Ms. Monzon?
    Mr. Oriol. She needs to unmute.
    The Chairman. OK.
    Ms. Monzon. Sorry about that. You got cut off, and I 
couldn't follow the statement. Could you repeat it, please?
    The Chairman. There was a report issued by the 
Environmental Defense Fund. When speaking of Puerto Rico, it 
said: Puerto Rico could be considered as a canary in the coal 
mine for climate change, because it has been feeling the 
consequences of a warming world for some time already. In fact, 
the same could be said for all the islands that we have been 
talking about today relative to this legislation.
    So, my question simply to you was: Do you agree with that 
assessment? And I just wanted you to comment on that.
    Ms. Monzon. Yes, Mr. Grijalva, I agree. No one can be 
surprised that our island has been subject to the most 
catastrophic impact of climate change. We are suffering from 
the coastal erosion; we are suffering from catastrophic 
hurricanes, one after the other.
    Even the health impact that we have had because of these 
things and also because of the economic development that is 
stalling in many areas of the island, that means that we 
definitely--if we can survive, if we can do it right, 
especially with all the funding that we are receiving in Puerto 
Rico to build better and safer, definitely we can be the 
example to America and for the entire planet on how to do it 
right.
    I only agree that we have the advantage of doing something 
better now than we have ever had. This is a historic moment for 
Puerto Rico, a historic moment. Thank you.
    The Chairman. I agree. Thank you.

    The hearing is adjourned. I appreciate it.

    [Whereupon, at 2:31 p.m., the Committee was adjourned.]

                                 [all] 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
